<html>
<title> - EMERGING FROM ISABEL: A REVIEW OF FEMA'S PREPARATION FOR AND RESPONSE TO AFFECTED AREAS IN THE HAMPTON ROADS REGION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 EMERGING FROM ISABEL: A REVIEW OF FEMA'S PREPARATION FOR AND RESPONSE 
             TO AFFECTED AREAS IN THE HAMPTON ROADS REGION

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2003

                               __________

                           Serial No. 108-92

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

91-421              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 10, 2003 in Norfolk, VA..................     1
Hearing held on October 10, 2003 in Chesapeake, VA...............    89
Statement of:
    Cade, Gregory, fire chief/emergency management coordinator, 
      city of Virginia Beach; Ron Keys, director of emergency 
      services, city of Norfolk; and Curt Shaffer, director, 
      plans, analysis and emergency operations branch, police 
      division, city of Hampton..................................    51
    Jolly, David, director of public safety, Dinwiddie County; 
      Richard Childress, Director of Emergency Management, Isle 
      of Wight County; Steve Herbert, city manager/director of 
      emergency services, city of Suffolk; and Steve Best, fire 
      chief/director of emergency operations, city of Chesapeake.   127
    Marshall, John, secretary of public safety, Commonwealth of 
      Virginia................................................. 31, 120
    Tolbert, Eric, Director, Response Division, Federal Emergency 
      Management Agency, U.S. Department of Homeland Security.. 13, 101
Letters, statements, etc., submitted for the record by:
    Best, Steve, fire chief/director of emergency operations, 
      city of Chesapeake, prepared statement of..................   154
    Cade, Gregory, fire chief/emergency management coordinator, 
      city of Virginia Beach, prepared statement of..............    54
    Childress, Richard, Director of Emergency Management, Isle of 
      Wight County, prepared statement of........................   137
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of................... 3, 91
    Forbes, Hon. J. Randy, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    97
    Herbert, Steve, city manager/director of emergency services, 
      city of Suffolk, prepared statement of.....................   146
    Jolly, David, director of public safety, Dinwiddie County, 
      prepared statement of......................................   130
    Keys, Ron, director of emergency services, city of Norfolk, 
      prepared statement of......................................    60
    Marshall, John, secretary of public safety, Commonwealth of 
      Virginia, prepared statement of............................    34
    Schrock, Hon. Edward L., a Representative in Congress from 
      the State of Virginia, prepared statement of...............     7
    Shaffer, Curt, director, plans, analysis and emergency 
      operations branch, police division, city of Hampton, 
      prepared statement of......................................    67
    Tolbert, Eric, Director, Response Division, Federal Emergency 
      Management Agency, U.S. Department of Homeland Security, 
      prepared statement of......................................    15

 
 EMERGING FROM ISABEL: A REVIEW OF FEMA'S PREPARATION FOR AND RESPONSE 
             TO AFFECTED AREAS IN THE HAMPTON ROADS REGION

                              ----------                              


                        FRIDAY, OCTOBER 10, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                       Norfolk, VA.
    The committee met, pursuant to notice, at 9:06 a.m., in the 
Hampton-Newport News Room, Webb University Center, Old Dominion 
University, Norfolk, VA, Hon. Tom Davis (chairman of the 
committee) presiding.
    Present: Representatives Tom Davis, Schrock, Forbes, and 
Scott.
    Staff present: Allyson Blandford, office manager; David 
Marin, communications director; Edward Kidd, professional staff 
member; Teresa Austin, chief clerk; John Hunter, counsel; and 
John Cuaderes, senior professional staff member.
    Chairman Tom Davis. A quorum being present, the Committee 
on Government Reform will come to order.
    We are conducting a field hearing in Norfolk today at the 
request of Mr. Schrock. We have one this afternoon in 
Chesapeake as well at the request of Mr. Forbes. We are 
assessing the post-Hurricane Isabel damage and the state of 
emergency preparedness in the Norfolk region.
    My colleague and good friend, Congressman Ed Schrock, 
requested that this committee of the U.S. Congress actually 
come down here to witness firsthand the adequacy of the 
Federal, State and local governments' response to the 
devastation inflicted by one of the worst storms in history to 
hit the region and to evaluate the state of cooperation among 
the responsible government agencies for emergency preparedness. 
These are vital concerns to our committee and indeed to the 
entire country in the post-September 11 world. It is for these 
reasons that we decided to come to Norfolk this morning and 
hold this important hearing.
    I do not need to remind everyone here that Hurricane Isabel 
inflicted death, injury and severe economic damage on this 
entire region. You continue to feel the direct effects of this 
horrific storm. One of the most glaring adverse impacts on 
virtually everyone living or doing business in this area is the 
flooding and closure of the Midtown Tunnel.
    The Government Reform Committee has a vital interest in the 
government's response to the damage caused by Hurricane Isabel 
in the Hampton Roads region. It is critical that the Federal, 
State and local governments plan and act in a coordinated, 
efficient manner, not only in response to future national 
disasters, but also to potential terrorist attacks. The Federal 
Government, the Commonwealth of Virginia and local 
jurisdictions have taken a number of actions to improve 
coordination of emergency preparedness efforts. Since the 
private sector owns most of the critical infrastructure in the 
Hampton Roads region and across the country, it is important 
for the private and public sector to work closely together to 
protect the region's infrastructure.
    The hurricane and our response to it mark an important 
opportunity to reassess this region's readiness and assure that 
plans are workable and will meet the needs of all those 
involved. I hope this hearing will give us an accurate picture 
of the cleanup efforts in the Norfolk area, what was learned 
from the devastation of Hurricane Isabel and the progress made 
in developing an effective emergency preparedness program. 
Also, the committee hopes to find out what actions have been 
taken by the Federal Government and local jurisdictions to 
improve coordination of emergency preparedness efforts. We will 
also find out what, if anything, has been learned concerning 
the critical infrastructure the private sector owns and what 
can be done to keep it online during a disaster.
    We have assembled an impressive group of witnesses for this 
morning's hearing. We will hear from the Federal Emergency 
Management Agency, the Virginia Department of Public Safety and 
the cities of Hampton, Norfolk and Virginia Beach.
    I want to thank all of our witnesses for appearing before 
the committee. I look forward to your testimony and I would now 
yield to Mr. Schrock for his opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.001
    
    [GRAPHIC] [TIFF OMITTED] T1421.002
    
    Mr. Schrock. Well, thank you, Mr. Chairman, and thank you 
all for being here this morning to examine the Federal, State 
and local preparation and response for Hurricane Isabel and the 
impact it had on our entire community here in Hampton Roads.
    Let me thank the chairman of the House Government Reform 
Committee, Congressman Tom Davis from northern Virginia, for 
conducting this hearing. The area of Virginia he represents was 
also hit hard by Isabel and I appreciate his interest in the 
recovery efforts in Hampton Roads and for him and his staff 
being here today.
    A drive through Hampton Roads clearly reveals the scars 
that Isabel left on our community. Trees still need clearing, 
thousands of homes still need repairing and our creeks, bays 
and rivers are full of debris left by Isabel in her wake. We 
all pray that a disaster of this intensity never comes here 
again. The reality is that hurricanes, floods and tornadoes 
will undoubtedly return to the East Coast in the future. We 
must take this opportunity to see how we can improve our 
preparation and our response.
    Let me say that I think our local, State and Federal 
officials performed well during very difficult circumstances. 
Hampton Roads has not been the victim of a disaster of this 
magnitude for a long time, but we saw assistance pretty much 
get where it was needed and we saw thousands of residents 
helping one another and especially those among us who were the 
hardest hit. We owe a debt of gratitude to the charitable 
groups and the thousands of people from throughout Virginia and 
across America who came here to help us--FEMA workers, Red 
Cross volunteers, utility workers and volunteers from numerous 
relief groups who came to Hampton Roads to help; and believe 
me, help they did. With that said, it is important to note that 
the recovery from Isabel is far from over. Homeowners and 
business owners are in the process of applying for loans and 
there is much more to be completed to rebuild our communities 
to its pre-hurricane state.
    There are many lessons to be learned from this disaster 
about how we can improve our response in the future. Vital 
communication lines between the localities, the State and FEMA 
broke down on occasion, resulting in needs not being fulfilled, 
followed by a lot of finger pointing to assign blame. 
Localities must know what is reasonable to expect from the 
State and Federal Governments and when it is reasonable to 
expect it. It is equally important that the public be aware of 
what to expect, so they do not set expectations too high. We 
saw many examples of the public setting the bar far too high 
for what to expect from FEMA, from Virginia and from the local 
officials, and we are all to blame for not getting that message 
out clearly.
    In disaster situations, communications breaking down means 
that vital facilities do not get generators, communities do not 
get the water and ice that is available and frustrations among 
the public grow. Planning for ways to improve future disaster 
response is already underway, and today's hearing will be an 
important part of that planning process. It is never too early 
to begin planning and preparing for future crises.
    That being said, let me say thank you to the witnesses, all 
of you, for being here today. I look forward to a very positive 
dialog as we learn how to improve lessons from response to 
disasters. The goal today is simple--to ensure that when we are 
in this situation again, our residents are better prepared and 
better informed and receive relief as soon as possible. Again, 
Mr. Chairman, thank you very much and thank you all for being 
here as well.
    [The prepared statement of Hon. Edward L. Schrock follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.065
    
    [GRAPHIC] [TIFF OMITTED] T1421.066
    
    Chairman Tom Davis. Thank you very much.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman, and I want to add my 
voice of appreciation for you holding this hearing in Hampton 
Roads and it is a pleasure to join my colleagues Ed Schrock and 
Randy Forbes. Our colleague Jo Ann Davis wanted to be here, but 
she had a longstanding commitment that she could not get out 
of. She did participate in an earlier hearing with another 
committee.
    I want to thank you for holding this hearing on FEMA's 
response to Hurricane Isabel. I would like to thank you for 
inviting the local officials to testify about what they 
experienced. They not only were our first responders, but they 
were on the front line throughout the challenging problems that 
occurred during the hurricane disaster.
    Although Isabel was officially ranked when it came here as 
a Category 1 hurricane, she caused unprecedented damage. For 
example, the loss of power, probably more loss of power than 
any time in Virginia Power's history, 1.8 million households 
were without power. Over half of these were without power for a 
whole week. Hundreds of thousands were without power for almost 
2 weeks. More trees down than anyone can remember, even the 
Midtown Tunnel flooded and this is the first time that I 
remember that we had a tunnel flooded in the Hampton Roads. I 
don't know if this ever happened before.
    The fact that we had such unprecedented damage caused by a 
hurricane designated as Category 1 suggests that we may need to 
look at another part of the category system. There were 
elements of this storm, such as the width of the storm, which 
may not be factored into the categorization system. Top winds 
were blowing for 4 to 6 hours, some high winds for 10 to 14 
hours. Right now, the main component is the speed of the winds 
and we need to explore whether other elements need to be 
considered, so that we will have a better measure of the 
expected damage.
    Because of the unprecedented damage that was caused, people 
had a variety of needs that had to be met. For example, the 
loss of power for many days meant that we developed a food 
crisis. No power meant critical shortages of water and ice. No 
power meant shortages in products which would have increased 
the quality of life such as battery operated devices and small 
appliances, but those things were hard to run because you could 
not find C and D batteries to run them. No power meant few gas 
stations could pump gas. And because the damage covered such an 
extensive area, neighboring jurisdictions were not able to help 
each other as they normally would because they were in just as 
bad shape as their neighbors.
    Nonetheless, there were a few things that did go right. For 
example, there was an unprecedented number of examples of 
neighbors helping neighbors. Communities that we visited had 
neighbors helping neighbors with trees and other activities. 
Communities pulled together, private businesses--and I have to 
mention grocery stores like Harris Teeter and the Seafood 
Industrial Park at the south end of Jefferson Avenue in Newport 
News--who were extremely helpful and generous, even giving away 
ice. Virginia Power restored power at a record rate of over 
100,000 customers a day. However, since you had 1.8 million, 
many had to go without power for many days.
    But we will also hear local elected officials detail things 
that did not go right. It took an excruciating amount of time 
to get water, ice, food, generators, and equipment. The 
administration of disaster food stamps I think was, frankly, 
dysfunctional although the social service employees worked long 
hours and were extremely effective. There were so many people 
who had to stand in line for hours to get services that should 
have taken just a few minutes. Localities and individuals did 
not know what to expect from FEMA, different jurisdictions were 
applying different standards; for example, clearing trees off 
private property was handled differently in the various 
jurisdictions. For many services, additional clerical help 
would have been helpful. And products and services that were in 
very short supply were not coordinated in getting them from 
other areas.
    My office facilitated help for a number of cities and 
counties in obtaining needed services that arose under this 
unpredictable situation. We were able to get help in a number 
of jurisdictions in obtaining services when their requests 
tended to get lost in the shuffle. The Coast Guard was 
extremely helpful. Because the Midtown Tunnel was closed, 
people had to depend on other routes, for example, the Downtown 
Tunnel. And the first day of this situation with the backup, 
ships went under the bridge and had to be lifted several times 
in the middle of rush hour traffic. We communicated this 
problem to the Coast Guard and they changed the schedule to 
make sure that no ships would be going through during the rush 
hour areas. And I can tell you that made a profound difference 
in traffic for tens of thousands of commuters who were 
extremely appreciative for this adjustment.
    No one could have known what was going to be needed and, 
therefore, FEMA's flexibility was crucial. We need to consider 
whether FEMA was able to respond in this situation to the needs 
of the people better as a member of the Homeland Security 
Department, better than they did when they were an independent 
agency. When they were an independent agency, the President 
could give a directive to the FEMA Director and that was it. 
Now the President has to go through the Secretary of Homeland 
Security who goes to the Under Secretary who initiates the 
action. This might not be bad in normal circumstances, but it 
just adds a layer of aggravation in an emergency. Communication 
problems and timely execution of orders were what we kept 
hearing were the problems, and we have to consider whether we 
would be better off if FEMA were again an independent agency.
    I would like to thank you again, Mr. Chairman, for holding 
today's hearing. Hopefully, with the insights from those on the 
front line, we will be able to go forward from today with 
better ideas on how to deal with emergency situations in the 
future.
    Thank you.
    Chairman Tom Davis. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And Mr. Chairman, I 
would like to echo what both Congressman Schrock and 
Congressman Scott have said, in terms of thanking you for being 
down here. I think many times we do not realize how rare it is 
to have the chairman of a full committee come down to a 
locality to conduct a hearing like this, and we just appreciate 
you taking the time to do that.
    I also want to thank Congressman Scott for his work, both 
throughout the storm and even now in trying to forge solutions 
to where we need to go and answers that we need to have to some 
of the concerns. And also to commend Congressman Schrock for 
his work, especially in helping our military bases with the 
damage that they had sustained there, which I believe the 
figures to the Navy alone was about $100 million in this 
particular storm.
    Mr. Chairman, I have a written statement I would like to 
put in the record, but one of the things that I would like to 
just characterize about this storm is that to me the story 
after the storm is going to be what Congressman Scott alluded 
to, and that is, first of all, the incredible community spirit 
and patriotism that we saw from volunteers all across our 
communities that were getting out and clearing streets and 
helping disabled individuals to make sure they had their 
medicines, the things that they really needed. Without them, we 
just could not have gotten the job done. The second thing that 
I saw that impressed me dramatically was the effort that local 
government had in this particular situation. I know, like many 
of the other Members of Congress, I visited just about all of 
my local governments the day after the storm and the days after 
that. I was just enormously impressed with the coordinating 
ability they had, with the preparation they had. I cannot give 
them enough kudos for the job that they did; I think it was 
just exemplary. And the other thing is, to Dominion Power, I 
think they did just a fantastic job. In looking back, if you 
did not have your power on, you could kick and scream and wish 
that something could be done differently, but there is nothing 
that you could look at from a management perspective and say 
that they just did not do everything that they needed to do.
    If you look at our State and Federal response, there are a 
lot of wonderful things that they did and we could spend a lot 
of time talking about the wonderful things. But what we are 
here for is to try to fix any of the problems that existed. And 
my assessment was that days after the storm, now, the Federal 
and State response is a pretty good response. But in those 
critical days during the storm, we had some enormous gaps that 
we need to work on and we need to address and we need to fill. 
It was a true divide between haves and have nots. If you were 
getting ice, if you were getting water, if you were getting the 
resources that you needed, it was easy to come out and say 
``Oh, I think FEMA and I think the State is doing a wonderful 
job.'' But for those localities who were sitting there being 
promised things and were not getting it, that was very, very 
frustrating.
    One of the concerns that you always have in a situation 
like this, you can easily say let us not finger point, but if 
that means let us not ask tough questions, then I think we make 
a huge mistake. On September 11, for example, there were a lot 
of heroic deeds done by a lot of people, especially at the 
World Trade Center and the Pentagon, but we learned a huge 
lesson by asking tough questions. The lesson we learned was 
that our communication between our first responders was not 
what we wanted it to be. Some of them had different 
communications systems, devices, frequencies, and we corrected 
that problem. That is what I hope we can get out of this series 
of hearings.
    And Mr. Chairman, let me just finish by saying two things. 
The first one is that I hope that we can develop some objective 
criteria for when we are delivering services, and some of the 
responses that we are making, so it does not become like 
obscenity where you just know it when you see it, because that 
creates all kinds of frustrations among localities. And one of 
the things that I think we have to do in asking these tough 
questions is to begin to find out what kind of expectations we 
can give our localities, because throughout this process and 
even to today, we should not even have to have this hearing; we 
ought to be able to get a lot of these questions without coming 
to a formal hearing. But there are still some questions that I 
know a lot of us have not been able to get, a lot of our 
localities have not been able to get through today.
    So I hope, Mr. Chairman, that we will be able to answer 
some tough questions and hopefully make a better response for 
our citizens and I will just close by saying this. I am not as 
concerned about a hurricane; this was inconvenient, this was 
costly, this was devastating to people, but what absolutely 
frightens me is what response we would have had if we had a 
Category 3 hurricane or if we had a terrorist response. And 
that is why it is so important for us to fix these problems 
before that situation occurs.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. And before we hear 
our first witness, let me just say it is my 9th year in the 
House, first year chairing this committee, but I do not think 
you will find any delegation in the country that works as well 
together as the Virginia delegation. We really--partisanship is 
put aside, we meet every month, we do not steal each other's 
press releases. When you go out around the country and see what 
is going on in Texas right now, some of these other States 
where they are at each other's throats all the time, even 
delegations that are all one party or the other many times are 
at each other's throats. We work together pretty well on these 
issues and I want to thank the Federal Government, State 
government, local governments for cooperating with us as well. 
We are really all on the same team here, just to better 
understand and let the public understand what happened here, 
how we can improve. Every time we respond to a crisis, we learn 
things. It does not mean everybody makes a mistake, but you 
just learn things and we need to build on what happened here so 
that next time we can be even better.
    Our first witness today is Eric Tolbert, who is the 
Director of the Response Division of the Federal Emergency 
Management Agency from the U.S. Department of Homeland 
Security. I want to thank you for taking the time to be here, 
Mr. Tolbert. It is a policy of the committee that we swear in 
all witnesses before they testify so if you would stand with 
me.
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much. You can speak. We 
have a timer here. Your whole statement is in the record. When 
it turns orange, that means 4 minutes are up and you have a 
minute to summarize. We have all read it, so we are ready to 
get to the questions. Thank you very much.

STATEMENT OF ERIC TOLBERT, DIRECTOR, RESPONSE DIVISION, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Tolbert. Thank you, Mr. Chairman, members of the 
committee.
    It is a pleasure to come out and provide our input into the 
response and ongoing recovery efforts related to Hurricane 
Isabel. I have submitted my statement for the record and I have 
opted to abort from simply reading that statement. I have made 
some notes that I would like to hopefully generate some 
questions and provide some insight into the method of 
operations, the system as it exists today.
    I think it is also worthwhile for me to say that I have 
been in this business for 20 years. I have been a local 
emergency manager in North Carolina, I have been a State 
regional emergency manager, I have been a State assistant 
director in North Carolina, an assistant director in Florida 
after Hurricane Andrew and finally back to North Carolina after 
Hurricane Franz struck North Carolina, as the State director. I 
have been in FEMA for a year and a half, I have been in this 
position for 6 months.
    I agree with the comments that have been made by the 
Members that at this juncture there is great value in 
identifying the lessons learned and identifying strategic 
objectives for correcting the difficulties that occurred. I do 
not think there is any value in assigning specific blame and 
looking for people to assign penalties to, and Mr. Forbes, I 
appreciate your comments. I think there is great value in 
dissecting this response and looking for areas for improvement.
    And let me say upfront that FEMA and the members of FEMA 
are very committed to working with the State and the local 
governments, all of the State and local governments that are 
affected by this disaster to look at refinements and to improve 
our plans and procedures to ensure that future responses are 
enhanced. This emergency management system is a bottom up 
approach and we all share in the full responsibilities of 
protecting ourselves first, protecting our neighbors, 
protecting our communities, and protecting our constituents. In 
many ways, it is a convoluted system in that it is a bottom up 
approach, with local governments having the prime 
responsibilities typically under State law for taking the 
initial response efforts and we have seen emergencies and 
disasters around the country and indeed in Isabel where there 
was exemplary actions. Then the second method is for the State 
to provide assistance and that generally requires specific 
identification of capabilities that are needed. And I would say 
from past experience that many of the items, many of the 
requirements identified in the throes of this emergency were 
foreseeable, based on past experience. In fact, I have not 
learned a lot of new lessons from this disaster, I have learned 
more about our system and our capabilities, but many of the 
lessons learned are repeated in disaster after disaster.
    Preparedness does begin at home, I think it is a critical 
element that we continue to put our resources into family 
preparedness, into community preparedness. Regardless of the 
capabilities we put in place at all levels of government, it 
will never replace the family and community orientation 
providing initial response resources, initial assistance, 
because as we saw in Isabel, with roads under water, with roads 
having trees across them, it is impossible, regardless of all 
the planning and resources we apply to get into every 
community, penetrate into every neighborhood and to be able to 
help every victim in the first few days following a disaster.
    Our doctrine is, and it is based on the Stafford Act, that 
we use a bottom up approach with local government applying 
their resources, applying their plans, their procedures, their 
contractual capabilities. When it is beyond their capability, 
the State then is asked for help and when it is beyond the 
State's capability and the President authorizes disaster 
relief, then we are authorized to provide supplemental Federal 
assistance.
    Our logistics concept is one of pull versus a push 
methodology. The prime reason for that is under the Stafford 
Act, there is a cost share requirement that the State incurs 
when they ask for Federal assistance, so there is a 25 percent 
cost share and that causes us to go into a pull logistics 
methodology in which the State asks for help, we define what 
those costs are and the State has the option to accept or 
reject those costs and look for alternative methods. So in many 
ways in the throes of an emergency or disaster, that does 
appear very convoluted, it is in some ways difficult and if you 
have not had a lot of experience, it is somewhat difficult.
    Let me identify just a few shortcomings that I think we 
have to keep in mind as we proceed through this discussion. I 
was again amazed by the vulnerability of our critical 
infrastructure and the failures. Even today, we have about 45 
water systems in the Commonwealth of Virginia that remain on 
boiled water orders. I think this is an area that requires our 
immediate attention and look for resolution on ways to shore up 
our critical infrastructure, especially potable water, to 
ensure that those systems are going to survive future events.
    Sir, I realize the red light has come on, but I would just 
like to note that in disasters, I have seen it time after time, 
that because of the time involved pre-event in the evacuation 
phase, by the time you get to what we call D-Day, there is 
typically a great exhaustion on the part of personnel because 
they have already invested huge resources, and then the real 
hard work begins, which is providing the resources, providing 
the assistance. And in this case, the workers themselves were 
disaster victims. When I visited the State Emergency Operation 
Center and local EOCs, I talked to person after person who 
still had trees on their homes, they knew their families were 
safe, but they still did not have power and they were living in 
the same environment, so I think it is a tribute to the 
personnel that were involved at all levels in responding to 
this.
    [The prepared statement of Mr. Tolbert follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.005
    
    [GRAPHIC] [TIFF OMITTED] T1421.006
    
    [GRAPHIC] [TIFF OMITTED] T1421.007
    
    [GRAPHIC] [TIFF OMITTED] T1421.008
    
    [GRAPHIC] [TIFF OMITTED] T1421.009
    
    [GRAPHIC] [TIFF OMITTED] T1421.010
    
    [GRAPHIC] [TIFF OMITTED] T1421.011
    
    [GRAPHIC] [TIFF OMITTED] T1421.012
    
    Chairman Tom Davis. Thank you very much.
    I have a quick question to followup on Mr. Scott's concern 
that he expressed in his opening statement. In the past, FEMA 
was an independent agency and it was a direct line to the 
President. As part of our realignment in the Department of 
Homeland Security, we made it part of a larger bureaucracy. You 
have worked in this area for a number of years and you know the 
procedures back and forth. What is your observation? Is the 
fact that you are put in a larger department now, do you need 
more clearances before you get the money? Do you think it has 
hampered this at all? What is your observation?
    Mr. Tolbert. Mr. Chairman, I have given a lot of thought to 
this, and I was involved in the transition phase.
    Chairman Tom Davis. I understand you have a company line on 
this too.
    Mr. Tolbert. No, sir, I do not. I can speak because there 
is no conflict. In this case, I did observe the commitment on 
the part of our department.
    Chairman Tom Davis. We will give you a full pardon, you can 
say what you want. [Laughter.]
    Mr. Tolbert. And you swore me in, so I will tell the truth. 
In this case, it did add tremendous value. You cited the case 
of the U.S. Coast Guard and its commitment. I can tell you that 
the Coast Guard was the most committed I have ever seen the 
Coast Guard in an emergency, and that is a result of being 
under the same boss. The Borders and Immigration and Customs 
Enforcement [BICE], organization committed their resources in 
advance because we knew there were shortcomings in aviation 
support. Because of National Guard deployments, we anticipated 
there would be rotary wing aircraft shortfalls and they 
committed their aircraft, provided significant intelligence 
back in short order, specifically in North Carolina, as to the 
impacts out there. It did add some additional reporting 
requirements, but I can tell you that it did not interrupt the 
flow and the assistance far overweighed any additional 
requirements.
    Chairman Tom Davis. Basically you are saying you really can 
bring more resources to bear as a result of this?
    Mr. Tolbert. In a much more timely manner.
    Chairman Tom Davis. But there are more reporting 
requirements, but those were fairly insignificant in this case, 
is your observation of this.
    Mr. Tolbert. That is correct, sir.
    Chairman Tom Davis. Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    Mr. Tolbert, I agree completely with what you said about 
the Coast Guard, they flew me to Tangier Island to look at the 
disaster there, and I think the Coast Guard has come into their 
own finally for the first time. I think people are realizing 
the value they have always had but none more so than now since 
we have this war on terror.
    I agree completely with what Mr. Forbes said about fear. My 
fear is that if we have a terrorist attack, we will not have 
rehearsed for it. When the military does exercises, that is all 
they do, they practice, they rehearse, they do lessons learned. 
They do that now with the Army, the Air Force, the Marine 
Corps, and the Coast Guard. Is there a process in place that 
you can do that or do you do that so you exercise, exercise, 
exercise, so none of these things would happen in the event the 
balloon goes up? You mentioned one thing that struck me, you 
said--maybe I misunderstood you, you said you have not learned 
any lessons from this. You have to help me through that one.
    Mr. Tolbert. What I said was I have not learned any new 
lessons. I have been through so many hurricanes, so many 
disasters in my years, that the consequences that occurred as a 
result of this disaster, the failures of critical 
infrastructure, the requirements for specific types of supplies 
and commodities and equipment are, in general--there was 
nothing new, it was pretty much the same types of requirements 
that are identified disaster after disaster, which really 
resulted in our prepositioning of some of the known commodities 
and equipment that we expected would be required.
    The coordination difficulties are very similar to what I 
have seen in other disasters, so what I also stated was that 
what we have identified is what in fact our capabilities are, 
so we have validated some of our capabilities and frankly we 
identified some capabilities that failed, which will lead us 
into--has already led us into new planning processes and new 
contracting processes to fix those items.
    Mr. Schrock. We had plenty of ice I guess but no 
refrigerated trucks. I would have thought that would have been 
a lesson learned from a long, long time ago. You know, when I 
bring ice home, I put it in the freezer. Call me stupid, but 
that is what I do. Why would they not have the trucks to 
refrigerate the ice?
    Mr. Tolbert. The traditional requirement for ice is for 
supporting mass care, and in advance of the landfall, just in 
Virginia, we did preposition 16 tractor trailer loads of ice 
that were here. Again, the prime mission is--because people are 
evacuated, the prime expectation of those requirements is to 
support the mass care operation. And for that reason, we did 
bring in those commodities. This one escalated into a more 
long-term power situation and in fact, the requirements from a 
Federal standpoint were not identified early enough to shore up 
the capabilities.
    As I said, it is a bottom up approach and it is not unusual 
for local governments to have contracts in place for those 
types of commodities, for States to have contracts in place for 
those commodities and typically we are the resource of last 
resort providing those types of capabilities. So what it is 
going to require is more definitive planning as to who, which 
level of government, is going to perform specific types of 
services so that there is clear delineation and we will know 
going into the next operation that in fact we are required to 
provide that full scope of services. There is great risk in 
relying on the Federal Government, I will say up front.
    Mr. Schrock. You can say that again.
    Mr. Tolbert. And that is that----
    Mr. Schrock. In all areas.
    Mr. Tolbert. In all areas. First of all, our personnel do 
not know the State as well, they may not even know where they 
are going. That is especially a problem after a wind event 
because often the signs are gone and if you are relying on a 
map, you may not be able to find your way around.
    More importantly though is the Stafford Act--and for 
smaller scale disasters, the Stafford Act may not be activated 
for days after impact and in fact, with most disasters, 
declarations occur 2, 3, 4, 5 days after the impact at which 
time we, in conjunction with the State and local governments, 
have determined that the damage is of such significance that it 
will require Federal financial assistance. And in most cases, 
the assistance is purely financial.
    Mr. Schrock. OK, do you do--as I was talking about, the 
exercise thing, do you exercise with the people like Greg Cade, 
the fire chief for Virginia Beach or Ron Keys who is with 
Norfolk, so that you have this thing down pat so that nothing 
is going to fall through the cracks and you have a lessons 
learned chapter of that exercise so you will not make those 
same mistakes again? So when you exercise again, you make sure 
that is all implemented. Do you do that?
    Mr. Tolbert. The vast majority of our exercises are with 
States. There are certain exceptions to that, and I would say 
that the Congress has done an exceptional job of funding, 
especially terrorism exercises. There has been a significant 
increase in funding to support that activity and I can say that 
we do routinely participate in State and local exercises 
related to terrorism because that is where the bulk of the 
funding is. Again, the bulk of our exercising is in 
collaboration with States--and local governments, we generally, 
in advance of a storm and even during a storm, do not have 
direct communication with local governments. That is mostly in 
the recovery phase.
    Mr. Schrock. I am going to ask the same question of you, 
Secretary, and Ron and Greg as well. Just let me ask one real 
quick question. A lot of the concerns we had were that people 
were not getting the messages you were sending out. People had 
no power, had no TV--I do not know how people dealt with no 
TV--they had no e-mail, they had no nothing. How do you 
communicate with those people to let them know what they need 
to do and where they need to go to get help? It almost seems 
like a ``you cannot get there from here'' scenario. How do you 
do that?
    Mr. Tolbert. Public communication and specific instructions 
to the public is normally a local and State function, 
predominantly a local function because that is where they can 
actually receive services. They can give them definitive 
locations on where to receive help. From that, when there are 
State regional activities, as you have seen with the disaster 
recovery centers, those are generally done collaboratively 
between the State and the Federal Government. But the bulk of 
public communication, especially emergency information, is 
distributed by local and State officials.
    Mr. Schrock. I see I have the red light, so I yield back. 
Thank you.
    Chairman Tom Davis. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Tolbert, your position is Director of Response 
Division?
    Mr. Tolbert. Yes, sir.
    Mr. Scott. Who actually heads FEMA?
    Mr. Tolbert. Michael Brown is the Under Secretary for 
Emergency Preparedness and Response and I report to him.
    Mr. Scott. OK. Now you indicated within the secretariat, 
within the department, communications go well. How would you 
communicate with HHS or HUD, social services or HUD? You would 
have to go up the line to Michael Brown to Ridge, to Thompson, 
and then back down?
    Mr. Tolbert. No, the Federal Government operates for 
disasters under the Federal response plan and our organization 
includes what we call an Emergency Support Team. So again, in 
advance of this landfall, we brought together the Federal 
agencies that have been assigned duties and responsibilities 
under the Federal response plan. And those are empowered people 
on behalf of--representing those departments to apply their own 
resources. And we have a pretty well-refined system of 
assigning mission assignments once the President declares a 
disaster, assigning a mission assignment to those agencies. And 
they are then required to move forward and implement those. So 
it is direct face-to-face communications in the National 
Emergency Operation Center in FEMA headquarters.
    Mr. Scott. Now do you have a summary of that operation that 
we could review?
    Mr. Tolbert. We have very detailed mission assignments----
    Mr. Scott. I do not want the detailed version, I want the 
summary version.
    Mr. Tolbert. Yes, sir, we can give you a summary; yes, sir.
    Chairman Tom Davis. If you get that, we will put it in the 
record for the hearing.
    Mr. Scott. Thank you.
    Mr. Tolbert, did anybody predict that 1.8 million people 
would be out of power?
    Mr. Tolbert. Mr. Scott, days in advance of the landfall, we 
were conducting--in fact, a week before landfall--we were 
conducting, two times a day, video teleconferences with all of 
the at-risk States. And throughout, the elements of the 
National Oceanic and Atmospheric Administration, and 
specifically the National Hurricane Center, provided an 
excellent forecast in this case. It is almost unprecedented the 
forecast and the accuracy of that forecast and days in advance, 
sir, they were in fact predicting millions of people without 
power.
    Mr. Scott. You had been asked at the last hearing to 
comment on a question that Congresswoman Davis asked about ice 
that was at A.P. Hill and no one apparently had the authority 
to release it. Without going into what should have happened, 
have we solved that problem so it will not happen again?
    Mr. Tolbert. It was not a question of who could release it, 
it was an issue of how to distribute it. As you know, the 
President did declare--under the Stafford Act--did declare the 
area a disaster area, typically within hours of the request of 
the Governor. That released us from any legal constraint to 
provide the assistance. Until that occurs, we cannot employ any 
of the resources that we may have prepositioned. That is the 
reason I mentioned earlier that depending on the Federal 
Government for assistance may not be the best option, because 
there may be days before we are declared and therefore, we 
could not release those resources. There was never a question 
as to who could release the resources, there was a question as 
to the methodology for distribution down from there.
    Mr. Scott. Let me ask the question again. Ice was sitting 
up there and was not being released. Have we solved that 
problem or are we still working on it?
    Mr. Tolbert. Ice was released as it was requested.
    Mr. Scott. By who?
    Mr. Tolbert. The State; the State has the responsibility 
for giving us--it is called a request for Federal assistance. 
And from that request for Federal assistance, again at that 
point, once it is approved by the State, then we are authorized 
to release those resources.
    Mr. Scott. Do you have an agreement with the State that is 
not going to happen again? I mean do you have assurances that 
ice is not going to sit up there and requests will not be--I do 
not want to go into whose fault it was, I just want to make 
sure that it will not happen again. Do we have that assurance?
    Mr. Tolbert. You have our assurance that we are--I am not 
trying to dodge a question. Again, the procedure is that the 
State signs a request for Federal assistance and defines the 
type and where they want that assistance provided. Once that is 
given to us, then we begin the implementation of the mission, 
and we did that in this case.
    Mr. Scott. Now one of the problems we had was people did 
not know really what to expect from FEMA. You have workshops, 
and one was described I think by the Sheriff from Gloucester 
that apparently was very effective. I assume you will be 
available if the State calls on you to help make sure that 
people in disaster areas know what to expect beforehand, so 
when the emergency occurs we can respond a little bit better 
than we did this time.
    Mr. Tolbert. Yes, sir, we are fully committed to that.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Forbes.
    Mr. Forbes. Mr. Tolbert, first of all, let me thank you for 
being here. I am going to talk quickly because I do not have 
much time and forgive me if I ask a question that seems like it 
is piercing, because I could also spend an hour talking about 
the wonderful things FEMA did.
    Let me start by saying one of the best things you did, and 
I just compliment you for doing this: throughout all of the 
frustration, the FEMA folks never stopped talking to us. We 
could pick up the phone and call you and you would take our 
calls. And I just appreciate that because if you do not get the 
information and we do not have the dialog, you cannot work out 
the problems. So right down the line, the FEMA folks, they were 
wonderful about doing that.
    The second thing is, Congressman Scott raised the 
unpredictability of this storm. Two days before the storm, I 
was coming back from Iraq, I was in Germany and every newscast 
I got said this was going to be one of the worst storms in the 
history of Virginia, that it might be a Category 5 storm. So it 
was not a surprise to me in Germany, I am sure it was not a 
surprise to us here in Virginia, that this was going to be a 
bad storm.
    And I want to just walk through, but the first thing is, we 
hear people talking about resources. Does FEMA have enough 
resources? And I want to just make clear because I have a 
letter here from Michael Brown, the Director, who said we have 
enough resources and we had enough resources for this 
emergency. So resources was not our big question, is that 
accurate?
    Mr. Tolbert. There was a shortfall in--there was an order 
placed on Saturday that the contractor was not capable of 
providing fully beginning on Monday. The order was--in 
anticipation of a State request, the order was placed on 
Saturday and there was a shortfall in, specifically, ice. That 
was the only commodity that we really ran short on because 
there were no requests coming and, therefore, we did not 
continue to ramp up in anticipation.
    Mr. Forbes. Well, let me go there. First of all, in your 
statement you tell us that your priorities both before the 
hurricane and after the hurricane, among other things, were 
ice, water, generators, and establishment of recovery centers, 
that was in a list of priorities that you had. You had 
prepositioned assets, as I understand it but answer this for 
me, because this is a big question that eludes us. It is my 
understanding that with all the prepositioned assets and the 
resources that you have, that you statutorily cannot move those 
assets until the State requests or gives you the authority to 
move it. Now am I right on that, or am I wrong on that?
    Mr. Tolbert. You are correct.
    Mr. Forbes. So it does not matter how much money we had 
put, it does not matter where those assets were prepositioned. 
Until the State authorizes you, you cannot, regardless of who 
wants to, you could not release those assets, is that true?
    Mr. Tolbert. That is correct.
    Mr. Forbes. Now tell me this: when was the first day that 
the State gave you the authority or requested the assistance 
for those assets, after the storm?
    Mr. Tolbert. The first request for ice, according to our 
records--and I have gone back since our last hearing and 
conducted further research--the first specific request for ice, 
and these were strategic capabilities, was for 70 truckloads on 
Monday, the 22nd.
    Mr. Forbes. Now this is Monday after the storm on Thursday.
    Mr. Tolbert. Correct.
    Mr. Forbes. We are 4 days out.
    Mr. Tolbert. Correct.
    Mr. Forbes. Is that the first request that you have a 
record for here today from the State for assistance?
    Mr. Tolbert. Specifically for ice, yes, sir.
    Mr. Forbes. Well, you tell me any other, how about 
generators or how about water?
    Mr. Tolbert. I have in front of me the ice mission.
    Mr. Forbes. Will you provide for this committee the first 
request the State made? And again, this is not to finger point, 
but I also want you to provide for me or if you know it now, 
when was the first request that the State of North Carolina 
made of FEMA, how many days after the storm?
    Mr. Tolbert. I do not have the North Carolina information.
    Mr. Forbes. Let me suggest to you when you get it, it is 
going to be the day after the storm. And one of the gaps that 
we have to find, and maybe Mr. Marshall can answer that 
question for us, is how we went from the hurricane to plus 4 
days before we get a request. Now what I want to look at 
statutorily is, do you have any statutory mechanism that could 
allow you to override the State and to put those resources some 
place until that request is made of you?
    Mr. Tolbert. We can preposition resources.
    Mr. Forbes. I am not talking about prepositioning, I am 
talking about getting the ice, the water, whatever resources 
are there, to the people who need it. Can you do that without 
the State's request to do it?
    Mr. Tolbert. We do not have the authority to do that.
    Mr. Forbes. Do we not need some statutory ability for you 
to do that? Because if you are talking about 4 days. Now maybe 
we find out that is not factually accurate, maybe the requests 
were made sooner. But if we talk about a 4-day gap before you 
have any authority to put any assets in the field--and I am not 
talking fingers, it could be Utah tomorrow or New Mexico--but 
it looks like to me we have to find some mechanism if we have 
prepositioned assets, to get those assets to the folks that 
need them if we are not getting the request from the State. And 
that concerns me, that big gap. But if you would--my time is 
out now too, but I would like for you to provide for this 
committee when those specific requests were made for Virginia 
and for North Carolina in this particular situation so we can 
analyze whether we are going to make a statutory change there.
    Mr. Tolbert. I will be happy to do that, sir, and again, it 
is tied to the cost share requirement. That is the limiting 
factor. So one of the discussions that we are having internally 
is looking for a--even potentially a waiver process of that 
cost share requirement, which would remove the limiting factor 
of being able to move.
    Mr. Forbes. But it is money, there may be a money question, 
but FEMA cannot--whether we put more dollars there, whether we 
put you in a different agency, right now you have the same 
statutory requirement that you had before, that you cannot move 
on the ground until the State tells you you can move; is that 
not correct?
    Mr. Tolbert. That is correct.
    Mr. Forbes. OK.
    Mr. Tolbert. And that is by design, to ensure that we are 
not, first of all, duplicating effort because I cannot speak to 
what the States or the local governments were doing in advance 
of recognition that there was a requirement----
    Mr. Forbes. I understand. I just want to know who to scream 
at if the ice is not moving, you know, and where we need to fix 
that problem.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Any other 
questions for this panel?
    Mr. Schrock. Yes, Mr. Chairman. I am going to continue that 
same line of questioning, because that is a big concern of mine 
too. If it is a cost share thing, why in the name of common 
sense is that not determined 5, 6, 7 days before the storm? Why 
are you waiting until after the storm and why do you not have 
an agreement with Secretary Marshall in the State that this 
thing--you know, if the thing happens, you have authorization 
to do that? Because if you are going to try to find somebody on 
the telephone, you can forget it. The phone lines are done. 
What is the process of getting--that is why I am saying if you 
exercise and do exercise after exercise after exercise, we 
would not be having this discussion. But we have to get a plan 
in place so the minute to balloon goes up, these guys can act 
without having to get permission.
    Mr. Forbes. Mr. Chairman, if Congressman Schrock would just 
yield because I appreciate his line of questioning.
    Mr. Schrock. Sure.
    Mr. Forbes. That is statutorily there.
    Mr. Schrock. Yes.
    Mr. Forbes. And so every State has the same response 
ability. The question, as I understand it, and if we are not 
factually accurate, Mr. Marshall needs to correct us or you 
need to correct us, but every State knows going into an 
emergency what that cost share is going to be. North Carolina 
knew, Virginia knew, it is just a matter of whether the State 
pulls the switch and releases FEMA to go do it and realizes 
they are going to start picking up that cost.
    Mr. Schrock. And yes, it is a money thing. And let me--I am 
quoting from a newspaper article, sometimes they are not always 
accurate, but I am quoting you as saying--this involves truck 
shortage, ``Just imagine how awful it would have been if we had 
been all ready for a major disaster that did not materialize 
and we were left sitting on a lot of supplies.'' Frankly, I 
would rather have 5,000 percent more supplies than you need, if 
we need 5 percent, you have to make sure they are in place and 
not wait until afterwards to say, ``now that the disaster has 
happened, where do we get the stuff from?'' To me that is a 
lesson learned, that you could have determined in some sort of 
an exercise process. And if you are working with just the 
State, frankly it is the local responders that are going to be 
the first ones on the scene--the fire chiefs, Ron Keys, they 
are the first ones that are going to be jumping into the 
breach, the State comes after and the Federal after that. They 
need to be at the top of the heap when you are doing the 
planning process, when you are doing the exercise process, 
because they are the first guys out there.
    I rode around with the Virginia Beach Police the first 
night, they were the guys who knew exactly where to take me 
because they had been there. That has to be resolved. I am 
going to ask everybody else the same question too, so be 
prepared for that. Yeah, cost share, I understand that, but if 
you have 10 times more than you need, to me that is better than 
having 1 percent less than you need.
    Chairman Tom Davis. You get second-guessed, whatever you 
do.
    Mr. Schrock. Yeah, I understand that.
    Chairman Tom Davis. I'd rather have you second guess on the 
side of having too much.
    Mr. Schrock. Err on the side of having too much than too 
little.
    Mr. Tolbert. May I respond?
    Chairman Tom Davis. Sure, please.
    Mr. Tolbert. Congressman Schrock, I would like to say that 
I was highly offended when I read that article because, as your 
records will indicate, that was not my quote and in fact they 
did not put quotes around that statement.
    Mr. Schrock. I am used to people being misquoted, so----
    Mr. Tolbert. I did talk about the division of 
responsibility and how we are cautious to not overkill in a 
response, because again, if local governments and State 
governments are implementing those measures, if they are 
acquiring bottled water, ice, all of those costs are 
reimbursable under the Stafford Act program. So they are just 
as authorized to perform those missions as we are. It's not a 
unique Federal capability.
    Mr. Schrock. I understand that, but I look at Virginia 
Power and the response they had. We knew days and days and days 
in advance how many people they were going to have come in 
here, and believe me when the balloon went up, they were in 
here. They even had French Canadians in here who could not even 
speak English and we had to have translators for them so they 
could repair the lines. That is how prepared they were. To me 
that is the tip of the spear and that is what the State, the 
Federal and the local people--of course, I think the local 
people did. You can probably learn a lesson from the playbook 
of those guys.
    I yield back.
    Chairman Tom Davis. Any other questions of this panel?
    [No response.]
    Chairman Tom Davis. Well, thank you very much, Mr. Tolbert, 
we appreciate you being here and we will move to our second 
panel.
    Mr. Tolbert. Thank you.
    Chairman Tom Davis. I want to welcome John Marshall, who is 
the Secretary of Public Safety for the Commonwealth of Virginia 
and I might add originally from the Mason District in Fairfax 
County, my home area. You testified once before in Washington 
and we are happy to have you back here. It is our policy to 
swear you in, so if you would rise with me.
    [Witness sworn.]
    Chairman Tom Davis. Thanks a lot for being with us today. I 
think you know the rules. Try to keep it to 5 minutes; your 
total statement is in the record. I just want to thank you for 
being with us again.

    STATEMENT OF JOHN MARSHALL, SECRETARY OF PUBLIC SAFETY, 
                    COMMONWEALTH OF VIRGINIA

    Mr. Marshall. Thank you, Mr. Chairman. I will try to do 
better this time on the time. I am John Marshall and I serve in 
the Cabinet of Governor Warner as Secretary of Public Safety 
and maintain oversight of 11 of our State public safety 
agencies to include the National Guard, the State police and 
the Virginia Department of Emergency Management which currently 
is coordinating our recovery activities at the State level in 
the aftermath of Hurricane Isabel. Mr. Chairman, you and the 
committee have my formal written testimony in which I describe 
actions which we took at the State level in preparing for and 
responding to the hurricane. I would like to take this 
opportunity to briefly go over some of what we did prior to the 
arrival of the storm.
    First, Governor Warner declared a state of emergency on 
Monday, September 15, 3 days in advance of the hurricane. That 
same day, the Governor held a conference call with local 
elected officials to advise them of our preparations at the 
State level and to personally answer their questions. On 
Wednesday, September 17, 30 hours prior to the expected arrival 
of the storm, the Governor authorized mandatory evacuations of 
coastal and low-lying regions. Quite possibly this resulted in 
saving hundreds of lives. In addition, on that same day, 150 
members of FEMA's emergency response element arrived in 
Richmond and were operational the next day. The Governor 
requested an expedited Presidential Federal Declaration on 
September 18, the day of the storm, and President Bush 
authorized that within a few hours.
    At this point, I would like to look at the hurricane and 
our preparation, response and recovery in a somewhat different 
context and focus on what we have been hearing over the last 
couple of weeks. Ultimately, we are talking about people, we 
are talking about committed public servants at the local, State 
and Federal levels. We are talking about our Department of 
Emergency Management staff and employees representing 30 State 
agencies that make up our emergency response team who spent 
countless hours and days in our Emergency Operation Center 
processing over 18,000 requests for assistance. We are talking 
about employees at the local EOCs who spent countless hours and 
days responding to their citizens. We are talking about 
hundreds of our Federal partners, FEMA employees from all over 
the country, who have been on the ground with us from day 1 
working those same countless hours and days. We are talking 
about our first responders, our police officers and our fire 
and rescue personnel. We are talking about State troopers who 
used their personal chain saws to cut back trees blocking their 
paths so that they could respond to calls during the storm. We 
are talking about State troopers who had to be ordered to park 
their cruisers when the winds became so strong that it was not 
safe to drive, but they were still out there. We are talking 
about our National Guard soldiers and airmen who took on one 
hurricane-related mission after another, leaving their families 
and civilian jobs behind. We are talking about, as Congressman 
Schrock and Congressman Forbes mentioned, hundreds of 
volunteers from organizations like the Red Cross, Southern 
Baptists and the Salvation Army who staffed over 99 fixed and 
mobile feeding stations and have served over 1.4 million meals. 
We are talking about our VDOT employees and Department of 
Forestry chain saw crews tasked with clearing our roads. We are 
talking about Dominion Power employees from all over the 
country who worked tirelessly to restore power and at times 
risked their lives during the actual hurricane. We are talking 
about our public servants and volunteers who also were out 
there risking their lives.
    I would like to tell this one story about two State 
troopers and a volunteer fire fighter on the Isle of Wight. On 
the night of the storm, a tractor trailer driver drove off the 
road and ended up in an area where the water was rising 
quickly. He called on his cellular phone for assistance because 
he could not swim. Two troopers and a volunteer fire fighter 
arrived. Luckily one of the troopers was trained in water 
rescues. He used a rope to secure himself while the other two 
held the other end of the rope and he literally had to swim 
across a median to get to this truck driver, who now was on the 
top of the cab of his truck. He gave him a life vest and they 
were able to safely pull him back cross the road. There are 
these kind of stories that were happening all over the State. 
And as mentioned by Director Tolbert, we need to keep in mind 
that all these people, they too had homes damaged and were 
dealing with the same sorts of adversity as many of our 
citizens.
    Most importantly though, and heartwarming for all of us, as 
mentioned, are the citizens of Virginia who once again showed 
their strength and resilience. As Congressman Scott mentioned, 
there is one story after another about communities coming 
together, localities coming together and neighbors coming 
together. And we are talking about Congressman Scott, who held 
many cookouts and literally fed hundreds of his constituents.
    Having said all that, we certainly realize that as can 
reasonably be expected with an operation of this magnitude and 
the level of devastation caused by Hurricane Isabel, there will 
also be lessons learned. We understand the frustration of our 
citizens and our local elected officials and our congressional 
delegation. We can always do better.
    Governor Warner is committed to having an independent 
review of government performance in response to this storm. He 
is committed to filling in those gaps that are identified by 
such a review. Governor Warner will expect such a review to 
result in recommendations that will allow us to build on those 
things that went well while also improving ways in which State 
and local governments prepare for and respond to natural 
disasters and other emergencies. Our goal is to improve in our 
readiness, preparedness and response and Governor Warner and 
his administration are committed to doing just that. And you 
can expect an announcement within the next few days about the 
formation of this assessment panel.
    I thank you, Mr. Chairman and committee members for the 
opportunity to appear and I will do my best to answer any 
questions you may have.
    [The prepared statement of Mr. Marshall follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.013
    
    [GRAPHIC] [TIFF OMITTED] T1421.014
    
    [GRAPHIC] [TIFF OMITTED] T1421.015
    
    [GRAPHIC] [TIFF OMITTED] T1421.016
    
    [GRAPHIC] [TIFF OMITTED] T1421.017
    
    [GRAPHIC] [TIFF OMITTED] T1421.018
    
    Chairman Tom Davis. Thank you. Let me start by saying how 
proud I am that you come from the same area, you are just a 
couple of neighborhoods over from where I grew up over there in 
the Lake Barcroft area, and your commitment to public service.
    I think this storm was unlike anything we have seen before 
in our generation. And, obviously, we did a lot of things right 
and you learn a lot when you go through it--the enormity of 
this storm, the fact that it did not treat every area equally. 
As the State deployed forces for example--the National Guard, 
VDOT, State police, Department of Forestry--how was the Hampton 
Roads area hit and how do you deploy that versus northern 
Virginia versus other areas? Can you give me an idea?
    Mr. Marshall. Well, quite frankly, as far as our 
prepositioning, the focus was based on the forecast which was 
for the eastern part of the State, the coastal regions, low-
lying areas. What we did was to actually send a group of 
troopers along with a mobile communications center over to the 
Eastern Shore, realizing that probably they would not be able 
to get there after the storm, so they were prepositioned there. 
We also had a large contingent of troopers that we stationed in 
Suffolk. As far as the Guard, they had soldiers on location in 
Petersburg and in various other locations also toward the 
Eastern Shore to be able to respond quickly. And they also 
prepositioned some of their soldiers and heavy equipment on the 
Eastern Shore.
    Chairman Tom Davis. What leaps out at you that in 
retrospect we could have done differently on a State or Federal 
level? In retrospect, if you had to do it over again, what 
might be done differently?
    Mr. Marshall. Well, I would probably say in particular we 
need to, once we receive a forecast, we need for a storm to be 
maybe twice, two or three times as bad as the information we 
are getting. As was mentioned several times, I think we cannot 
be too prepared and we cannot have too many resources and 
supplies ready to go. So certainly----
    Chairman Tom Davis. You understand you will have some 
panels screaming at you for getting too much stuff the next 
time, when you overdo it.
    Mr. Marshall. I think that----
    Chairman Tom Davis. Were you surprised by the enormity of 
this in some areas and how bad----
    Mr. Marshall. We were surprised, I think, by the width of 
the storm, the magnitude of it. We knew pretty much the force 
it was going to be bringing, but really the width of the storm 
was something that we had not been hearing in the forecast. So 
that certainly--the impact on northern Virginia, we did not 
think was going to be as strong as it was.
    Chairman Tom Davis. Let me just pick up on something Mr. 
Forbes asked--and he will probably want to elaborate on it--the 
ordering of the ice. In retrospect when you look at this, do 
you remember when we first--do you have in your records when we 
first asked for the ice? Had this been anticipated, that we 
would have so much power down that this would be a problem? Can 
you shed any light on that?
    Mr. Marshall. Just let me say at the beginning, as with 
ice, water and power, if you are one of the people out there, 
as was mentioned, that needs it, it cannot be too soon. And you 
know, hours and days can seem endless.
    According to our records, we verbally made the request to 
FEMA on September 19, the day after the storm, for water and 
ice. At that time--and once again, they are on the ground with 
us working through this event--it was our understanding because 
of the large number of requests that we had, that in our 
conversations with FEMA they made the determination they did 
not have enough trucks to be able to make those deliveries 
direct to localities and that we would need to set up staging 
areas. Once we set up those staging areas, then the RFAs were 
actually put in designating those eight staging areas and that 
was in the request, specific request----
    Chairman Tom Davis. Written request.
    Mr. Marshall [continuing]. For those deliveries to be made 
to the staging areas; but we could not put in the written 
requests until we had determined the staging areas. So we made 
the verbal request, they told us they would not be able to act 
on that because of the sheer number of them, to create staging 
areas and then put in our formal request so that they can then 
act on.
    Chairman Tom Davis. So just because of the mere width of 
this storm as it came through you need ice and all of a sudden, 
logistically, they say, ``all right, we have it, but how are we 
going to get it there;'' and obviously we did not have a plan, 
you had no idea exactly where it was going to go at that point. 
Is that a fair comment?
    Mr. Marshall. Right. We determined the staging areas based 
on the----
    Chairman Tom Davis. You could not do it until after the 
storm hit.
    Mr. Marshall. You certainly could, but then you would run 
the risk of having to change that. But that certainly, I think, 
is something that will be looked at in the assessment and that 
certainly would have saved time; you know, if we were fortunate 
enough to have made the right calls in anticipating where we 
would need those staging areas.
    Chairman Tom Davis. Thank you. Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    Mr. Secretary, I agree with you that people are the key to 
this, but they are only as good as the training they get. 
Obviously you do that and you mentioned you had lessons 
learned. Who do you share those with? Do you share them with 
the local responders and the national people or are they kept 
at the State level?
    Mr. Marshall. Well, you know, we have training exercises. 
As was mentioned by Director Tolbert, in the aftermath of 
September 11, the majority of those exercises are dealing with 
terrorism events because that is where the majority of the 
funding is. We certainly have those exercises, we regularly 
have exercises with regard to our nuclear power plants. So we 
are in constant communication with localities.
    This was my first disaster--natural disaster, let me put it 
that way--you know, at the State level that I have been 
involved in. And as I started participating on those conference 
calls with the localities, it was evident to me that we were 
not starting to communicate, they were on first name basis, 
they have those established lines of communication open. 
Clearly our emergency management personnel have those 
relationships with the local emergency managers and they do 
share lessons learned and I am sure that after the assessment 
is done of this operation, they will be a big part of that 
assessment process and certainly that report that will come out 
will be a public report, but we anticipate heavy involvement of 
the locals in determining how we did at the State level.
    Mr. Schrock. Am I correct in assuming that the State did 
not request help, Federal help, for 4 days after the storm?
    Mr. Marshall. Are we talking ice and water?
    Chairman Tom Davis. Just the ice.
    Mr. Schrock. No, anything.
    Mr. Marshall. No, sir. We made requests for, in particular 
the ice and water, on Friday, the 19th, the day after the 
storm.
    Mr. Schrock. Well, now FEMA has said that they had 61 
generators that they were waiting to distribute and all they 
were waiting for was for the request to come from the State. 
What requests are filled at the State level and which ones 
depend on getting FEMA approval? I heard one case--the person 
did not tell me this directly, but in Hampton there were trees 
on houses and they wanted to take the trees off but they said 
they could not do it until FEMA gave their approval or looked 
at the job that needed to be done. Well, my God, if they do 
that, they are going to be there until Kingdom Come. How does 
that process work? Can the State automatically go in and say, 
``get those trees off of there,'' or does FEMA have to actually 
say, ``yes, you can go in and do that?''
    Mr. Marshall. Well you know, obviously, if it is a safety 
issue the trees are going to need to be removed. As far as if 
people are going for reimbursement, if they are going to be 
reaching out to FEMA, it is my understanding that FEMA needs to 
send some of their housing inspectors to go to each location. 
And they have hundreds of these people on the ground, you know, 
in order to make that approval, but that is part of the Federal 
process.
    Mr. Schrock. But that could still mean people would still 
have trees on their houses because if you look at some parts of 
Hampton, almost every house had some semblance of a tree on it. 
It seems like it would take forever. What is the State role in 
helping the localities know of FEMA's capacity to assist in a 
situation like this?
    Mr. Marshall. Well, I think we certainly share in the 
responsibility of getting information out to the localities and 
that is done----
    Mr. Schrock. Are you the key person, you are the key person 
in the Cabinet on that, in the administration?
    Mr. Marshall. That would fall under my secretariat, yes, 
sir. And also, you know, I work in close coordination with the 
Governor's Assistant for Commonwealth Preparedness, former 
Lieutenant Governor Hager. So it is a joint effort because this 
is all about preparedness.
    Mr. Schrock. Yes.
    Mr. Marshall. So between the two of us, we work closely 
with the localities. We have conferences, we have stakeholder 
meetings and that is when that type of information is shared.
    Mr. Schrock. The comment I made to Mr. Tolbert about doing 
the joint exercises--and by joint I mean State, Federal and 
local--do you do much of that, and if not, do you think we need 
to do something like that on a continuing basis, like every 
quarter, every--you know, semi-annually?
    Mr. Marshall. From my State police background, I spent a 
lot of time in training and so, just as you Congressman, I 
cannot say enough about the value of training. And yes, we do 
training exercises. As I mentioned, we regularly do training 
exercises dealing with our nuclear power plants and we also do 
terrorism-related exercises. Our last hurricane exercise--it 
has been a few years.
    Mr. Schrock. In conjunction with the localities?
    Mr. Marshall. Yes.
    Mr. Schrock. And the national authorities?
    Mr. Marshall. Yes, sir. It has been a few years since we 
have done specifically a hurricane-related exercise.
    Mr. Schrock. Help me understand. Mr. Tolbert is not here I 
guess, but he said he has not learned a lot of lessons. Sounds 
to me like some of the things we are hearing here, there are a 
lot of lessons to have been learned. What is your spin on that? 
Remember, you are under oath. [Laughter.]
    Mr. Marshall. I certainly keep that in mind.
    Mr. Schrock. We will not hold it against you.
    Mr. Marshall. You know, I think really at this time it is 
difficult to say specifically, as far as lessons learned. 
Clearly there are areas of concern that we need to look into, 
but I think as far as, you know clearly the things--the actions 
that were taken prior to the storm, and from what I heard 
during the panel earlier this week and from my local 
responders, we got it right as far as our preparation and 
leading up to the storm. I think as Congressman Forbes 
mentioned, it is during the storm and immediately thereafter 
where we have the concerns. And that is an area we will need to 
focus on.
    Mr. Schrock. And you do an after action report that you 
share with, of course, people at the State level, the local 
level and Federal?
    Mr. Marshall. Yes. Literally within days, the Governor will 
be announcing an independent assessment team who will be doing 
just that.
    Mr. Schrock. Great. Mr. Chairman, my time has expired, 
thank you.
    Chairman Tom Davis. Thank you. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Secretary Marshall, did the Commonwealth of Virginia 
predict that millions of people would be without power for many 
days?
    Mr. Marshall. My recollection on that, Congressman, is the 
predictions were anywhere from 500,000 to a million, is what I 
recall from the meetings I was involved in.
    Mr. Scott. Did you anticipate that hundreds of thousands of 
people would be without power for over a week, many for 2 
weeks? Was that part of the prediction?
    Mr. Marshall. No, the information that we had from our 
early meetings with Dominion Power was to expect a multi-day 
event, which I did not interpret to mean a week or more.
    Mr. Scott. You interpreted it as 2 or 3, maybe 4 days?
    Mr. Marshall. Yes, sir.
    Mr. Scott. The challenges in a 2 to 3 day outage in terms 
of food, water and things are not on the same magnitude as the 
challenges when people are going to be out of power for a week, 
many for 2 weeks.
    Mr. Marshall. No, sir.
    Mr. Scott. I understand from your testimony that the 
Governor is going to go through a review process to find out 
what went wrong, what went right, what needs to be done. Will 
that include information sharing so that--I think one of the 
challenges was that people did not know what to expect from 
FEMA; they would ask for things that FEMA was not going to 
provide. In fact, at the last hearing we heard people suggest 
they would have been just as well off if they had been told 
right off the bat that FEMA was not going to do anything and 
then they would have known that they were left to their own 
devices rather than ask FEMA for something that was not going 
to be provided. Is part of that review an assessment as to what 
can reasonably be expected from FEMA so we do not expect more 
than is coming and take full advantage of what will be coming?
    Mr. Marshall. Yes, I think as Congressman Schrock 
mentioned, expectations--you know, it is important that 
expectations be at the proper level and we will certainly at 
the State-level work with FEMA, to take a role in helping to 
get that information out. I think it is important, and once we 
have an event, usually then it is too late because all those 
normal lines of communication are not available. So getting the 
information out there early, yes sir, I am sure that will be 
part of the assessment.
    Mr. Scott. Will part of the assessment be to ascertain what 
the unmet needs were? A lot of people did not have food, you 
could not buy C and D batteries anywhere in Hampton Roads.
    Mr. Marshall. Or Richmond.
    Mr. Scott. Or Richmond.
    Chairman Tom Davis. You could not buy them in Fairfax 
either.
    Mr. Scott. I mean it seems to me if you get caught and did 
not expect it, somebody should have been able to get some 
batteries from Chicago or Detroit or Los Angeles and have 
them--you can get them trucked from Chicago overnight. That 
coordination did not take place. Will we assess what services 
and products were not available and have a--figure out a way to 
get them here on a timely basis next time we are without 
generators, batteries and things like that?
    Mr. Marshall. Yes sir, without a doubt we have to do better 
next time and certainly that will be part of the assessment.
    Mr. Scott. No tunnel to my knowledge had ever been flooded. 
The Midtown Tunnel was flooded as part of this emergency. 
Without going into what happened, can we be assured that it is 
not going to happen again?
    Mr. Marshall. Well, as I am sure the panel knows, we are 
expected to open the tunnel back up on the 18th and the 
floodgate will be fully tested prior to opening that tunnel 
back up, and at this point it does not look as if there is any 
structural damage to the tunnel. They have most of the 
electricity restored so certainly those tests will be done, yes 
sir.
    Mr. Scott. I quite imagine that people did not expect as 
much of an emergency with what was at that point a Category 1 
hurricane. We suffered a lot more than that in the last 40 or 
50 years that we have had tunnels, so I can imagine that there 
was not any feeling of an emergency. Now we know better and we 
just want to make sure it is not going to happen again.
    Mr. Marshall. That will certainly be one of the lessons 
learned, yes sir, Congressman.
    Mr. Scott. Now you had Michael and David from the State and 
Federal Government together side by side virtually from before 
the hurricane all the way through.
    Mr. Marshall. To this day, yes sir.
    Mr. Scott. You suggested that a request was made on Friday. 
Apparently, the Federal Government did not understand the 
request until Monday. Will the Governor's review look at that 
line of communication to make sure that when a request is made, 
that it is actually received?
    Mr. Marshall. Yes sir, the key to the success of any 
exercise is going to be communication. As I said, according to 
our records we made that verbal request on that Friday the 
19th.
    Mr. Scott. And that would include fixing whatever happened 
to the ice in A.P. Hill, to make sure that communication is 
made?
    Mr. Marshall. Yes sir, Congressman.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much, Mr. Scott. Mr. 
Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Marshall, thank you for being here. My questions are 
posed more to the system than to you. You just happen to be the 
person sitting there.
    Most of your testimony was about State troopers, National 
Guard, State employees and volunteers, and all of us applaud 
them and that is off the table. So what we are trying to do is 
see what the problems were with the system.
    To me, there is a huge gap between your testimony and the 
testimony of Mr. Tolbert regarding the request that was made by 
the State to the Federal Government. The reason that is 
significant is because, as I understand the statute, the FEMA 
people cannot move until the State makes the request. I would 
like to ask you this today as Public Safety Secretary. Do you 
know what the statute says as to whether or not a request can 
be made verbally or does it have to be in writing?
    Mr. Marshall. Well, for instance on the State level, as far 
as the situation we are dealing with, we have, as Congressman 
Scott mentioned, we have the FEMA person, David Fukutomi, on 
the ground with our emergency management coordinator, Michael 
Cline. On Friday, we got a huge number of requests from the 
localities for water and ice. That was communicated to FEMA 
verbally and at that point, they do an assessment and they say, 
``that is a large number, we are not going to be able to get it 
directly to the localities, come up with staging areas at a 
number that we can handle.''
    Mr. Forbes. Let me just ask you this, and I want you to 
have plenty of time to testify, but this is important, that is 
not my question. As you know, this is a huge issue because it 
shifts dollars where the State has to start picking up 25 
percent of the cost. And my question for you is, does the State 
of Virginia today know, can that request be made verbally or 
does it have to be in writing, because we are talking about 
millions of dollars. Is it OK if the request can be made 
verbally, that the Federal Government can come back later and 
say now we are going to tag you with all these millions of 
dollars because somebody made a verbal request, or does it have 
to be made in writing? And we are not talking about finger 
pointing, we are talking about we need to know this for the 
next time. Do we know today--do you know, does your department, 
does the emergency operations for the State of Virginia know--
whether the statute requires that it be verbal or in writing?
    Mr. Marshall. It needs to be in writing.
    Mr. Forbes. Then if it needs to be in writing, did you not 
know that on Friday, the day after the hurricane?
    Mr. Marshall. We certainly did, Congressman, but maybe I 
have not done a very good job of explaining it. The guidance we 
were given by FEMA was to not put those in writing until we 
came up with the eight staging areas.
    Mr. Forbes. Mr. Marshall, your testimony then is today that 
FEMA told you not to make a written request for ice?
    Mr. Marshall. Until we developed the staging areas.
    Mr. Forbes. Did they say anything about water?
    Mr. Marshall. Water and ice.
    Mr. Forbes. Did they say anything about generators?
    Mr. Marshall. Generators, I do not have the figures, the 
dates, the specifics on the generator issue.
    Mr. Forbes. Would it be fair to say that no request for 
generators was made until after Monday, after the storm?
    Mr. Marshall. I cannot accurately answer that one way or 
the other, Congressman.
    Mr. Forbes. Could I ask you this? Would you find out for us 
and submit that to us?
    Mr. Marshall. Yes.
    Mr. Forbes. Because let me just tell you this, Mr. 
Marshall, and if I am wrong I am going to come back and just 
say I am wrong, but it is my understanding that the State of 
North Carolina knew the request needed to be made in writing 
and made the request the day after the storm and that Virginia 
waited until Monday after the storm, 4 days after the storm. 
And the reason that is significant is because FEMA could not, 
if they wanted to, even if they had said, ``we understand you 
want this request, we love Virginia, we want to help you,'' 
legally they could not have done it until that request was in 
writing any more than they could have declared a declaration of 
emergency status if it was not in writing.
    Now the other question that I would like to ask you is 
this: when you were making decisions about locating recovery 
centers, is it your understanding that Virginia has to tell 
FEMA where to locate the recovery centers?
    Mr. Marshall. We do that, yes sir.
    Mr. Forbes. Do you have any objective criteria as to where 
you are going to locate a recovery center?
    Mr. Marshall. It is through communication with the 
localities in those affected regions.
    Mr. Forbes. If it is with communication what do you base it 
upon, the fact that the locality requested it?
    Mr. Marshall. Well obviously that is--you know, if a 
locality is willing to host a recovery center they need to have 
an appropriate location.
    Mr. Forbes. When does the State determine it is going to 
locate the recovery center there? What is the objective 
criteria that you are looking for to locate a recovery center 
anywhere?
    Mr. Marshall. The number of people in that proximity, the 
amount of damage to the area.
    Mr. Forbes. And how do you measure damage, the number of 
claims?
    Mr. Marshall. It is really from guidance provided from the 
local emergency managers.
    Mr. Forbes. OK, Mr. Chairman, I know my time is up but this 
is an important line of questioning and if I could just----
    Chairman Tom Davis. Go ahead with your questions.
    Mr. Forbes. Mr. Marshall, the concern I have is this: we 
have asked your office and we have asked FEMA about damage 
assessments throughout and you have told us, and I think 
correctly so, that for the period of time after the storm, some 
time, those damage assessments are very unpredictable, almost 
guesses. So my question in locating a recovery center is, is it 
based upon those guesses of dollar amounts of damage or is it 
based on the number of claims? What are the criteria for 
determining where you are going to put a recovery center?
    Mr. Marshall. I would say certainly all of those come into 
play.
    Mr. Forbes. Do you look at proximity to where the residents 
are?
    Mr. Marshall. Yes.
    Mr. Forbes. Do you look at the number of claims made?
    Mr. Marshall. Yes.
    Mr. Forbes. Do you look at the track of the storm?
    Mr. Marshall. I am not sure----
    Mr. Forbes. Would it make sense to have recovery centers 
closer to the track of the storm or is that even a criteria?
    Mr. Marshall. Well the storm has already come through, we 
do not determine those recovery centers----
    Mr. Forbes. But your recovery centers are not located until 
after the storm.
    Mr. Marshall. That is correct.
    Mr. Forbes. Do you look at where the track of the storm 
was?
    Mr. Marshall. Certainly.
    Mr. Forbes. And do you consider that in locating the 
recovery centers?
    Mr. Marshall. Certainly.
    Mr. Forbes. What other objective criteria do you look at?
    Mr. Marshall. Once again, accessibility and the number of 
people that--to be able to best serve the greatest number of 
people in that area.
    Mr. Forbes. Good. Now I am going to explore this in some 
depth in our hearing in Chesapeake, but the last thing I want 
to ask you is this question: how do you make a determination as 
to who is going to get water, who is going to get generators or 
who is going to get ice? Do you have any objective criteria for 
determining that?
    Mr. Marshall. No, we rely heavily on the localities and the 
requests they make. Now with regard to generators, we do have 
some questions we need to ask.
    Mr. Forbes. Let us take ice.
    Mr. Marshall. Ice, basically we take what the locality is 
requesting and we act on that and we try to meet that.
    Mr. Forbes. Once you have made a decision and FEMA cannot 
send the ice until you have told them send it to this location, 
correct?
    Mr. Marshall. Correct.
    Mr. Forbes. Once you have told them to go to a location, 
who has the authority to divert those resources going to that 
location and send them to another location?
    Mr. Marshall. We can do that.
    Mr. Forbes. What is the criteria for diverting those 
resources?
    Mr. Marshall. Well, you know, some of the circumstances 
could be if we have possibly--let us say we are anticipating 
getting X number of loads in of ice, 10 loads of ice to go to 
location A and 5 loads to go to location B. But then we find 
out that we are only getting a total of five loads total. So we 
are going to have to not send all five to location B or send 
all five to location A, we are going to have to divert some 
from A to B in order to try and get it out as fairly as we can.
    Mr. Forbes. I am going to stop my questioning, but I am 
going to ask you between now and our hearing that is going to 
take place later this afternoon if you would find for me the 
criteria of why resources were diverted from the city of 
Chesapeake and sent elsewhere by the State--ice and water that 
was diverted from that city to another locality. If you would 
tell me how that decision was made and what criteria that was 
based upon and why they were on the way there and they were 
diverted to another locality. If you could just find out for us 
before that hearing, so you could tell us what those objective 
criteria were.
    Mr. Marshall. I will certainly do my best, yes sir, 
Congressman.
    Mr. Forbes. Thank you. Thank you, Mr. Chairman.
    Chairman Tom Davis. Any other questions?
    Mr. Schrock. Mr. Chairman. John, it would seem that if you 
knew where the storm was going to go, even if it was 10, 20 
miles on either side, you could have set those staging areas up 
so they could have been in place. I do not understand why that 
could not have been done.
    And as far as I am concerned, as far as the Midtown Tunnel, 
that was the greatest example of gross incompetency I have ever 
seen. It looks to me, or appears to me, or we are led to 
believe that they did not test that door there for a long time, 
and in fact the plate that needed to be removed so you could 
lock the door in there had been welded shut. Now certainly 
somebody should have thought a couple of hours, or 2 or 3 hours 
before, that they should have checked that thing and by the 
time they did it was too late. How in the name of comet if 
things are exercised and things are actually tested when they 
are supposed to be, how could that possibly happen?
    Mr. Marshall. Congressman, I wish I could answer that 
question about the tunnel. That is obviously a very significant 
and critical issue that VDOT is taking a look at. But I am not 
aware that they have come up with any particular evaluations 
yet as far as actions taken prior to the storm with the tunnel.
    Mr. Schrock. So that is VDOT, hit VDOT on that, huh?
    Mr. Marshall. I can tell you they are looking at it, yes 
sir.
    Mr. Schrock. Thank you, Mr. Chairman.
    Chairman Tom Davis. Let me just followup. This is the first 
time in history that the Midtown Tunnel has been flooded, is 
that right?
    Mr. Marshall. That is my understanding; yes, sir.
    Mr. Scott. Mr. Chairman, will you yield on that?
    Chairman Tom Davis. I will be happy to.
    Mr. Scott. Do we know of any tunnel in the area that has 
ever been flooded?
    Mr. Marshall. Not to my knowledge, Congressman.
    Chairman Tom Davis. We do now.
    Mr. Scott. Well, yeah, but we have assurances that this is 
not going to happen in the future.
    Mr. Marshall. Well, if we find out that there is something 
that was not done properly, as far as on the human element side 
of it, I can guarantee you it will be corrected.
    Chairman Tom Davis. I guess the question is, I mean in 
retrospect, knowing what we know now, could we have done 
things--there had been no history of this, I think there were 
some safeguards in place that did not work given this storm, 
and in retrospect, what could we do so it does not happen 
again; I guess that is the question. But this is the first time 
in history it happened, and I think there were safeguards, as I 
understand it, and they just did not function correctly.
    Mr. Schrock. And it should be not if we find out. We have 
found out. I would rather had that thing closed 12 hours before 
the storm hit than 1 minute after, because 1 minute after was 
too late and now we are paying the price and it has been a 
nightmare around here.
    Chairman Tom Davis. Well, let me just say this, I guess to 
give you a perspective--and Mr. Marshall was there at our 
hearing in Washington on this--Metro closed early to avert the 
kind of disasters they had in the snowstorm when they had 
trains stalled out there and everything else; and they were 
criticized from members for closing too early. These are no-win 
situations for the people involved, but obviously in retrospect 
when you take a look at the damage that was done, we cannot 
allow that to happen.
    Mr. Schrock. Mr. Chairman, in the case of a tunnel, it 
could have been open the next day and traffic could have gone 
through and now we do not open until the 18th.
    Chairman Tom Davis. I do not think there is any question 
about that.
    Mr. Forbes. And Mr. Chairman, one other thing we have to 
look at. These things should not be, again like obscenity, that 
we just know them when we see them. We ought to have some 
objective protocols, and in this situation the question to me 
is simply, were there objective protocols with the policy that 
we needed to have and did we follow the policy? If there were, 
then we should not have any fault with that. But if we do not 
have these policies in effect, we need to have them.
    And I just echo what Congressman Schrock said: it looks 
like to me we had testing that was supposed to be done on these 
gates that was not done. We made the decision to close them, 
that was not the question. It was that they were welded shut 
and they could not get closed.
    Chairman Tom Davis. I agree with you. As I said, we have to 
build on the mistakes that were made and clearly, in retrospect 
things should have been done differently, and the result is the 
region suffers, but we cannot let it happen again. Not your 
fault, but I am just saying this happened in this case and this 
region----
    Mr. Schrock. Suffered big time.
    Chairman Tom Davis [continuing]. Suffered as a result of 
that. These were very tough calls that you made during that 
time. This was a huge storm and obviously nothing worked 
perfectly. That is why we are here to find out and make sure 
that it does not happen again.
    Any other questions for this panel?
    [No response.]
    Chairman Tom Davis. Thank you again for being with us, we 
appreciate it.
    Mr. Marshall. Thank you, Mr. Chairman; thank you, committee 
members.
    Chairman Tom Davis. We have our third panel. Ed, do you 
want to introduce our third panel? I am going to let Mr. 
Schrock introduce our third panel.
    Mr. Schrock. I want to welcome you all here. I want to 
welcome Gregory--it says here Gregory--Greg Cade, who is the 
fire chief and emergency management coordinator for the city of 
Virginia Beach; Ron Keys who is the director of emergency 
services for the city of Norfolk; and Curt Shaffer, who is the 
director of plans, analysis and emergency operations of the 
police division for the city of Hampton. I thank you all for 
being here.
    Are you going to swear them in? It is the policy to swear 
you in, so the chairman will swear you in.
    Chairman Tom Davis. Raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. This committee is a committee that 
swears everybody in because we are the major investigative 
committee in the House, so that is just our protocol. I just 
add that a couple of times we reminded the witnesses they were 
under oath just so they feel free to state--we are not worried 
about the police chief saying anything wrong here----
    Mr. Keys. Fire chief.
    Chairman Tom Davis. Or fire chief or anybody else, right. 
But I will say this, I once had Coach Wes Unseld from the 
Washington--the Bullets in those days--before me and I asked 
him under oath if the Bullets were going to have a winning 
season the next year and he came back and he said, ``I can just 
promise you we will have exciting basketball.'' [Laughter.]
    After the season was over, we thought about bringing him 
back up here on charges, but we let it slide because the 
intention was a good one.
    Chief, thanks for being with us.

  STATEMENTS OF GREGORY CADE, FIRE CHIEF/EMERGENCY MANAGEMENT 
  COORDINATOR, CITY OF VIRGINIA BEACH; RON KEYS, DIRECTOR OF 
    EMERGENCY SERVICES, CITY OF NORFOLK; AND CURT SHAFFER, 
  DIRECTOR, PLANS, ANALYSIS AND EMERGENCY OPERATIONS BRANCH, 
                POLICE DIVISION, CITY OF HAMPTON

    Mr. Cade. Thank you, sir. Mr. Chairman and other members of 
the committee, I want to thank you for giving us the to 
opportunity to come here today. I already submitted my prepared 
remarks so I will try and be brief, which I think is always a 
good thing.
    We certainly were fortunate that Hurricane Isabel dropped 
from a Category 5 to a Category 1 when it finally hit landfall. 
The city of Virginia Beach took what it thought was the 
appropriate level of concern prior to the hurricane coming. As 
an example, the Fire Department brought in a full shift a day 
early so that it actually had two full shifts working along 
with the Police Department which did the same thing; so we were 
clearly taking the hurricane seriously and trying to make sure 
that we had prepositioned sufficient assets to deal with it. 
Even with that, it certainly was an interesting hurricane.
    For the first time in my 35 years in the fire service, we 
stopped responding to calls for 3 hours because of the wind 
speeds. Kind of a stressful situation, not only for our 
citizens who needed us, but for all of us who are long-term 
public safety employees; to have to sit there and not do 
anything was extremely stressful for our people.
    We certainly appreciated the fact that the President made a 
very quick disaster declaration; it helped us to tap into some 
additional assets. Certainly, Congressman Schrock's earlier 
statement that people need a better, realistic expectation of 
what to expect from their government; they think that we are 
there to make them whole, we have not been able to successfully 
convince them that is not what is going to happen. I was 
interested to hear Mr. Tolbert speak of the Federal Government 
assuming its role is one of pull rather than push. The State 
certainly has some other options. I will assure you that at the 
local level we did not have any options; the expectations of 
our citizens were that we in fact were going to be out there, 
we were going to take care of whatever their issue may be and 
that certainly created some problems for us. I would say to 
Congressman Forbes, I still have my insurance forms as well as 
the FEMA forms sitting in my briefcase, I have not had the 
opportunity to be able to fill those out.
    We certainly learned a lot of lessons out of the aftermath 
of this event. It is obviously clear to us now that we need to 
do a better job of prepositioning some additional assets. We 
anticipated things were going to show up a lot sooner than they 
did. We did not realize, quite frankly, until today, listening 
to some of the testimony, the time lag between what we thought 
was going to take place versus what actually happened.
    I was asked--and I do not have the actual documents here 
with me--but I was asked to be one of the regional coordinating 
centers for the distribution of ice and water and I cannot 
remember if the actual request was Friday or Saturday, because 
I signed the liability papers one of those 2 days. I can get 
you the exact date, but I did not bring the paperwork with me, 
to set that up. In hindsight, I probably will not ever agree to 
be a regional distributionsite again because I ended up 
expending an awful lot of resources on chasing down ice and 
water issues. At one point I wondered, standing in my kitchen 
at 2 Saturday morning, how I had agreed to be Gunga Din in this 
process.
    The expectation certainly of FEMA in helping us deal with 
some of the aftermath of this was different from what we had 
anticipated. Setting up the disaster assistance center for the 
citizens of the city of Virginia Beach was a lengthy process; 
it took us almost 7 days to be able to finally get that up and 
open. Certainly, as citizens watched the TV and saw other 
disaster recovery centers or disaster assistance centers being 
set up, they wanted to know why the one was not open in 
Virginia Beach. Part of that is due to the expectation that 
FEMA had that we would provide the space. We do not have 2,500 
square feet of space sitting around in the city of Virginia 
Beach that belongs to the government; they are used each and 
every day. So it took us awhile and we finally ended up renting 
space because we just figured we had to do something quicker.
    I know they talked about the evacuation of our area. We 
figured at best we were going to get 15 percent of the citizens 
of Virginia Beach to leave; they just do not believe a 
hurricane is going to be as bad as what it is; 15 percent of 
the 450,000 permanent residents leaves an awful lot of people 
in harm's way.
    We need to certainly work on improving the process of 
dealing with human services such as mass care issues. The 
issues of ice and water clearly were a problem for us. We made 
verbal requests, we followed them up in writing. We did not 
realize the process. We were making a request to the State, we 
assumed that the State was turning around right away and making 
the request to the Federal Government. Obviously that does not 
work quite as well as we thought it was going to.
    I do want to compliment the Governor. He had daily 
briefings with the mayor and elected officials. That was very 
helpful, if for nothing else to let them know that he certainly 
was concerned about what was going on and was there to help.
    In closing, let me say that certainly there are better ways 
to be more efficient and effective than what we are doing. The 
city needs some additional feedback from the State and FEMA to 
help us be able to rectify some of these situations. Training, 
exercise and planning are paramount to what we need to do.
    And I would be remiss if I did not thank our military 
partners here in the area. They certainly were a great help to 
us. We are very fortunate in Virginia Beach with the four 
military bases that we have. We have a daily close working 
relationship and probably
we were able to get access to assets that other communities 
could not, and all of the volunteers who truly helped out.
    Thank you very much.
    Chairman Tom Davis. Thank you very much. Captain Keys, 
thanks for being with us.
    [The prepared statement of Mr. Cade follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.019
    
    [GRAPHIC] [TIFF OMITTED] T1421.020
    
    [GRAPHIC] [TIFF OMITTED] T1421.021
    
    [GRAPHIC] [TIFF OMITTED] T1421.022
    
    Mr. Keys. Thank you. Good morning, Chairman Davis and 
members of the committee. I am Ron Keys, director of emergency 
services for the city of Norfolk, and I am grateful for the 
opportunity to appear before this committee to discuss 
Norfolk's preparation for and response to Hurricane Isabel. My 
remarks are focused on three specific areas: How Norfolk 
prepared for the hurricane; the actual impact of the storm; and 
lessons learned.
    It is important to note that Norfolk's preparation and 
mobilization began well in advance of Hurricane Isabel. After 
September 11, the city made a commitment to educate the 
community on how to prepare for and respond to both man-made 
and natural disasters.
    Norfolk had learned a valuable lesson in 1998 during 
Hurricane Bonnie, when the water treatment operations suffered 
a power loss. For Isabel, the city was prepared, having 
upgraded its water treatment plant and leased three generators 
just prior to the hurricane. This preparation resulted in 
Norfolk having an uninterrupted supply of drinking water for 
all of our residents and the people that we provide water to.
    Several months prior to the hurricane season, Norfolk's 
emergency shelter program was reviewed by the American Red 
Cross and over 500 city employees were recertified in shelter 
management. The weekend prior--it just happened that way--
Norfolk hosted a hurricane public safety exposition in downtown 
Norfolk which attracted several thousand people just on 
hurricane preparedness.
    The preparation process accelerated when the hurricane was 
several hundred miles in the western Atlantic. A decision was 
made early to implement our emergency action plan based on the 
National Weather Service forecast that Isabel would make 
landfall on the East Coast. We were extremely pleased with the 
Weather Service and the accurate forecasts that they gave us.
    Chairman Tom Davis. You did not like the forecast, but you 
liked the accuracy.
    Mr. Keys. The accuracy of the forecast.
    Chairman Tom Davis. Make that clear.
    Mr. Keys. A mandatory evacuation was ordered for the 
residents of the low-lying areas and they were advised to seek 
higher ground. Norfolk prepositioned sandbags around shelters 
prior to landfall and all emergency generators, vehicles and 
operational equipment was tested and fueled off just to make 
sure everything was working correctly and fueled before the 
hurricane. We participated in several conference calls with the 
State EOC, the National Weather Service and regional partners 
sharing information, resources and strategies for the 
hurricane.
    Hurricane Isabel was the most devastating natural disaster 
to hit Norfolk in a generation. Fortunately, Norfolk was 
relatively successful in weathering this event. We benefited 
from both good luck--and I underline good luck--and preparation 
by the public and private sector in advance of the storm. 
Nevertheless, we had over 98 percent of the city without power, 
90 percent of our traffic signals were out, 1,250 people were 
in shelters, and we had over a million cubic yards of debris on 
the ground.
    Although most of the city was without power, drinking water 
pumping stations and wastewater stations remained on line with 
bypass pumps and generators without any noticeable interruption 
of service. The EOC worked tirelessly with Dominion Power on 
electrical outages estimates and priority for restoration. We 
had an active running count of outages every few hours as a 
planning basis for passing out requirements for the State EOC.
    Under lessons learned, we found that early action by the 
State and local officials and the National Weather Service to 
warn the public about the approaching storm allowed the 
residents to prepare. And luckily, most of our citizens heeded 
the warning by stocking up on water, food, flashlights, and 
batteries. The early evacuation of low lying areas possibly 
saved hundreds of lives and more importantly, we prepositioned 
their cars in city garages to prevent further damage to their 
personal property.
    Conference calls prior, during and after the storm were 
extremely helpful in coordinating actions regarding everything 
from school closings to meeting the needs of local 
jurisdictions. These calls were informative to decisionmakers 
and vital to emergency managers during the recovery phase.
    Hurricane Isabel and the power outage it caused clearly 
pointed out the need to assess our critical infrastructure and 
the vulnerability of our communications systems, ice and water 
distributionsites and even the inability to get fuel for 
emergency generators. Finally, localities need more help from 
the State and Federal agencies respectively in reducing the 
logistics timeframe for the delivery of resources. At least one 
State or regional all-hazards exercise should be conducted 
annually with emphasis placed on the challenges of logistics.
    In conclusion, I thank you for the opportunity to appear 
today and I am happy to answer your questions.
    Chairman Tom Davis. Thank you very much. Mr. Shaffer, 
thanks for being with us.
    [The prepared statement of Mr. Keys follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.023
    
    [GRAPHIC] [TIFF OMITTED] T1421.024
    
    [GRAPHIC] [TIFF OMITTED] T1421.025
    
    [GRAPHIC] [TIFF OMITTED] T1421.026
    
    [GRAPHIC] [TIFF OMITTED] T1421.027
    
    Mr. Shaffer. Good morning. On behalf of the Hampton City 
Council, our mayor, the Honorable Dr. Mamie Locke, and our city 
manager, Mr. George Wallace, I would like to thank this 
committee for the opportunity to participate.
    Hampton's response to Isabel was nothing short of 
outstanding and many, many city employees, businesses and 
citizens of Hampton deserve to be commended for their service 
to the community before, during and after Isabel. I would also 
like to thank our military personnel at Langley Air Force Base 
and Fort Monroe for their tremendous support in the days and 
weeks since Isabel.
    Mr. Wallace could not be at this hearing this morning. He 
and I have collaborated on the city of Hampton's written 
submission for these proceedings. Given the time constraints, I 
will not attempt to address each and every item in our written 
submission but focus primarily on the issues before this 
committee.
    I must also make you aware that responding to an emergency 
such as Isabel creates a tremendous demand on operational 
resources. Everything accelerates and a great deal of 
information passes by quickly without time for analysis and 
reflection. Every story has at least two sides and Hampton has 
not had an opportunity to debrief any of these issues with the 
State or Federal officials.
    Having said that, let me begin. My testimony includes five 
areas of focus: Hurricane Isabel's impact on Hampton; 
observations concerning Hampton's response to Isabel; 
observations concerning the State response to this disaster; 
observations concerning the Federal response; and finally, 
Hampton's expectations as a local government regarding State 
and Federal response.
    Key points in my testimony concerning the impact of 
Hurricane Isabel on Hampton: 30 percent of our city was 
flooded; 10 percent of our housing stock received significant 
damage from Isabel; we estimate over 5,000 trees went down as a 
result of the storm, resulting in over 1 million cubic yards of 
debris; we had tremendous erosion along our waterfront and 
beaches; the prolonged 100 percent power outage created 
challenges in Hampton that were not predicted; no one died 
during or after the storm in Hampton.
    Key points in my testimony concerning our local response: 
The city of Hampton has a great emergency operations plan and 
this plan was exercised, implemented and followed; mandatory 
evacuation saved lives; the city of Hampton and Dominion Power 
worked well together in the days immediately after the storm to 
clear downed wires and trees from our roads; we implemented our 
debris removal contract the day after the storm and contract 
debris removal started on Sunday, September 22, augmenting the 
city's efforts up to that point; Hampton identified emergency 
hazards very early and coordinated with FEMA to put in place a 
process concerning our entry onto private property to mitigate 
these hazards; providing emergency and public information was a 
tremendous challenge with the total loss of power and the 
widespread loss of telephone service.
    Key points in my testimony regarding the State response: 
The early declaration of a state of emergency and the mandatory 
evacuation issued by the Governor were very beneficial to 
Hampton; coordination with the State EOC was difficult due to 
the widespread impact of Hurricane Isabel and our loss of 
critical communication links to the State; the process for 
requesting resources from the State EOC was very problematic 
for the city of Hampton and has caused a great deal of 
frustration and drawn the concern of our elected officials and 
citizens; interagency and jurisdictional coordination 
concerning requests for Statewide mutual aid between the State 
EOC, the mutual aid recipient and the mutual aid provider was 
filled with misinformation and delay.
    Key points in my testimony regarding the Federal response: 
The National Weather Service forecast office in Wakefield is to 
be commended for the service they provided before, during and 
after the storm; FEMA is to be commended for obtaining the 
almost immediate Presidential disaster declaration that started 
the process toward recovery; the FEMA-initiated ice and water 
distribution plan created more problems than it solved for 
Hampton. We hosted a regional distributionsite at the Hampton 
Coliseum and our main EOC number was provided for every Federal 
employee and truck driver involved in ice and water 
distribution in Virginia. Delivery schedules were not reliable 
and it appeared that distribution was influenced by informal 
contacts and political demands; FEMA's reliance on the tele-
registration process for individual assistance using the 1-800 
number was problematic for our citizens due to the widespread 
power and communications losses; FEMA was responsive in 
establishing a disaster assistance center in our community and 
the face-to-face coordination with our citizens has been very 
well received; Hampton's questions regarding the public 
assistance process remain largely unanswered. We are not 
scheduled to have our PA kickoff meeting until October 14, 
which is the upcoming Tuesday.
    Local government expectations regarding State and Federal 
response: The State and Federal Government response should add 
structure and organization to the chaos created by the 
disaster. Never should State and Federal officials add to the 
chaos and confusion; 72 hours has historically been the 
advertised time before State and Federal help arrives. 
Hampton's experience with Isabel was 6 days; State and Federal 
officials should be able to answer programmatic questions posed 
by local government and citizens; Federal employees should 
include local officials when hosting meetings with neighborhood 
commissioners, civic associations and similar organizations; 
State and Federal officials who visit localities repeatedly 
failed to follow through with requests for information and 
assistance; local government requests for assistance need to be 
very closely coordinated. Local governments can accept that 
resources may not be available but we need to know that in 
advance so we can adjust.
    That concludes my comments and I am glad to be here today 
to answer your questions.
    [The prepared statement of Mr. Shaffer follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.028
    
    [GRAPHIC] [TIFF OMITTED] T1421.029
    
    [GRAPHIC] [TIFF OMITTED] T1421.030
    
    [GRAPHIC] [TIFF OMITTED] T1421.031
    
    [GRAPHIC] [TIFF OMITTED] T1421.032
    
    [GRAPHIC] [TIFF OMITTED] T1421.033
    
    [GRAPHIC] [TIFF OMITTED] T1421.034
    
    [GRAPHIC] [TIFF OMITTED] T1421.035
    
    [GRAPHIC] [TIFF OMITTED] T1421.036
    
    [GRAPHIC] [TIFF OMITTED] T1421.037
    
    [GRAPHIC] [TIFF OMITTED] T1421.038
    
    [GRAPHIC] [TIFF OMITTED] T1421.039
    
    [GRAPHIC] [TIFF OMITTED] T1421.040
    
    Chairman Tom Davis. Thank you. Mr. Schrock.
    Mr. Schrock. PA kickoff, public assistance?
    Mr. Shaffer. Public assistance.
    Mr. Schrock. OK, I was trying to figure that out.
    Chairman Tom Davis. Let me just ask, what has this, just in 
terms of local dollars, cost each jurisdiction? Do you know, 
Mr. Shaffer, how much this is going to cost the city of 
Hampton?
    Mr. Shaffer. That is a piece of the puzzle that is still in 
question. For Hampton right now, of the eligible expenses for 
reimbursement, the Federal Government will pick up 75 percent. 
Hampton, due to their fiscal stress indicators, will get 23 
cents from the State and we will pick up 2 cents of the cost of 
the recovery that is eligible. It is our expectation that there 
will be a great deal of cost borne by local government that 
will not be eligible for reimbursement.
    Chairman Tom Davis. I think I would be interested as a 
committee chairman to get a report from you, if you do not mind 
sending it to us, or through Mr. Schrock or Mr. Scott, what the 
ineligible costs are, just so we understand how the law works. 
And maybe there are some things that ought to be there that are 
not there and the like. And I know what kind of fiscal stress 
localities are under--I spent 15 years in local government 
before I went to the House--and an emergency like this just 
throws your whole budget out of kilter, but you have to react 
to it.
    Mr. Shaffer. Right.
    Chairman Tom Davis. How about for Norfolk; any idea what it 
will cost the city?
    Mr. Keys. We are still looking at the numbers but our 
fiscal stress level is 25 percent, so----
    Mr. Scott. Say that again?
    Mr. Keys. For Norfolk, our fiscal stress is 25 percent.
    Chairman Tom Davis. So under reimbursable expenses, it 
should not cost you anything.
    Mr. Keys. It should not cost us anything, but we are----
    Chairman Tom Davis. You are going to have non-reimbursable 
expenses though.
    Mr. Keys. There are quite a bit of non-reimbursable costs 
that we are looking at right now. We are going through that 
list now.
    Chairman Tom Davis. Again, I think if you could get us what 
those are, I think we would be interested in knowing what they 
are and taking a look at the law and seeing if we are including 
everything we need to. A disaster like this, I know what it can 
do to a locality's budget; it just turns it upside down.
    How about Virginia Beach, Chief?
    Mr. Cade. We will pick up 5 percent of the cost, of the 
eligible costs for reimbursement. And I think that is an 
operative key word because we are probably going to bear 100 
percent of the cost, whether or not we get reimbursed for 
everything is kind of the issue that none of us really are 
confident. Some things are pretty straightforward, we know we 
are going to get reimbursed for. Some of the comments that we 
have gotten out of FEMA are, ``Well, go ahead and do it.''
    Chairman Tom Davis. You might get some back.
    Mr. Cade. Yeah. And in some cases, as in Hurricane Bonnie, 
it took us 2 years, when the audit was done, and ended up 
having to----
    Chairman Tom Davis. Here is the reason I am asking what is 
eligible and what is not. No. 1, some of this may be arguable, 
you know, we may be arguing that. Again, with your 
congressional delegation, we can work on that and help you any 
way we can and I think we would like to do that.
    Second, there may be things in the law that ought to be 
eligible that at least this committee has not had an 
opportunity to look at. And we have some jurisdiction over that 
and we would be interested in knowing what that is.
    Mr. Shaffer. I can provide some immediate observations from 
Hampton's perspective.
    Chairman Tom Davis. Sure.
    Mr. Shaffer. A great deal of concern over the debris in the 
waterways has been raised and that has not, at this point, been 
made clear to us that is reimbursable. Piers, docks, waterfront 
erosion appears not to be reimbursable to a large extent.
    Chairman Tom Davis. That is where you look for the earmarks 
in the Corps of Engineers' budget.
    Mr. Shaffer. Private property debris removal is borne by 
the property owner. However, in this particular storm the large 
root balls that exist are beyond any reasonable expectation 
that a property owner can even begin to deal with those and 
that presents health and safety concerns down the road for 
fires, mosquitos, things like that, in those holes that the 
root balls create. So that is where our questions at this 
immediate time have been focused, on non-reimbursable expenses.
    Mr. Keys. For Norfolk, one of the items that really 
concerns us is the waterfront property. We have lost quite a 
bit of the dunes and natural protection and in that we are 
worrying about the next storm that comes through, if and when 
that next storm comes through. There is no protection for those 
homes and businesses along the beach right now, because the 
dunes were completely wiped out by Hurricane Isabel.
    Chairman Tom Davis. What is the cost for overtime for fire 
and police? And you had to rent buildings in the case of 
Virginia Beach. Now do you get any reimbursement for that at 
all?
    Mr. Cade. We are assuming that it is a reimbursable cost 
for the overtime expenses and for the rental. That is the 
approach that we are taking, that it is at least reimbursable 
up to 75 percent level from the Federal Government, 20 percent 
from the State, and we anticipate having to----
    Chairman Tom Davis. The State has a hole in its budget too.
    Mr. Cade. Well, yes. At least the early indication is that 
those are the numbers, and certainly we have the concerns about 
the waterfront property. Probably, the city of Virginia Beach 
is a little bit different than my colleagues here in the fact 
that we do have two Corps of Engineers--engineered beaches and 
our assumption is that, since they were advertising how great 
those two projects worked, they in fact will help us with the 
reimbursement and repair of those beaches. We estimate that 
damage alone to probably be around $9.5 million. We are not 
sure yet, obviously because it takes as I understand it--and I 
am no beach replenishment person--about 6 weeks for the wave 
action to finish putting back as much as it is going to.
    Chairman Tom Davis. Is it fair that probably the worst hit 
for the region was the flooding of the tunnel?
    Mr. Cade. Yes.
    Chairman Tom Davis. It affected the most people for the 
widest period of time. And I have not read all of the articles 
leading up to that but, in retrospect could this have been 
prevented?
    Mr. Keys. I cannot really speak for the tunnel, but I can 
speak in terms of an emergency manager. You look at a good 
checklist--and I think Norfolk is just like the other 
communities and Hampton Roads--the emergency managers got 
together, we have checklists, we use those checklists and I 
think that prevented a lot of the disaster.
    Chairman Tom Davis. But not for the tunnel, in other areas.
    Mr. Keys. Yes.
    Mr. Schrock. In Portsmouth and Norfolk's defense, it was 
not their responsibility to do the tunnel.
    Chairman Tom Davis. Absolutely. That is why I can ask them 
and get a straight answer. [Laughter.]
    This is something that was completely unanticipated, I 
gather. Nobody ever thought this could happen. And they did 
have safeguards in addition, is that fair to say? They just did 
not work.
    Mr. Cade. It certainly raises some concern on our part 
because of the Bay Bridge Tunnel going the other direction, as 
to whether or not that is in fact being exercised on a regular 
basis. So that is something that we are following up on.
    Chairman Tom Davis. Well, you live and learn. These are not 
all bad in this instance. Maybe we can prevent a worse disaster 
next time.
    Mr. Cade. There were lots of good things that happened, no 
doubt about that.
    Chairman Tom Davis. A lot of good things happened. Look, 
whenever something like this happens not everything runs 
perfectly. You have to make snap decisions and sometimes you 
have to make choices with limited resources. So this is really 
not finger-pointing, but it is a learning experience in terms 
of what is going on. In retrospect--you know, on Monday 
morning--you can always call a better game than you did Sunday 
afternoon. And that is kind of where we are, but you learn from 
that.
    Mr. Schrock.
    Mr. Schrock. Thank you very much. Yeah, I think you are 
absolutely right that the first responders are the folks in our 
cities, your cities, and I think they did an incredibly good 
job.
    And Captain, I am going to ask you--you may not hear this 
as a tunnel thing, that is a big issue as you can imagine 
around here. I heard the top VDOT official say at a briefing we 
attended at the tunnel that in order to close that tunnel, they 
had to get written permission from the mayors of Norfolk and 
Portsmouth. The mayor of Portsmouth made it really clear to me 
that was absolute nonsense. Do you agree with that?
    Mr. Keys. We had never heard that.
    Mr. Schrock. Never heard of that, yeah. It is called ``buck 
passing.''
    Chairman Tom Davis. Yeah.
    Mr. Keys. And now EOC was manned the entire time with the 
city manager and everyone else. So if that had come through, I 
am sure we would have known it.
    Mr. Schrock. Your comments, your ``all hands,'' I know 
exactly where you are coming from on that. Your ``all hands'' 
exercises are just a great idea, and I keep harping on that, 
that is the only way we are going to solve most of these 
problems is to exercise. You know, you did it for your whole 
career and I think that is the only way we are going to get 
these things resolved.
    Mr. Shaffer, you talked about debriefs. You obviously are 
ready to debrief the State and Federal Government. Is there a 
process in place to make that happen in a timely manner?
    Mr. Shaffer. Absolutely. In fact, yesterday afternoon we 
had our initial after action comment review for the city and we 
collected numerous, numerous comments from city departments and 
of course the process of administratively putting that together 
into a document is down range, but we are well on our way to 
looking at those actions.
    Mr. Schrock. You made a comment about the promises the 
State and Federal made and you said the followup was not good. 
Can you please help me understand that?
    Mr. Shaffer. What I am referring to with that comment is, 
we had a parade of FEMA officials come in the days and weeks 
following. Some of those folks have been very, very 
professional, very, very helpful to Hampton local government. 
Some of those folks came in and offered to do things and upon 
their departure from the city were never seen or heard from 
again, never answered the question that they said they would 
get answered.
    Mr. Schrock. Good photo op.
    Mr. Shaffer. I think these were lower level than photo op 
individuals.
    The other observation that I have relative to those folks 
is--and it primarily occurs at our debris operation--we have 
had an incessant parade of different Federal officials come 
through there and the level of expertise is obviously 
different. Some people will provide guidance that is 
countermanded the following day, it is contrary to what was 
given the preceding day and, you know, you measure a cubic yard 
of debris the same way in Virginia Beach as you do in Florida 
as you do in Hampton as you do in Texas.
    Mr. Schrock. A cubic yard is a cubic yard is a cubic yard.
    Mr. Shaffer. A cubic yard is a cubic yard, and it is not 
rocket science.
    Mr. Schrock. For the Federal Government, maybe it is. Did 
you have the same experience with the follow-through?
    Mr. Keys. In terms of?
    Mr. Schrock. Officials coming to your city and saying they 
are going to do this and do that, you know, and then walk away 
and nothing happens.
    Mr. Keys. Exactly. We had several representatives come in 
and I was just trying to find out who was the one FEMA point of 
contact. If I had a question, I would love to be able to go to 
one person to get an answer, and that was the biggest thing for 
me. I would have people coming in talking about assistance 
centers and someone else talking about other things, but I 
would like to see one person----
    Mr. Schrock. One point of contact.
    Mr. Keys [continuing]. One point of contact who could 
provide the information.
    Mr. Cade. We had the same experience, Congressman. We had 
FEMA officials in very, very quickly after the hurricane had 
gone through, which was very nice, but then trying to followup 
with questions, it took us days to find out who was the right 
person in the FEMA scheme of things to be able to talk to, and 
in saying FEMA, it is probably somewhat of a misnomer because 
in the housing issues, you had to talk to the person under the 
Secretary of Housing and Urban Development office and find that 
person and who it was. So yes, while it is all under the 
Federal response plan, it is certainly different agencies 
within the Federal Government. Part of it is just structural 
problems. We sent requests up to the State. You put in the 
submitter's name, it does not allow you to put in the point of 
contact's name, so the administrative assistant who typed all 
that stuff started getting a whole lot of phone calls and 
obviously she was outstanding the right person within the city 
of Virginia Beach. So it took us awhile to get those answers. 
The problem was our citizens were hitting us with those 
questions. It took us 3 or 4 days to find out who the right 
person was that we could all go to, to get that answer.
    Mr. Schrock. I know my time is up, but let me share one 
thing with the chairman. Several years ago, Virginia Beach 
invested in what we call a hurricane protection wall at the 
oceanfront, and I can assure you, it paid for itself this last 
time, so that was money very well spent.
    Mr. Cade. In fact, the Corps of Engineers' press release 
right after the hurricane I think, credits that project with 
saving at least $50 million worth of property damage, and that 
is probably a low estimate.
    Mr. Schrock. My dream would be to have the same thing in 
Oceanview and Willoughby, but that is for another decade, I 
guess.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    We have had different answers to this question. Let me see 
what kind of answers we can get on this: How much power outage 
did you think you were going to have to suffer through? Did 
anybody expect that most of the people in your jurisdictions 
would be out of power for at least a week, many for 2 weeks?
    Mr. Keys. In Norfolk, early on when the storm was a 
Category 5, we were expecting heavy damage, but the last 
forecast that we got that the hurricane was going to come 
across as a Category 1, we were relieved. We expected some 
damage, some power outage, but nothing on the scale that we 
saw.
    Mr. Scott. You are talking a day, two, maybe three?
    Mr. Keys. I was talking maybe--exactly, just 2 to 3 days. 
But when you go into a week or whatever, Norfolk never expected 
that.
    Mr. Scott. Mr. Shaffer.
    Mr. Shaffer. I think in Hampton, 70 percent of our power 
lines are overhead in Hampton and certainly we knew that there 
was going to be tree damage and significant power outage. I 
think what we were most shocked at was that for our commercial 
districts, our hospital, some of our critical facilities, it 
took as long as it did to restore power. And getting that 
information from Dominion Power was a little bit problematic in 
the early going. But I think they did a herculean job in 
getting power restored.
    My personal assessment was probably 4 weeks for the city of 
Hampton for power restoration and we were basically 100 percent 
by the end of the second week. But to answer your question, 
were we surprised at the amount of power outage? Yes, 
particularly in our areas that do have underground utilities, 
and the length of time that it took to restore those.
    Mr. Scott. Mr. Cade.
    Mr. Cade. Certainly in Virginia Beach our expectation, 
based on our experience in Hurricane Bonnie which was a 
Category 1 hurricane 5 years ago, it took us only a few days to 
have probably 99 percent of the city back up. And so when they 
said it was going to be a Category 1 hurricane, our expectation 
was 2, 3 days and everything was going to be fine. Dominion 
Power did an excellent job, we cannot complain about that, but 
we certainly--it took a lot longer than we had anticipated.
    Mr. Scott. Now we have had comments about when assistance 
was requested from FEMA. I recall from your testimony that on 
Friday, you thought you had asked FEMA for a lot of services, 
products, ice, water--you thought the request had been made, is 
that right?
    Mr. Keys. Yes. After the hurricane, we had conference calls 
with the State EOC. And part of that conference call was (1) to 
give your assessment of your city and what you needed and every 
city went down the line from Accomack to Williamsburg voicing 
those requests over the conference call.
    Mr. Scott. You were doing that Thursday and Friday.
    Mr. Keys. That started Thursday.
    Mr. Scott. OK, now what needs were you articulating and 
were they met? I assume you had ice and water.
    Mr. Keys. The main things that we heard from the majority 
of the people responding on the conference call were ice, water 
and generators.
    Mr. Scott. What about food after a couple of days?
    Mr. Keys. The early part. Thursday, you did not hear food, 
but as we got later into the process, you did hear food.
    Mr. Scott. And after everyone had articulated these needs 
to whoever was on the conference call, how were those needs 
met, how well were they met? Well, let me ask it another way, 
at another hearing we heard that some felt they would have been 
better off if FEMA had said right from the beginning, ``we are 
not going to do anything, you are left to your own devices.'' 
Would that have been helpful compared to what you got?
    Mr. Cade. At least for the city of Virginia Beach, I guess 
one of the confusions we had was once a Presidential 
Declaration was done, which was done very early, we assumed 
that greased the wheels for everything to begin to start taking 
shape. After the conference calls when our needs were 
articulated, we followed them up through the e-mail request 
system. We assumed, I guess mistakenly we found out, that those 
requests were going to be acted on in a fairly timely manner. I 
will be very honest with you; for the future, we have already 
started making contingencies. We are not going to rely on 
waiting on----
    Mr. Scott. So you would have been better off had you known 
from the beginning--if FEMA had told you from the beginning, we 
are not going to do anything, you would have been better off.
    Mr. Cade. If they would have told us it was going to be 5 
days before they showed up, we would have put things in place 
for 5 days.
    Mr. Scott. Mr. Shaffer.
    Mr. Shaffer. I had indicated previously that we were fairly 
frustrated and I know that you have heard what Mr. Wallace had 
to say about the request process. Basically, I think the 
process really needs to be dissected, evaluated and rebuilt. 
The process provided no feedback to local government as to what 
the status of requests were. We saw a great deal of confusion 
because we had telephoned requests, we had faxed in requests, 
we had situation reports where requests were made, only to find 
later that maybe the State did not have a record that the 
request was made or they did not act on it through any of those 
channels.
    Mr. Scott. And many of those things, you could have, had 
you known that was going to happen, you could have taken the 
matter into your own hands and done certainly no worse a job.
    Mr. Shaffer. Absolutely. In other cases, we made requests 
only to have the request 24, 36 hours later pointed back to the 
local government with the name of a vendor that the local 
government was to contact to obtain the resource. Certainly we 
could find a vendor much more quickly than 24 to 36 hours to 
obtain generators, chain saws and things like that.
    Mr. Scott. And so finally, Mr. Chairman, I think the point 
is, if we know what FEMA is going to do and what they are not 
going to do right off the bat, that would be extremely helpful.
    Mr. Shaffer. Absolutely.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Tom Davis. Yes, sir. Mr. Forbes.
    Mr. Forbes. Mr. Chairman, I could not agree with 
Congressman Scott more. The only thing we do have to recognize 
is the law is the law and, good or bad, the four of us up here 
helped write these laws and statutorily FEMA cannot do 
anything, whether we want them to, whether you want them to, 
whether they want to, until the State has made that request. 
Did any of you on the panel know that the State had not made a 
written request to FEMA for 4 days out?
    Mr. Keys. Speaking for myself, I assumed on that conference 
call when I provided my situation reports and my needs, that 
someone on the other end of the line was taking that 
information down and passing it on.
    Mr. Forbes. And that was an assumption I would have made 
too. But let me just ask you guys this, because some of you 
were on the conference call, do you know who was conducting the 
conference calls? And the reason I asked that is because 
according to the written testimony we have here from Mr. 
Marshall, and maybe he can elaborate on this when we go to the 
next hearing, but it says the Governor held the first of four 
conference calls with local officials on September 15, made 
subsequent calls on September 17, September 18 and September 
26. Then the Virginia Department of Emergency Management 
conducted two conference calls per day from September 15 
through the 29th with local emergency management coordinators. 
During that same time, Virginia Department of Emergency 
Management held daily conference calls with State agencies. 
Were these the calls you were talking about? Did FEMA have any 
separate calls that they put you guys on?
    Mr. Keys. No, sir.
    Mr. Forbes. On the e-mails that you had that you were 
sending in, do you know the e-mail address that you were 
sending them to? Was that going to FEMA, was it going to the 
State?
    Mr. Keys. We sent them up to the State EOC. We would get an 
e-mail confirmation back that they received it, but I guess, 
like Curt was saying, just because they received it did not 
necessarily mean we got feedback in a timely manner that 
allowed us to know what was going on.
    I personally sat in on the conference calls, certainly as 
Ron and Curt did. There were FEMA representatives that were on 
the call, we heard them talking. We assumed that when you are 
talking to the State and you are talking to FEMA that----
    Mr. Forbes. And I think that is a huge thing that we have 
to get clarified. And we have to make sure that the FEMA folks 
know that they make clear to local people when they are talking 
to them, we have this authorization or we do not have this 
authorization at that particular point in time. Because every 
locality that I met with had the same concerns, they just did 
not know what they were going to get and they did not know when 
they were going to get it.
    The last thing I just want to do is once again--and I am 
sure everybody else has done it, but just commend the three of 
you for all that you have done, local government just did a 
stellar job. You know, local government normally gets bashed 
all the time for stuff that they have done, but you just did a 
fantastic job in doing that.
    And the last thing I want to emphasize, because it is 
important we know this as a committee too, one of the toughest 
jobs you have is, you are the people communicating with 
citizens out there. If you are getting bad information and you 
are miscommunicating to your citizens, through no fault of your 
own you lose that credibility. And in a huge emergency where 
lives are in danger as opposed to just property and money, that 
is going to be an important thing for us to do. So it is 
vitally important that we make sure you are getting accurate 
facts so that you can disseminate them. But I just want to 
thank you for the jobs that local government did in this 
situation.
    Mr. Cade. Thank you, Congressman. And you bring up a very 
good point. Ron and I were talking about it earlier, we finally 
stopped saying things because we could not guarantee what was 
going to happen. And we figured if you are going to get beat, 
you might as well get beat for saying nothing than for opening 
your mouth and telling them something wrong.
    Mr. Keys. That is right.
    Chairman Tom Davis. Are there any other questions for this 
panel? You are going to get us some information on the 
reimbursables and what that is and we will try to do something 
with it.
    Mr. Forbes. Mr. Chairman, one thing that you could do also, 
the big thing we have heard from local governments is about 
this overtime issue and specifically that, during an emergency 
you have to reallocate some of your personnel to do other types 
of tasks, and so far I have not found a locality that has a 
good answer to that. But I know that you could get that for 
them and that would be hugely important, I think.
    Chairman Tom Davis. I want to thank all of you for the 
job--and the men and women under you. This region really pulled 
together. It could have been a lot worse, we need to remember 
that and a lot of really good things did go on with the 
community pulling together, all the governments cooperating. We 
tend to focus on the negative because there are always things 
that go wrong with something like this and we do not want them 
to recur, but this has been helpful to us and we look forward 
to getting more information from you as you more fully develop 
your costs and the allocability and that kind of thing.
    Again, thank you for being here. The record will be kept 
open for 2 weeks to allow you to supplement this.
    The hearing is adjourned. Thank you.
    [Whereupon, at 11:18 a.m., the committee was adjourned, to 
reconvene in Chesapeake, VA.]


 EMERGING FROM ISABEL: A REVIEW OF FEMA'S PREPARATION FOR AND RESPONSE 
             TO AFFECTED AREAS IN THE HAMPTON ROADS REGION

                              ----------                              


                        FRIDAY, OCTOBER 10, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Chesapeake, VA.
    The committee met, pursuant to notice, at 1:37 p.m., in the 
City Council Chambers, Chesapeake City Hall, Chesapeake, VA, 
Hon. Tom Davis (chairman of the committee) presiding.
    Present: Representatives Tom Davis, Schrock, Forbes, and 
Scott.
    Staff present: Allyson Blandford, office manager; David 
Marin, communications director; Edward Kidd, professional staff 
member; Teresa Austin, chief clerk; John Hunter, counsel; and 
John Cuaderes, senior professional staff member.
    Chairman Tom Davis. A quorum being present, the committee 
will come to order.
    We are conducting this field hearing in Chesapeake to 
assess the post-Hurricane Isabel damage and the state of 
emergency preparedness in the Hampton Roads region. My 
colleague and good friend, Randy Forbes, requested that this 
congressional committee actually come down here to witness 
first-hand the adequacy of the Federal, State and local 
governments' response to the devastation inflicted by one of 
the worst storms in history to hit this region, and to evaluate 
the state of cooperation among the government agencies 
responsible for emergency preparedness. These are vital areas 
of concern to the Government Reform Committee and to the entire 
country in the post-September 11 world. It is for this reason 
we decided to come to Chesapeake this afternoon and hold this 
critical hearing.
    I am pleased that Congressman Forbes and Congressman Bobby 
Scott are with us, and, of course, to my friend Ed Schrock who 
is a committee member, I appreciate you being over here as 
well. What affects one part of the region really affects it 
all; there is an interconnection.
    I do not need to remind anyone here that Hurricane Isabel 
inflicted death, injury and severe economic damage on this 
entire region. It has been over 3 weeks since Isabel roared 
through the region and the effects of this horrific storm are 
still disrupting people's lives today. For example, one of the 
most glaring adverse impacts on virtually everyone living or 
doing business in this area is the flooding and closure of the 
Midtown Tunnel.
    The Government Reform Committee has a vital interest in the 
government's response to the damage caused by Hurricane Isabel 
to the Hampton Roads region. It is critical that the Federal, 
State and local governments act in a coordinated, efficient 
manner, not only in response to future natural disasters, but 
also to potential terrorist acts. The Federal Government, the 
Commonwealth of Virginia and local jurisdictions have taken a 
number of actions to improve coordination of emergency 
preparedness efforts. Since the private sector owns most of the 
critical infrastructure in the Hampton Roads region and across 
the country, it is important for the private and public sectors 
to work closely to protect the region's infrastructure.
    Hurricane Isabel and the coordinated response to it mark an 
important opportunity to reassess the region's readiness and 
assure that all plans are workable and will meet the needs of 
all those involved. I hope this hearing will give us an 
accurate picture of the clean-up efforts in the Chesapeake 
area, what was learned from the devastation of Hurricane 
Isabel, and the progress made in developing an effective 
emergency preparedness program. Also, the committee hopes to 
find out what actions have been taken by the Federal Government 
and local jurisdictions to improve coordination on emergency 
preparedness efforts. We will also find out what, if anything, 
has been learned concerning the critical infrastructure the 
private sector owns and what can be done to keep it online 
during a disaster.
    We have assembled an impressive group of witnesses for this 
afternoon's hearing. We will hear from FEMA, the Virginia 
Department of Public Safety and from Dinwiddie and Isle of 
Wight Counties and the cities of Suffolk and Chesapeake. I want 
to thank all of our witnesses for appearing before the 
committee. I look forward to their testimony today. Again, Mr. 
Mayor, thank you for hosting this in your chambers, we very 
much appreciate it. Mr. Forbes, you are hosting this as well as 
our Member that requested this and we are happy to be here. You 
are recognized.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.067
    
    [GRAPHIC] [TIFF OMITTED] T1421.068
    
    [GRAPHIC] [TIFF OMITTED] T1421.069
    
    Mr. Forbes. Thank you, Mr. Chairman. I too would like to 
thank the city for allowing us to use their facilities. Mr. 
Chairman, I want to thank you for taking time to come here and 
be with us today. It is rare--and I do not think many of our 
citizens really understand just how rare it is--for the 
chairman of a full congressional committee to come to the 
locality instead of making people come to Washington. 
Congessman Davis has always been available for us when we 
needed anything throughout the State, and we just appreciate 
you for taking that time.
    Also, it is great to be with both Congressman Scott and 
Congressman Schrock. One of the great things about the Virginia 
delegation is we work so well together. We do not think about 
whether it is in the Third Congressional District or the Fourth 
Congressional District or the Second, we work together to make 
sure that we are doing the things that our citizens need. I 
think this hearing is a good demonstration of that, and 
certainly appreciate them being here today.
    If you ask why this hearing is important to us, Congressman 
Davis has outlined some of the reasons, but let me just tell 
you from my perspective. As I traveled around our localities 
after the storm, one of the things that I constantly had given 
to me were questions that the locality had about things that 
occurred during that crucial period of time in the storm, 
especially those first 12 days or so. They were questions that 
we have not gotten answers to. I think a hearing like this 
gives us an opportunity to answer those questions.
    I think it is important to recognize that this is not a 
finger-pointing exercise, although if you are the person 
getting the questions asked to you it feels that way. But I 
will tell you this, if it takes finger pointing for us to ask 
tough questions so our citizens are prepared for emergencies 
like this, then mark us all guilty of finger pointing, because 
one of the things that I have emphasized is my concern this was 
a hurricane, in some situations a Category 1 and some not even 
a Category 1. But think about what it would have been if this 
had been a Category 3 hurricane or, heaven forbid, a terrorist 
attack. And we cannot just walk around afraid that we are going 
to ask a tough question because it might be an embarrassing 
answer and not get problems fixed so that we do not have those 
fixed for us the next time something like this happens.
    I want to show you some of the facts that we have gotten 
from a hearing earlier today and tell you where I think we're 
going with a little bit of this hearing. But before I do that I 
want to just say, the story to me of this storm was one, first 
of all, of tremendous volunteers coming out from our 
communities and doing just an absolutely wonderful job. We 
could not have cleared all the steets, we could not have gotten 
people taken care of without those volunteers, and just to see 
the kind of community spirit that we had all over the area of 
the storm was wonderful.
    Second, I do not think we can applaud local government 
enough. I did not see one single local government that I 
visited that just did not do a stellar job. All we can do is 
say thank you and tell you how proud we were of your efforts.
    And the third, I think we have to take our hats off to 
Dominion Power. If you were sitting there and you did not have 
power it was easy to raise your hand and say, ``I do not like 
what is going on.'' But if you look at what they did, they did 
just a tremendous job in dealing with this storm.
    Now, I have one overhead if we can put it on. I just want 
to show you this as we start. We had a statement earlier that 
this storm was broader and more significant than local 
officials and State officials expected. I think we need to 
analyze that, and the reason for it is this: We have heard that 
we grossly underestimated this storm. The question we are going 
to have to ask ourselves is, ``did we really?'' And the reason 
I say that is because of this. I was coming back from Iraq 2 
days before this storm, I was in Germany at Ramstein Air Force 
Base, and every news broadcast that I saw talked about this 
storm going to be the worst one that we had seen in decades. If 
you look at NOAA's projections--and we heard earlier that there 
was--this storm was wider than projected. NOAA had expected 
that the storm would be 260 miles wide. In point of fact, it 
was only 300 miles wide, that is only 40 miles off. That was a 
pretty good projection. If you look at the track of this storm, 
there was no better projection--or projected track--than we 
have seen on storms in years. If you then look at the wind 
velocity that we ultimately had, you seen when a state of 
emergency was declared we were actually at a Category 2 storm. 
By the time it hit many of our areas, we had a Category 1 or 
less.
    And then some people will tell you that the damage from 
this storm was greater than what we had expected from a storm 
with winds of these amounts. But I just ask you to look at what 
Dominion Power did. The last example we had of a storm like 
this was in 1998, it was the ice storm. We were out of power 
for 9 to 10 days in areas with that ice storm. And in this 
particular situation, Dominion Power recognized that this was 
going to be a storm equal or greater to that one. They had 
mobilized 3,500 people coming to Virginia to try to make sure 
that we were dealing with these power outages.
    So I think we cannot say that this storm caught us by 
surprise. I think the projections were good. I think what we 
did before the storm and what we did 12 days after the storm 
was pretty good. The questions I have are in the interim period 
of time where it seemed like we had some huge communication 
breakdowns between Federal Government and State government and 
what they were communicating to the local governments; these 
are some of the questions that we want to ask today. And one of 
the crucial things that I think we have to analyze that we 
heard earlier today was that FEMA, with the resources it had, 
could not move those resources in place until written 
authorization from the State took place. That written 
authorization did not take place until 4 days after the storm. 
So I think we have to at least ask ourselves why that delay, 
how do we keep that from happening in future situations?
    And the final thing we heard constantly from our localities 
is, we are being told one thing and something else happens. We 
have to find a way to bridge those communication gaps so our 
localities
know that when they tell their resident something they can 
count on that and make sure it is accurate.
    So I am looking forward to your testimony. Mr. Chairman, 
thank you for your time and for being here.
    [The prepared statement of Hon. J. Randy Forbes follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.003
    
    [GRAPHIC] [TIFF OMITTED] T1421.004
    
    Chairman Tom Davis. Thank you very much, Mr. Forbes.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I want to join with the 
others here, Congressman Forbes and Congressman Schrock, in 
welcoming you to Hampton Roads and thank you for holding the 
hearing. I think it is extremely important that we review what 
happened, what went well, what went poorly, and your presence 
here and bringing the committee and staff here will make it 
possible for us to improve for the next go round. Everybody 
knows the damage suffered in Hurricane Isabel was worse than I 
think anybody had anticipated, worse than we have had in many 
years, with virtually everybody losing power, 1.8 million 
people. Many people were out of power for a week and a lot of 
people for 2 weeks. More trees were downed, the Midtown Tunnel 
was flooded, things that had not happened in previous 
hurricanes of even higher categories.
    A lot of things went well. People pulled together, 
communities pulled together, private businesses. I want to 
mention Harris Teeter, specifically, the grocery store was 
giving away ice. There were examples of people charging $14 a 
bag and here you have a grocery store giving it away. Seafood 
Industrial Park on the south end of Jefferson Avenue, extremely 
generous in its efforts.
    But one of the problems was that, with all of this damage 
and unprecedented length of time when we were without power, we 
developed problems that we did not anticipate. We did not 
expect, for example, food to be a crisis, but after several 
days of no power, food becomes a problem. Water and ice become 
critical. No power for that length of time means that battery-
powered devices are extremely valuable; you could not find 
those. If you could, you could not find batteries to operate 
them. Gas stations all over Hampton Roads, no power, you cannot 
pump gasoline. So gasoline was in crisis, and the radio would 
report which handful of gas stations had power and you could 
see lines around the block several hours in line just to get 
gasoline.
    In the previous hearings we have heard that there was a lot 
of confusion about what we should expect from our State and 
Federal emergency services. A lot of people expected things to 
take place that did not occur. An excruciating length of time 
to get water, ice, generators, food, equipment. The food stamp 
distribution for the disaster food stamps was absolutely 
dysfunctional. The workers worked long, hard hours, but the 
time that someone had to stand in line I think was totally 
unacceptable. The jurisdictions did not know exactly what to 
expect from FEMA and therefore expected things to happen that 
just did not happen. Had we known precisely what FEMA was going 
to provide and what it was not going to provide, I think a lot 
of things could have gone much more smoothly.
    There are several things I think we ought to look at. One 
is the category of the storm; Randy indicated that it was a 
Category 1, and in some cases did not even get up to hurricane 
status on sustained winds, and yet you had this kind of damage. 
I think to a large extent it was the width of the storm, 300 
miles. It took 12 to 16 hours to pass over and we were pummeled 
with that kind of wind--high wind--for that length of time. I 
think that was--we may need to put that into the mix as we 
catagorize the storms.
    The other issue--again, this has come up in the other 
hearings--is the structure, governmental structure. FEMA used 
to be an independent agency and now it is part of Homeland 
Security and we have heard that did not work as a disadvantage. 
I think we need to look at that very closely to ascertain 
whether an independent agency with the flexibility to deal with 
unpredictable things that come up will be more flexible and 
more responsive than one several layers down in a cabinet 
department.
    Mr. Chairman, again I want to thank you for coming to 
Hampton Roads and I appreciate the attention that you have 
placed on this issue.
    Chairman Tom Davis. Well, thank you very much, Mr. Scott.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman. Let me again say to 
the chairman that we really appreciate his coming down here. I 
am just afraid if he stays here long enough he is going to 
realize that living in Hampton Roads is better than living in 
northern Virginia----
    Chairman Tom Davis. It is certainly less expensive.
    Mr. Schrock [continuing]. And that he might want to come 
down here, and if he does, I do not think either Randy or I 
would like to challenge him or have him challenge us. So when 
this hearing is over, we will make sure you get on your plane 
all right.
    Mayor, it is good to be here. I have sat in these chairs 
before when I came here for a committee when I was in the State 
Senate. I always enjoy coming here and I always enjoy being 
with you.
    Like Randy, I have traveled the district I represent, not 
only on the ground, but on boats and in a helo, and I realize 
the horrible devastation that this area endured. I think our 
goal here today is to make sure that we have a system in place 
so that if this happens again that it will be seamless, there 
will be no problems and we will not have to have a hearing like 
this. This is not a finger pointing session by any stretch of 
the imagination. This is just to help with lessons learned so 
that when and if--and it is not a matter of when, it is just if 
this happens again--we will know how to handle it just a little 
bit better. We live on a coast, we all do, and we are going to 
get this from time to time, so the more we are prepared, the 
better.
    Listening to the Federal, State and local people, they all 
did a good job. I think those at the tip of the spear were the 
local people like Steve Herbert and Chief Best who had to be 
out there first. I think the lessons learned and the things 
that they are going to talk to us about today need to be 
listened to because they are the first responders. They are 
going to be the first ones on the scene of any disaster. I 
think they did a magnificent job during this.
    I guess it was Randy that mentioned Virginia Power. They 
did a magnificent job. They had people from so many places. 
They had them from--the French Canadians were here who could 
speak no English so they had to have translators so when they 
went up the poles they knew what they were talking about. So 
that shows the breadth of the support we got from all over this 
country and, of course, Canada.
    I really do believe we are starting to get a picture based 
on the hearings we have had--and I am sure it will be the case 
in this one--a picture of where we need to make some changes. I 
think that is a good thing. I think that will benefit everybody 
in the long run. Certainly we need to plan for the worst, but 
we need to hope for the best, and if that means we have 10 
times more resources in place than we need, I would rather have 
that than 1 percent less than we need when the balloon finally 
goes up.
    I am a retired military guy, and in the military we 
exercised all the time. That's all the military does when they 
are not in the heat of battle. So when they do go into the heat 
of battle they know exactly what they are doing. I think that 
is something that certainly needs to be considered here, you 
know, the local people working with the State people working 
with the Federal people. They need to exercise quite a few 
times so that when this happens again they will respond better.
    The tunnel, the Midtown Tunnel, is a good example of that. 
That tunnel had not been tested in 2\1/2\ years and then when 
it came time to close it they realized the plate that covered 
the latch where the ball would come down was welded shut. What 
nonsense. I mean it would have taken somebody 5 minutes to 
determine that and get it out of there but they waited until it 
was too late. That is probably never going to happen again, I 
can assure you of that. So 44 million gallons of water later 
they are emptying it out and hopefully they will get that thing 
open.
    So I think what we are doing here is good. I think we are 
going to learn a lot. Thanks to Randy for having us down here 
and for the chairman for coming down here, and Mayor, for 
allowing us to be in your great chambers. It is really great to 
be here and I look forward to the testimony.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    On our first panel we have Eric Tolbert again; we have had 
him in a number of venues. He is the Director of the Response 
Division of the Federal Emergency Management Agency. It is a 
policy that we swear witnesses in, so if you would rise and 
raise your right hand.
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much for being with us.

STATEMENT OF ERIC TOLBERT, DIRECTOR, RESPONSE DIVISION, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Tolbert. Thank you, Mr. Chairman and members of the 
committee. It is an honor for me to be with you again 
discussing the aftermath of Hurricane Isabel. For the purposes 
of this briefing, I have provided my written comments for the 
record. For the sake of time, I would like to abort from simply 
reading those comments and to highlight instead some of the key 
issues that I think are pertinent to the review of this process 
or this particular disaster.
    Let me say up front that the men and women of FEMA are very 
dedicated individuals and are very committed to the ongoing 
service that they provide and will continue to provide in the 
coming months to assist Virginians and the citizens of other 
States that were impacted by this disaster with bringing about 
recovery to the best of our ability. We are learning new areas. 
We constantly look and strive for ways to improve our 
capabilities, and this storm alone has led to a dissecting and 
a critique of our processes literally 2 weeks ago. So we have 
already begun that process and will continue to make 
refinements.
    Let me say that Hurricane Isabel was a very strong Category 
2. Mr. Forbes, the comments that you made are right on, that 
had this been a higher category storm, we would have seen 
consequences tenfold greater than what we saw with this. So in 
some ways I guess the silver lining is that it provides an 
opportunity to refine some of our plans and procedures. The 
good news is that while lives were lost, as compared to other 
disasters I have been associated with, thankfully because of 
the great work in the protective action phase, very few lives 
were lost. We know the risk; a lot of area does go under water 
in this region when we have high category storms. I think it 
speaks very well of the coordination that occurred early on to 
protect our people. I am thankful that we did not lose more 
lives than we did with this particular storm.
    Preparedness is a shared responsibility; it begins at the 
family level. Families have to be prepared for disasters, and 
it is not just in anticipation of a hurricane or a winter 
storm. Our doctrine teaches that we should maintain a state of 
preparedness for at least 3 days the year around because the 
event tomorrow may be some malfunction at a water treatment 
plant or some malfunction in the power grid that causes the 
same consequences that occurred to people from this particular 
storm for which we had in advance of--we had 7 days warning for 
this particular storm. So I think we illustrated again the 
requirement for citizens and families to take seriously the 
training that we provide to be prepared to survive in future 
events that occur.
    We share it at the neighborhood level. We saw a lot of 
neighbors helping neighbors, and I think that is key to success 
in the future. I congratulate Congress on the continued support 
for the Community Emergency Response Team Program that we are 
happy to sponsor, as well as the Citizen Corps Initiative which 
assists communities to get better organized to help themselves 
in the early hours and early days of disasters. Businesses 
share in that responsibility, cities share in that 
responsibility, counties and the States, and yes, the Federal 
Government as well; we all share equally from my perspective in 
the preparedness for disasters.
    Under our doctrine and our operating authorities which are 
contained within the Stafford Act, we know that all disasters 
are local. In fact, local officials are in charge, that is our 
doctrine. I have researched the Virginia statutes and that is 
consistent with what we see in other States. So in terms of who 
is in charge, there should never be a question in fact anywhere 
in this country that local officials are in charge of the 
emergency and orchestrating the response. The role of the State 
and the role of the Federal Government is to provide support 
under our own authorities and with our own resources.
    When the capabilities of the disaster presented are beyond 
those of the local capability, again, the State is then charged 
with providing support. Really, the Federal Government is the 
last in the food chain for providing support. The only 
authority we have to provide emergency assistance is under the 
Stafford Act for natural disasters and that assistance can only 
be provided when the President declares a major disaster or an 
emergency. In this case the disaster was declared within hours 
because we had worked in advance to put in place a policy of an 
expedited disaster declaration to ensure that there would be no 
legal constraints to our ability to provide assistance.
    Let me outline eight shortcomings--eight areas for 
improvement that I believe existed in this disaster. I have 
seen them in other disasters as well.
    The one that did concern me the greatest and continues to 
concern me is the critical infrastructure survival, the 
sustainability of critical infrastructure. Today in Virginia we 
still have, according to the report I received earlier today, 
45 water sytems still under a boiled water order. This is D 
plus 22, so we are now over 3 weeks into this disaster. I think 
that's an area that requires our consolidated commitment toward 
fixing that situation. I think that is an area that is 
imperative that we improve.
    What we see at all levels is lack of staffing depth, and in 
this case when you have an evacuation phase starting days in 
advance, frankly by the day you have impact you have exhaustion 
at the local level, at the State level and in some cases at the 
Federal level. That is exacerbated in small rural jurisdictions 
by the lack of staffing depth to continue operations and to 
sustain emergency operations beyond landfall.
    In this case, we saw responders who were also victims. I 
saw in the Virginia Emergency Operating Center, as well as in 
local jurisdictions, the personnel who were directing the 
response were themselves victims. They did not have power, had 
trees on their own homes, had destroyed property, hopefully no 
injuries or death, but that creates serious problems for the 
emergency response community. And in Virginia's case because 
the damage was so widespread there was an inability to bring 
fresh people into the impacted communities to shore up that 
early operational capability.
    Knowledge of disaster consequences I think is always 
something that--we know that experience is the best teacher. No 
matter how many publications we put out, how many educational 
programs we sponsor, teaching the consequences and getting 
people to understand that they can lose power for 1 to 2 weeks 
following a disaster is very difficult to accept with our 
modern society. But we will have to continue in the public 
education arena so that we better understand the consequences 
that we must therefore plan for.
    Disaster logistics is always very complicated. The topic of 
ice, as we have repeatedly discussed, is particularly difficult 
because of the refrigeration requirements and the 
transportation requirements. That is an area that I think we 
will focus on and we are fully committed to working with 
Virginia and the local jurisdictions to enhance our logistics 
planning capabilities.
    Sir, I notice that my time is up.
    Chairman Tom Davis. Go ahead and finish.
    Mr. Tolbert. Let me just--I would like to make one 
observation as well. The Virginia EOC did have some significant 
limiting factors. The facility itself did not accomodate a 
face-to-face coordination. That always makes things better, 
makes communication and coordination better. Thankfully, 
Virginia already has a new emergency operating center under 
construction, and I am proud to report that your appropriation 
through FEMA is supporting that new facility. So that is 
already an improvement that is underway.
    I think, last, I heard from Secretary Marshall that they 
received in excess of 18,000 messages, that is requests for 
assistance and information that are coming into the State 
emergency operating center. Based on my 20 years in this 
business, I can tell you that is a huge volume of information 
to manage. So when compared to the things that went right and 
the things that went wrong, I think 18,000 messages is frankly 
too many. We have to look for better systems for sharing 
information so that we do not overwhelm any system. That would 
have overwhelmed FEMA or any State that was attempting to 
respond to the situation.
    Let me just say again, we remain committed to working with 
the victims and working with the local governments until this 
recovery is accomplished. We are very committed to working with 
Virginia and the local officials to continue improving our 
plans for future operations.
    Chairman Tom Davis. Mr. Tolbert, thank you very much. Let 
me just ask, of the 45 water systems, most of those are pretty 
small; do you know what the largest system is that is still on 
a boil order?
    Mr. Tolbert. I do not have even a list of those. It is in 
an executive summary that I receive each day; but 45 was the 
number today. I think yesterday it was in the 70 range. So they 
are continuing to make progress but that is still far too many.
    Chairman Tom Davis. It takes a couple of days to get the 
cultures back even after the system is clean.
    Mr. Tolbert. Correct.
    Chairman Tom Davis. I appreciate your being here. This is 
the first time in a while I think Virginia has had to go 
through this. North Carolina has had these with some frequency. 
I think you are absolutely right, the cooperation was good 
between everybody, the attitude was great. There was a team 
spirit to try to lick this thing. The Governor was on the phone 
several days before talking to everybody, but the key always 
comes down to implementation and things do not always go 
exactly as planned. One of the problems that Mr. Forbes 
identified earlier was the fact that the coordination between 
the State and the Federal Government in getting ice and 
generators and stuff was just not as quick as it might have 
been, given the regulations you have to follow. I gather that, 
evidently there were some oral orders saying, ``we need this,'' 
but somehow you still could not act. Can you explain how we can 
improve that?
    [No response.]
    Chairman Tom Davis. Do you understand? I am not losing you 
am I?
    Mr. Tolbert. No, I understand your question. It is related 
to our----
    Chairman Tom Davis. I did not articulate it very well.
    Mr. Tolbert [continuing]. Earlier discussion. No, I 
understand completely. This is related to the question at the 
last hearing. In fact, the first order--we respond to a request 
for Federal assistance that is a prescribed form and a 
prescribed process whereby the State defines the missions that 
they need accomplished. They hand those over to us and because 
there is a cost share requirement, we do an estimate of cost, 
hand that back to the State and they provide an approval. On 
Monday----
    Chairman Tom Davis. And, in fact, the Governor had, had he 
not, 2 or 3 days before done what he needed to do in terms of 
declaring a disaster? Did that not help?
    Mr. Tolbert. As had the President.
    Chairman Tom Davis. OK.
    Mr. Tolbert. We were authorized at that point to provide 
assistance. Prior to the President declaring it, we could not 
under any circumstances execute emergency operations in support 
of any one other than ourselves creating our own capabilities. 
Monday was the first day that we received the request for 
Federal assistance through the prescribed process for ice. I 
did not come prepared to discuss the other missions. I would be 
happy----
    Chairman Tom Davis. But that is a written process, right?
    Mr. Tolbert. That is correct.
    Chairman Tom Davis. Orally you knew they needed it before 
and I guess had talked them through the logistics and what they 
needed to do, is that----
    Mr. Tolbert. Even prior to an oral request we had--before 
Thursday--before landfall day, we had already prepositioned 16 
truckloads of ice at Fort A.P. Hill, which was a designated 
Federal mobilization center. That was just in anticipation of 
some requirement for ice. But based on our experience, we 
routinely see the utilization of ice for mass care operations, 
supporting shelter operations. Oftentimes at nursing 
facilities, at hospitals that require some additional form of 
refrigeration, especially if they are struggling with power 
failures. So we routinely preposition those when we have an 
advance warning.
    On Saturday, based on--I am confident--I do not have 
specific notation, but I am confident that it was a result of 
mutual planning, we ordered an additional 160 truckloads of ice 
which were scheduled to arrive on Monday, Tuesday and 
Wednesday. So this was in anticipation----
    Chairman Tom Davis. Where did that ice come from?
    Mr. Tolbert. I do not know the source. Under our plan, we 
task the U.S. Army Corps of Engineers under our Emergency 
Support Function No. 3, Public Works and Engineering. We task 
them with performing that mission. So the Corps of Engineers 
issued the verbal order to their contractor on the 20th. I 
assume that was----
    Chairman Tom Davis. How about generators? Did we have 
enough generators--backup generators ready to go at that point?
    Mr. Tolbert. In advance of the storm we prepositioned what 
we call--and I think in this case it was one 50-pack--one--we 
call it a 50-pack, it is a standard package of 50 generators. 
Again, that is just in anticipation of some requirement being 
given to us, and we have additional back at our territorial 
logistics center and at the other mobilization centers that 
were established outside of Virginia. Now let me say that the 
A.P. Hill facility was not specifically designated for 
Virginia. At that time, we did not know if West Virginia was 
going to be impacted or northern--the northern portion of North 
Carolina, so we activated three mobilization centers with the 
standard packages going to each, as well as prepositioning 
teams, medical teams, as well as search and rescue teams at 
those and other locations that we reasonably expected may be 
needed and would provide life saving operations. So the order--
the official order--the request for Federal assistance was 
transmitted to us on Monday and at that point we had----
    Chairman Tom Davis. Were you open Saturday and Sunday? Had 
they transmitted it on----
    Mr. Tolbert. Absolutely.
    Chairman Tom Davis. So they did not have to wait for a 
working business day or anything at that point?
    Mr. Tolbert. No.
    Chairman Tom Davis. OK.
    Mr. Tolbert. We were there jointly 24 hours a day. But 
again, we had ordered in anticipation of a requirement--and I 
assume that was done in consultation--160 loads of ice to be 
delivered beginning on Monday the----
    Chairman Tom Davis. Mr. Tolbert, you had this stuff--did 
you have the ice before Monday but you just did not have the 
orders to do it?
    Mr. Tolbert. We had some--we had the 16 trucks that were 
prepositioned. Those were available to provide deliveries. In 
fact, on Saturday seven of those trucks--a request came in from 
the District of Columbia, and rather than moving it from 
Edison, NJ, we actually moved seven truckloads on Saturday to 
the District to fulfill their requirement. We still had at that 
point--I guess that is nine truckloads that were still 
available and were available up until Monday.
    Chairman Tom Davis. OK. Let me ask--I am not taking sides 
here because my committee has jurisdiction over the District of 
Columbia, too. But that ice would have gone to who got the 
paperwork in first, is that what you are saying basically?
    Mr. Tolbert. We would immediately react to a request for 
Federal assistance.
    Chairman Tom Davis. And D.C. was in a couple of days before 
Virginia?
    Mr. Tolbert. The District--we moved seven truckloads to the 
District of Columbia at 2:30 p.m. on Saturday as a result of a 
request.
    Chairman Tom Davis. And that was ice that could have easily 
been to Virginia first?
    Mr. Tolbert. It could have.
    Chairman Tom Davis. Mr. Forbes.
    Mr. Forbes. Mr. Tolbert, first of all, let me thank you for 
coming here. Let me also tell you, as I told you before at the 
other hearing and told you today, this is not a finger-pointing 
thing at you. But at the same time, when I look around--and I 
want you to take a look. Just turn around and look behind you. 
These people who are in here represent real live citizens all 
across this area, and when we look at them and when we pat them 
on the head and we say, ``hey, do not worry, we did a good job. 
We had generators in warehouses, we had ice in trucks 
somewhere.'' You know, that does not help them when they go to 
their citizens and say, ``I am sorry you lost all of your food. 
I am sorry we lost our water supply center because we did not 
have generators.'' One of the toughest things we have had 
through this process is this, not wanting to finger point, just 
wanting to ask a straight question and get a straight answer, 
you know. The reality of the situation is this, you gave a 
written statement that you have given to this committee and in 
that written statement you state in there that you began 
prepositioning assets prior to the storm even hitting, right?
    Mr. Tolbert. Correct.
    Mr. Forbes. Before you even had any consultation with 
Virginia or anybody else, you knew this was going to be a big 
problem and you started prepositioning assets here, is that 
correct?
    Mr. Tolbert. That is correct.
    Mr. Forbes. All right. Now in addition to that, you state 
that your priorities prior to landfall and after landfall were, 
among other things, four things--other things too, but ice, 
water, generators and disaster recovery centers, is that 
correct?
    Mr. Tolbert. Among other things, correct, yes, sir.
    Mr. Forbes. Among other things, but they were four of your 
priorities. You then state on page 5 of your testimony that the 
greatest need in this disaster was for power, ice and water, 
correct?
    Mr. Tolbert. Not in that order, but yes.
    Mr. Forbes. All right. Then would you turn to your 
testimony. Do you have it in front of you?
    Mr. Tolbert. I do not question what the testimony says.
    Mr. Forbes. I am just saying what you stated. If you want 
to change your testimony, change it.
    Mr. Tolbert. In terms of life preserving priorities, water 
would always be our first priority. It is a life sustaining 
commodity and is top priority.
    Mr. Forbes. These are your words. The greatest need in this 
disaster was for power, ice and water----
    Mr. Tolbert. That is correct.
    Mr. Forbes [continuing]. Is that correct?
    Mr. Tolbert. That is correct.
    Mr. Forbes. All right, now the--when I look at the window 
of time--first of all, I applaud everybody for establishing a 
state of emergency prior to the hurricane. I applaud you for 
prepositioning assets. But these localities were on conference 
calls and they were being talked about in terms of getting 
assets to them during that period of time. The question I want 
to ask you is the same one I asked you before. I just want to 
see if we get the same answer, you know. In this particular 
situation, if you have ice or if you have water or if you have 
generators, by law it cannot move to the localities until you 
have written authorization from the State, is that true or 
false?
    Mr. Tolbert. That is true.
    Mr. Forbes. So on Friday after the storm, regardless of 
whose fault it is, regardless of who thought who was going to 
do it, if you do not have written authorization from the State 
you cannot move ice to localities, you cannot move generators 
and you cannot move water even if you want to, is that correct?
    Mr. Tolbert. That is correct.
    Mr. Forbes. On Saturday after the storm, if you have ice 
and you have water and you have generators, no matter where 
they are, you cannot move them to these localities unless you 
have written authorization from the State, is that correct?
    Mr. Tolbert. That is correct.
    Mr. Forbes. Sunday, the same thing, is that correct?
    Mr. Tolbert. That is correct.
    Mr. Forbes. And the first day after the storm that you got 
that written authorization was on Monday, is that correct?
    Mr. Tolbert. That is correct.
    Mr. Forbes. All right. Can you tell me--and I do not think 
you have this answer unless you have been able to get it since 
the previous hearing, but I would ask that you get it for me--
when did the State of North Carolina first request assistance?
    Mr. Tolbert. I do not have that information.
    Mr. Forbes. Would you just provide us with that information 
at some point in time?
    Now, the second thing is--and Congressman Schrock has 
talked about this in the other hearing and will probably talk 
about it later--but one of our big concerns was obviously the 
tunnel situation. I do not want to talk about the tunnel now, 
that is his bailiwick and I am going to leave it to him. But 
one of the concerns that we raised there was having objective 
standards, protocols, for when you close the tunnel, when you 
open it, how you do it. My concern is when we are dealing with 
ice, water, generators, disaster recovery centers, do we have 
objective standards for when we are going to do that or is it 
kind of again like obscenity, we just know it when we see it? 
And the reason I asked that to you is because, when you are 
talking about delivering ice, do you send the ice where you 
want it to go or does the State tell you where the ice needs to 
go?
    Mr. Tolbert. We receive specific information as to location 
and volume and timing to the extent possible from the State.
    Mr. Forbes. OK. So it is the State that tells you the ice 
goes here and when it goes there, is that correct?
    Mr. Tolbert. That is correct.
    Mr. Forbes. The same thing with water?
    Mr. Tolbert. Correct, all resources.
    Mr. Forbes. The same thing with generators?
    Mr. Tolbert. All resources.
    Mr. Forbes. How about the establishment of disaster 
recovery centers, is that the same thing?
    Mr. Tolbert. Yes, sir.
    Mr. Forbes. OK. So basically you are here with the assets 
but until the State says they go there you cannot send them, 
and until you get written authorization you cannot move them, 
is that correct?
    Mr. Tolbert. The written authorization does not apply to 
the disaster recovery centers that are established.
    Mr. Forbes. But it does apply----
    Mr. Tolbert. But it does not apply----
    Mr. Forbes [continuing]. Water----
    Mr. Tolbert [continuing]. Because that is the 
administration of our regular recovery programs. It does apply 
to direct Federal assistance.
    Mr. Forbes. So prior to the Monday after the storm, 
regardless of what you had warehoused you could not get it to a 
locality?
    Mr. Tolbert. Specifically ice; I am prepared to answer that 
question definitively on the question of ice because I do have 
those records.
    Mr. Forbes. Would you just at some point in time get the 
rest of them to the committee, please?
    Mr. Tolbert. I will, yes, sir.
    Chairman Tom Davis. I was just going to say that, 
basically, you had prepositioned a lot of this in Virginia and 
we sent it out of Virginia to other areas because the paperwork 
was in faster, which you have to do, that is your obligation.
    Mr. Tolbert. Well, I think there are variations to----
    Chairman Tom Davis. I am talking about the ice.
    Mr. Tolbert. To make the comparison though, the District of 
Columbia was less significantly impacted and we're dealing with 
what were Virginia priorities--I would speculate that they were 
dealing with what were Virginia priorities in latter days. They 
were able to deal with them earlier because they had a smaller 
area significantly impacted and their priorities were coming up 
much faster than was Virginia.
    Chairman Tom Davis. Correct. That is a fair comment.
    Mr. Forbes. But, Mr. Tolbert, the question is, D.C. sent 
you the written authorization, correct?
    Mr. Tolbert. Correct.
    Mr. Forbes. And when they did, you sent the resources?
    Mr. Tolbert. Correct.
    Mr. Forbes. And you did not get the written authorization 
from Virginia until Monday, right?
    Mr. Tolbert. Correct.
    Chairman Tom Davis. But as I understand it--if I could, 
Randy--Virginia was struggling with other issues that the city 
had already gotten through maybe before ice.
    Mr. Tolbert. That is exactly right. As I stated, the State 
of Virginia was dealing with a volume of 18,000 requests. The 
District of Columbia is the generator of the requests and the 
requestor to the Federal Government.
    Mr. Forbes. Mr. Tolbert--Mr. Chairman?
    Chairman Tom Davis. Sure, it is your turn.
    Mr. Forbes. The question that I have--again, I am not 
pointing fingers, I am not saying that they did not have a lot 
of requests. I am saying that what they need to examine is how 
they deal with 18,000 requests. There would have been nothing 
that would have stopped them from sending you 2,000 requests, 
would it?
    Mr. Tolbert. Nothing would have stopped them from doing 
that.
    Mr. Forbes. So on Monday, they could have said, ``we need 
to send this ice here for 2,000 people and come back on Tuesday 
with 2,000 more,'' could they not?
    Mr. Tolbert. It could have occurred. It would have 
overwhelmed us had we received 2,000 requests. I would note 
that one of the doctrinal changes that is already underway is 
contained in Homeland Security Presidential Directive No. 5, in 
which the President has directed the Federal agencies and has 
put in place incentives for State and local governments to 
adopt the national incident management system. And one 
component of the national incident management system is a 
uniform, vertical process for doing incident action planning. 
Ideally, what we would like to have is the same priorities 
occurring all the way from the courthouse to the White House so 
that we have consistent operations all across the disaster 
area. That is where we are going. We are well underway with the 
implementation of that doctrine.
    Mr. Forbes. Mr. Chairman, just two more questions.
    Chairman Tom Davis. Sure.
    Mr. Forbes. The first one is, once the State makes that 
written authorization, then the State becomes responsible for 
25 percent of the cost, is that accurate?
    Mr. Tolbert. That is correct.
    Mr. Forbes. The second thing is not a question. It is just 
a comment that you could take in the planning that you have 
regarding FEMA and the approaches that we have. But one of the 
things that I just heard over and over from the localities here 
is that sometime you had a lot of people on the ground but they 
could not answer the questions. So if somebody came to your 
locality and said, ``we have a problem with A,'' they would 
say, ``I am sorry, I only deal with flooding, I cannot answer 
it.'' Again, these localities are striving to try to get 
accurate information out to their citizens. The one thing I 
would ask you to look at in the management structure that you 
have is how, perhaps, there could be one point of contact for 
each locality so they know, ``this is the person I am talking 
to on Monday, it is the same thing I am going to hear on 
Tuesday, it is the same thing I am going to hear on 
Wednesday.'' I would just share with you, they contacted us not 
because any one of the three or four of us wanted to interject 
ourselves, but it is because it was the only way they felt they 
could get answers in this situation.
    Thank you, Mr. Chairman.
    Mr. Tolbert. Mr. Chairman, may I respond to that, please?
    Chairman Tom Davis. Sure.
    Mr. Tolbert. Mr. Forbes, that is one of the areas that we 
are specifically looking at, and we were looking at that in 
advance of this--in fact months ago, in advance of this storm. 
I think you are aware that FEMA, in terms of full-time 
employees, is roughly 2,500 employees. That includes the 10 
regional offices, as well as the headquarters operation, as 
well as our national security employees, as well as the 
National Flood Insurance Program. So we are not a very large 
organization. Most of the employees that come in contact with 
local officials during a recovery phase are our disaster 
assistance employees who are part-time, intermittent employees 
that live all across the country. The vast majority are retired 
and have a retirement income and choose to do part-time 
disaster reservist work for FEMA. It is a very difficult 
challenge to keep those 3,500 part-time reservists fully 
trained. We do tend to have them specialized.
    One of the initiatives that we hope to undertake is to 
better utilize local emergency management coordinators across 
this country to get them in our disaster reservists cadre so 
that we can utilize them. Take the expertise that exists now in 
Virginia, and when Florida is impacted next time we hope to 
have in place a system that we can bring them into Federal 
service for a short period of time, deploy them to support 
another impacted State representing FEMA. So we are aware of 
that continuity issue. It is one of the difficulties we have 
with our structure and with our staffing. We agree with you 
that we will continue to make improvements in that area.
    Chairman Tom Davis. Thank you. I am going to recognize Mr. 
Scott. Let me just ask one other quick question. How many years 
have you been doing this with FEMA?
    Mr. Tolbert. Twenty years. I have only been in FEMA--I have 
been in this job for 6 months. I have been in FEMA 1\1/2\ years 
and I have been in this profession for 20 years. I have been a 
local emergency manager and a State director of emergency 
management.
    Chairman Tom Davis. As you look at the breadth of this and 
everything else, how serious is this compared to some of the 
others you have seen through time?
    Mr. Tolbert. Serious in terms of the consequences and the 
impact on the communities?
    Chairman Tom Davis. And the breadth of it. I think here--
you have seen more devastating impacts because you have seen 
Category 4s, but they may not have as wide a berth or effect in 
terms of the number of people affected.
    Mr. Tolbert. In terms of the level of devastation this was 
a minimal hurricane as compared to Hurricane Andrew that struck 
south Florida in 1992. It was far less than occurred in South 
Carolina and even North Carolina in 1989 from Hurricane Hugo.
    Chairman Tom Davis. OK.
    Mr. Tolbert. Not even comparable, sir.
    Chairman Tom Davis. All right, thank you.
    Mr. Scott.
    Mr. Scott. Thank you. Just following up on that. How is it 
in the terms of the number of people affected?
    Mr. Tolbert. In terms of total population affected, and by 
affected, including those that lost power but had no other 
damage, the population would probably be higher than Hurricane 
Andrew in the south Florida venue, but it also went into 
Louisiana. In terms of--as compared to Hugo, I would say 
comparable.
    Mr. Scott. Thank you. The disaster designation--we have 
been--I guess all have been involved in other disasters and are 
aware that you cannot do anything until the designation has 
been made. The Governor, I think, declared--did some of his 
designation before the hurricane, and my recollection was the 
wind was still blowing when you made the Federal designation. 
Is it humanly possible to have gotten that done any quicker?
    Mr. Tolbert. It was very difficult negotiating the policy 
that we did put in place because it is really a stretch of the 
Stafford Act. There really has to be an imminent threat to the 
State that warrants that Presidential disaster declaration.
    Mr. Scott. So you did it as quickly as anybody could 
reasonably expect?
    Mr. Tolbert. In fact, it was within hours of the request 
being made. Under ordinary circumstances it would have taken 1 
to 2 days to even have the Presidential Declaration because we 
normally go in to do a preliminary damage assessment to 
validate that the level of damage is beyond that of the local 
and State capabilities.
    Mr. Scott. In a previous hearing you indicated that you 
were apparently aware that millions of people could lose power 
as a result of this. How long did you think it would take to 
restore that power?
    Mr. Tolbert. The National Hurricane Center at least 2 to 3 
days in advance very clearly during our video teleconference 
indicated that this event would result in millions of people 
being without power. Based on my experience, I assumed at that 
point that we were looking at 7 to 14 days before there would 
be total power restoration, as was comparable to Hurricane Hugo 
in 1989.
    Mr. Scott. You apparently knew that you were talking 7 to 
14 days and the localities interpreted whatever they heard to 
mean 2 or 3 days. Is there something that can be done about 
that kind of communication so the localities will be aware of 
what they are facing?
    Mr. Tolbert. I guess we can attempt to portray it in some 
number of days. Again, that is based purely on my experience 
and it is purely speculative as to what the aftermath will 
actually look like, and it will vary from community to 
community, State to State depending on the building codes they 
have in place and the infrastructure that they have in place. 
But as a general rule, when we get into Category 2, Category 3 
and above, it is not unusual to have communities without power 
7 to 14 days and beyond.
    Mr. Scott. And that is within the range of what actually 
happened.
    Mr. Tolbert. Correct.
    Mr. Scott. Now we have this secret code. Apparently you 
cannot act unless it is in writing. Does FEMA have the 
administrative authority to waive the written RFA requirement?
    Mr. Tolbert. I am going to research that. That requirement 
is predominantly dictated by the financial management people, 
because the State is incurring a cost share. When we provide 
direct Federal assistance responding to a specific request for 
Federal assistance there is at least a--well, there is a 25 
percent cost share that is involved in that deployment. So it 
is predominantly a financial management requirement and has 
been the subject of past inspector general reports on FEMA.
    Mr. Scott. Well, I say that in the context that most of the 
localities on these conference calls were articulating a list 
of requests for assistance on Friday, they would read the list, 
State and Federal officials who were on the conference calls in 
the localities thought someone was writing it down and acting 
on it and we find out now that because the paperwork had not 
gotten in until Monday that essentially these requests on 
Friday were not being acted on. Is that accurate?
    Mr. Tolbert. I do not think that I would portray it as the 
paperwork being a necessary burden. It is a one-page form that 
is necessary regardless of the financial----
    Mr. Scott. Well that is above the pay grade of the people 
in the localities that thought their request was being acted on 
and it was not, these requests were not being acted on.
    Mr. Tolbert. I would suggest, sir, that the requests were 
being acted upon. Our role, and typically the State role is 
more strategic in nature to order bulk supplies, getting those 
into a staging area so that they can be deployed forward.
    Mr. Scott. One of the frustrations that people experienced 
was the fact that they did not know exactly what to expect and 
when to expect it in terms of ice, water, food, shelter, 
generators, personnel. They did not know exactly what to expect 
and when to expect it. Some have indicated that if they had 
known in advance they were not going to get any help they could 
have on their own done almost as well, if not better. Do you 
want to respond to that?
    Mr. Tolbert. I do. In fact, the Stafford Act 
authorization--let me say that FEMA responds to between 60 and 
80 Presidentially declared disasters per year. Of those 80, we 
would average probably less than 1 per year that results in 
significant direct Federal assistance. The vast majority of the 
assistance we provide is in the form of financial assistance. 
So I would say to those officials who, after the facts say, 
``if I had known I was not going to get it I would have done it 
myself,'' by design the Stafford Act specifically encourages 
that, to have in place your contracts to procure those supplies 
and services that are required and they are reimbursed.
    Mr. Scott. And this is the point. They did not know that, 
so they made requests and a lot of time had been wasted.
    Let me ask a couple of kind of specific questions. Gas 
stations did not have generators and you could not buy 
batteries at the local stores. Is that something FEMA could do 
anything about?
    Mr. Tolbert. We would generally not--well frankly, not to 
sound cynical, but if we get into batteries then we have the 
next generation of commodity that we have to deal with. Our 
doctrine is to--and our preparedness literature indicates that 
people need to take that upon themselves to be prepared for 
that survival in the early hours and early days. I would 
suggest however that for local priorities and local planning, 
that restoring power to a petroleum distribution facility 
should be a priority and may be something that a local 
government would want to collaboratively work with the business 
community to ensure that at least some service station is able 
to become operable again. That is the type of contingency 
planning that should occur locally to ensure that the community 
is better able to survive.
    Mr. Scott. Thank you.
    Mr. Chairman, I am advised that the city of Newport News, 
in giving conditional use permits to gasoline stations in the 
future, will be requiring that they have a power backup system 
as a condition for the use permit, so that if the same thing 
happens again, at least the new service stations will be able 
to provide gasoline.
    Chairman Tom Davis. Some stations will have it, right. 
Before recognizing Mr. Schrock, whatever the localities or 
State or feds knew, somebody needed to say, ``you need that 
slip of paper,'' before you could act legally. I am not sure if 
that was understood or not, is that not your point? North 
Carolina got it in but they deal with this every year.
    Mr. Scott. Well it just seems, one, whether you could have 
waived the requirement. But it seems to me that people are 
making the requests and on the local level thought those 
requests were being acted on and the paperwork--somewhere they 
thought someone was writing it down and acting on it--the 
paperwork was not being completed and in fact nothing was being 
done. Many of which, as Mr. Tolbert has indicated, on their own 
could have gotten the services in the same time or quicker than 
waiting for the paperwork to be completed.
    Chairman Tom Davis. This is the kind of implementation 
sometimes that falls through. Everybody is talking to each 
other and dots do not get----
    Mr. Forbes. Mr. Chairman.
    Chairman Tom Davis. Yes.
    Mr. Forbes. One of the things that we just have to do, we 
can sweep all this under the rug, we can blame it on the number 
of claims, but we need to make certain in the next emergency 
that we have that if, for some unbeknown reason the State did 
not know that they had to file a written form to get it--and I 
would just suggest that somebody in the State knew that--that 
next time we need to know that because it is important. You say 
that it is a one-page form. You also indicated to me earlier 
when I asked you that it is something that you talk about in 
your briefing and the training sessions that you give to State 
people, is that true or not?
    Mr. Tolbert. Correct, yes.
    Mr. Forbes. You know, it is not like, as Mr. Scott 
indicated, some secret code. It is something that you train 
people on. You know, most States apparently know about it. I do 
not think Virginia said they did not know about it, they just 
did not file the form, is that--I mean is that accurate?
    Mr. Tolbert. I do not think that I could portray it as 
simply a matter of filing a form. I think it is more a matter 
of what is the operational priority for that day. I would 
suggest that in the D-plus one, D-plus two, D-plus three 
sequence, that their priorities were opening roads, were 
restoring power to critical facilities, and providing bottled 
water. You know, ice is--I will have to say that I would have 
supported the State's position had they said we are not doing 
ice--I do not think that--ice is not a life-saving commodity. 
It is not really even a life-sustaining commodity except for a 
very small segment of the population who has a requirement for 
refrigeration for medications and----
    Mr. Forbes. And I do not disagree with you. But what 
Congressman Scott asked and what Congressman Davis said was I 
think very appropriate. You have these localities on conference 
calls, FEMA people are on there and State people are on there. 
On Friday after the storm they thought resources were coming to 
them. Those resources could not come to them until that form 
was filed. Somebody should have told them, ``no, we have 
another priority here on Friday. We cannot get those resources 
to you. The same thing on Saturday and the same thing on 
Sunday.'' I think that is what we are all saying, if the 
resources are not going to move until the form is filed or 
until the request is made, if you have other priorities and you 
cannot get to it, that is OK. But just tell the localities we 
cannot get to the form and file it until Monday so they do not 
expect resources coming on Friday, Saturday and Sunday. I think 
that is what most of these localities thought they were 
getting.
    Mr. Tolbert. If I could add too that the provision of 
Federal assets is only one option that the State and the local 
governments have. So when--even when requests and priorities 
are coming up from the local governments to the State there are 
actually other options for procuring those resources than the 
Federal Government, including the provision of the emergency 
management assistance compact calling other States to bring in 
those assets. So again, we are really only one option in the 
menu for the provision of those types of commodities and 
special equipment, and in fact, that compact was used pretty 
extensively in this disaster.
    Chairman Tom Davis. Thank you.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman. Before I address what 
Mr. Tolbert said, let me say the discussion was on batteries 
and gas stations. I am not sure I want FEMA involved in 
batteries and gas stations. I think as a citizen I should be 
smart enough with the TV or radio to know a storm is coming to 
go buy batteries, and I did to a fault. If you want to buy 
them, I have a lot of them left over.
    Chairman Tom Davis. So that is where they went.
    Mr. Schrock. That is where they went. I cleaned out the 
Navy Exchange, I can tell you.
    Chairman Tom Davis. In your retirement you can sell them.
    Mr. Schrock. Yeah, that is right, in my retirement I will 
sell them. Gas stations the same way. But I think it is a good 
idea now, when they are putting in new gas stations they can do 
that.
    You made a comment in your testimony--no face-to-face 
cooperation. Help me understand what you meant by that.
    Mr. Tolbert. I do not think I said no face-to-face 
cooperation.
    Mr. Schrock. Coordination. If I said cooperation I am 
sorry.
    Mr. Tolbert. Coordination. What I was referring to was a 
significant limitation that presented itself by the--No. 1, the 
size of the emergency operating center where the State is 
located. When our emergency response team, when it is fully 
filled out, is about 200 personnel. So it is not possible for 
us to provide the full interface. They accomodated us extremely 
well; we had a gymnasium in a contiguous building. The 
difficulty was, the action is in the State emergency operating 
center. That is where the requests are coming in. Simply the 
size and the magnitude of resource requests that were coming in 
did not accomodate the Federal people sitting there face-to-
face with their counterparts. We did maintain liaisons there; 
there was good communication, there was good coordination; I 
was there on Sunday and observed it. But when we can't be right 
there with them at the table handling those individual cases it 
does hamper operations.
    Mr. Schrock. All right. Written authorization, now that 
seems to be one of the keys right now. I guess there was no way 
to get that in place before the storm actually hit, so the 
minute it hit and the President declared this thing, you pushed 
a button and the authorization was already there. Obviously 
that cannot work?
    Mr. Tolbert. The authority for us to employ resources?
    Mr. Schrock. Yeah. We are talking about the State not 
responding to you for 96 hours after the storm left here. If 
the State had already had something in place that was signed by 
the Governor, and the minute the President declared this thing, 
that would automatically be activated. Could that happen? I do 
not know.
    Mr. Tolbert. It could. It absolutely could.
    Mr. Schrock. Why do we not do that?
    Mr. Tolbert. Some States do that. Some States do actually 
prescript. In fact, some of our officials provide prescripted. 
It is not--the burden is not in filling out the form. The 
burden is in determining--in factoring and adding up all of the 
volume, collating all of that and figuring out what the actual 
requirement is. From there it is as simple as filling out, ``I 
need a million pounds of ice.'' From there it becomes an 
acquisition process and then the sure logistics of getting it 
there.
    Mr. Schrock. So other States do preposition those 
authorizations so that when the balloon goes up it is 
automatically in place and you do not have this time lag as we 
had in Virginia?
    Mr. Tolbert. I can only speak from my experience in North 
Carolina and I can tell you that we did have prescripted--where 
we knew that we had commodity shortfalls and specific types of 
specialty teams that we would require, we did have those 
prescripted.
    Mr. Schrock. OK. Understand that the assistance cannot be 
provided until the State gives its authorization. But is there 
a list somewhere that you can provide of where things are 
prepositioned to the State agencies so that when the balloon 
goes up and they do get authorization they can automatically go 
to them and pull from them?
    Mr. Tolbert. We can, and I hope that we did provide a 
listing of the assets that were there. I do not have specific 
knowledge, but I would hope that we provided that information.
    Mr. Schrock. OK.
    Mr. Tolbert. Again, that is a last contingency package that 
we brought in. It is really a last resort just in case our help 
is needed.
    Mr. Schrock. One point of contact for FEMA, that seems to 
be a concern--that people did not know who to go to. Now I know 
that was a problem Statewide. When I visited in Norfolk, it was 
interesting: I walked in, and I said, ``who is in charge 
here?'' That person came to me and he told me exactly what 
everybody else was doing. To me, that seems like the right way 
to do it. It was working so smoothly there I could not believe 
it, but obviously that was not the case across the State. So 
obviously, you had a plan in place for that to happen. It 
obviously just did not happen in all localities.
    Mr. Tolbert. I presume you are referring to a disaster 
recovery center?
    Mr. Schrock. Yes, in Oceanview.
    Mr. Tolbert. You should have seen that type of organization 
at every disaster recovery center. Again, that is a joint 
Federal, State and in some cases local participation in those 
disaster recovery centers.
    Mr. Schrock. Did you mention something about consistent 
plans, consistent operations? I would think that would be 
automatic for State, local and Federal to have in their 
operations plans, but I am gathering, because you said it that 
way that is not the case, that you may be operating off of a 
different sheet of music than Secretary Marshall or Steve 
Herbert in Suffolk. Is that the case or do you all operate off 
of the same grid?
    Mr. Tolbert. Each level of government has its own response 
plans. Our doctrine is the Federal response plan, which brings 
the full Federal agency participation together and establishes 
the mission assignment process and the reimbursement process 
for Federal agency participation. I did note in reviewing the 
Virginia Emergency Management's Web site, as well as their 
doctrine, that their plan is consistent with the Federal 
response plan and that they dictate that local plans as well 
will be consistent with the Federal response plan establishing 
an organization that can match up. It is not perfect, there are 
variations from community to community. What I specifically 
think we need to improve though, is what we call incident 
action planning, which is looking at a specific period of time 
and what do we in common--vertically--among the levels of 
government down to the community level; what are our 
priorities? And then we are all focused on the same priorities 
and we do not have disparate levels of response occurring from 
community to community. That is an area for improvement.
    Mr. Schrock. It should not be what is in common, it should 
be everything should be in common, right?
    Mr. Tolbert. I agree, sir, because I have observed military 
operations. I have never been in the military, but I have 
learned a lot from my military counterparts. The difference 
between a military operation and a disaster operation is that, 
in the military you all report to the same boss and it is very 
clear what your priorities and your orders are. In 
intergovernmental disaster response there are priorities and 
different objectives that can exist from community to 
community, county to county, State to State, and therefore it 
makes it very difficult to provide that support because there 
is often not consistency depending on the level of impact and 
what their priorities are that day.
    Mr. Schrock. Yes, but in a military unit like an aircraft 
carrier, the troops report to the division officer, who reports 
to the department head, who reports to the XO, who reports to 
the commanding officer. It is the same type of thing and I 
certainly think that could work.
    I am going to ask two quick questions. We have probably 
gone over this before in the previous hearing, but I want to 
hear you say it again. What do you feel were your biggest 
obstacles in preparing for this hurricane or mistakes that you 
think might have been made and should not be made again?
    Mr. Tolbert. We and the Corps of Engineers were 
disappointed in our ice contractor. They did have difficulties 
with securing a sufficient number--as the mission unfolded 
securing a sufficient number of refrigerated trucks to handle 
the mission.
    Mr. Schrock. You assumed when you contracted with them they 
would have that. Was that in the contract?
    Mr. Tolbert. There was an assumption that they would be 
able to deliver. Part of that was exacerbated by the time lag 
because there was no indicator that there was a dramatically 
increasing requirement and therefore, we did not continue 
ramping up in anticipation of that requirement. We maintained 
it and on Saturday we did order additional. Refrigerated trucks 
are the reason I am not really fond of an ice mission. We will 
do our best at it, but it is a huge logistics nightmare 
because, not only do you strategically have to bring it in 
under refrigeration, but you then have to distribute it down 
locally. And when you have at least a 1-day turnaround time to 
go back and get more and bring it in and you have tied the 
truck up all day in the distribution process, you have 
automatically doubled--at least doubled--the number of 
refrigerated trailers that are required.
    Mr. Schrock. You just answered my question. I was going to 
say, ``why could they not leave the truck that delivered it 
just onsite until the stuff was delivered and go back and get 
more?'' But you are saying that would slow down the process of 
bringing in more.
    Mr. Tolbert. And I am sure some of that occurred. But when 
you already have a deficit of available refrigerated trucks and 
now you are doubling the requirement in order to leave it in 
place, then it further damages our ability to strategically 
bring the resources in.
    Mr. Schrock. OK, one final question. I want to hear this 
answer again. How are localities notified of FEMA's capacity 
and the resources to assist in a disaster situation?
    Mr. Tolbert. Most States would not distinguish Federal 
capabilities from State level capabilities because----
    Mr. Schrock. Say that again.
    Mr. Tolbert. Most--we do not communicate directly with 
local governments during the response phase. And I would say 
that based on my experience, most States would not distinguish 
between a Federal or a State asset or an asset that is brought 
in from another State. From a local government perspective 
their interest is in getting the asset, getting the mission 
capability that they require, and they really probably do not 
care where it is coming from as long as it gets there. So 
typically that will not be communicated as to the capabilities 
that we brought to the table.
    Mr. Schrock. Would you recommend that I ask the local 
people when they come up here if they would rather deal with 
you directly or go through the State? Should I ask them that?
    Mr. Tolbert. It would serve no purpose because the Stafford 
Act prescribes what our process is.
    Mr. Schrock. Well laws were made and laws can be changed 
and altered if it's going to help positively what the 
localities have to do in a disaster.
    Mr. Tolbert. Sir, I think the difficulty in that is that 
when you preempt the Governors' authorities and you preempt the 
States' capabilities, you oftentimes will give up a capability. 
You would bypass and give up a better available resource. I 
think the mechanism in place is appropriate and should be 
sustained.
    Mr. Schrock. Good point.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Let me just ask one question. Mr. Scott and I were talking. 
If you had it to do over again, can you give us a couple of 
things you would have done differently? Would we expect the 
same thing out of you in retrospect or do you want to get back 
to us on that?
    Mr. Tolbert. I would say one thing that I am considering is 
more deliberate discussion with the State looking at the 
prospect of actually predeploying personnel down at least 
regionally. I think that we have to train our people better, to 
have more deliberate discussions about the aftermath and the 
logistics management. I would point out that I did have the 
opportunity to observe both the North Carolina and Virginia 
operations and there were significant differences between the 
method of operation. Again, experience is our best teacher. In 
North Carolina a lot of the supplies that we have been talking 
about are stored year-round in a State-owned facility; they are 
stored exclusively for that purpose. The State has some of its 
own transportation assets, and that is only after a series of 
disasters where they learned and the State made the commitment 
and the legislature there made a commitment toward funding that 
type of capability so that they have some immediate resources 
to apply. In the case of North Carolina too they established a 
warehouse operation in Rocky Mount. So in that case, our 
operation consisted of delivering our commodities to a single 
location and from there handing them off to the State and they 
had the capacity to do the further delivering.
    Chairman Tom Davis. Well we will try to get back and in 
retrospect as we look at this, I do not want you or the State 
or the locals to feel intimidated, that if you say you do 
something differently, that somehow you did anything wrong. You 
know, this was a huge disaster and as you said, experience is 
the best teacher, and obviously you do things differently. I do 
things differently almost every day of my life when I look back 
at the end of the day and get a chance to reexamine; there is 
nothing wrong with that. But the purpose of this is to find out 
what the lessons learned are and make sure that the next time 
we are a little smarter and a little sharper.
    Mr. Forbes. Mr. Chairman also, a number of the localities 
have submitted questions that we would just love to get answers 
to and we have submitted those to you a week or so ago. So at 
some point in time if you would get those answers back to us so 
we can get them on the record and get them back to the 
localities we would appreciate that.
    Mr. Tolbert. We are fully committed to accomplishing that.
    Chairman Tom Davis. Mr. Tolbert, thanks again for being 
with us. We appreciate it.
    Now we will move to our second panel. We have the Honorable 
John Marshall, the Secretary of Public Safety for the 
Commonwealth of Virginia. Mr. Marshall is a long-time resident 
of Mason District in Fairfax County, which is my home 
magisterial district. He lives right across the lake from me. I 
just thank you again for your commitment to public service and 
for being here today. I have to swear you in again.
    [Witness sworn.]
    Chairman Tom Davis. Thank you again for being with us. I 
think you know the rules. We have your whole statement here. I 
have to leave and just make a quick call and will be back. We 
will go as soon as you are through to Mr. Scott for questions, 
then to Mr. Forbes and then back to me. So go ahead, and thanks 
for being with us.

    STATEMENT OF JOHN MARSHALL, SECRETARY OF PUBLIC SAFETY, 
                    COMMONWEALTH OF VIRGINIA

    Mr. Marshall. Thank you, Mr. Chairman.
    I am John Marshall, Secretary of Public Safety. I serve in 
Governor Warner's cabinet and I oversee 11 State public safety 
agencies, including the State police, National Guard and 
Department of Emergency Management.
    I mentioned in earlier testimony today that this was my 
first disaster of this magnitude since being in this position, 
but I do want to add that I also have experience on the ground 
dealing with a hurricane back in 1995 when Hurricane Marilyn 
struck the U.S. Virgin Islands. I was stationed there for 2 
weeks in charge of the Marshal Service deployment of personnel.
    Mr. Shrock. Tough duty.
    Mr. Marshall. Well it is when you cannot go in the ocean. 
[Laughter.]
    So I have some experience both on the ground and in an 
administrative capacity as I have now.
    I would like to just once again cover some of the actions 
that were taken prior to the hurricane. The chart indicates 
that the state of emergency was declared by the Governor on 
Tuesday the 16th. Actually it was declared on the evening of 
Monday, September 15th. That was the same day that the Governor 
held the conference calls with the local elected officials. On 
Wednesday, September 17th, 30 hours prior to the arrival of the 
storm, the Governor authorized mandatory evacuations of coastal 
and low-lying regions and this quite possibly saved hundreds of 
lives. In addition, on that same day 150 members of FEMA's 
emergency response element arrived in Richmond and were 
operational the next day. And as mentioned earlier, the 
Governor submitted an expedited request for a Presidential 
emergency declaration, which the President acted on within 
hours on September 18th.
    Earlier, I went over a lot of the positive actions taken by 
our State employees, our local employees, our citizens, and our 
volunteer groups. I certainly will not go through that again 
because I think the committee has already mentioned some of 
those. I think it goes without saying that we owe a debt of 
gratitude to everybody involved in this operation, whether at 
the Federal level, the local level, the State level, and most 
importantly our citizens and our volunteer organizations.
    As can be expected in an operation of this magnitude, we 
are going to have some lessons learned. I mentioned earlier 
today that Governor Warner will be announcing shortly a panel 
to do that, and I have been authorized by the Governor to make 
the announcement now that he has formed the Hurricane Isabel 
Assessment Team, which will conduct an independent review of 
government performance in response to the storm. This panel 
will be chaired by Mr. Bob Herbert, retired city manager of 
Roanoke. Also on this panel will be Bill Roland, retired deputy 
director of the Virginia Department of Planning and Budget, and 
Clare Collins, the Bath County administrator. This is a group 
of outside experts who will be conducting this independent 
review. The Governor expects this review to result in 
recommendations that will allow us to build on those things 
that went well, as well as acknowledging and finding solutions 
for things that did not go well, and to continue to improve the 
State and local government preparation for and response to 
emergencies.
    Having said that, Mr. Chairman, at this point I would be 
more than happy to answer questions.
    Chairman Tom Davis. Thank you very much.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Marshall, thank you for your testimony. Let me first 
ask you about what you expected in terms of damage. We heard 
the FEMA representative say that he fully expected power to be 
knocked out for between 7 and 14 days, which is pretty much 
what happened. Our local panel at a previous hearing said that 
they expected power to be knocked out 2 or 3 days. Obviously 
there are a lot of problems that will occur in the 7 to 14-day 
period that you do not worry about if it is just a day, two or 
three. Based on what you had heard, how long did you expect the 
power to be knocked out?
    Mr. Marshall. Congressman Scott, to the best of my 
recollection during the meetings I was involved with prior to 
the arrival of the hurricane the term that I heard was, ``this 
will be a multi-day event with regard to power outages.''
    Mr. Scott. What does multi-day mean to you?
    Mr. Marshall. In my mind that means less than a week, but I 
am sure that is up to interpretation for everyone.
    Mr. Scott. Two or 3 days, maybe 4?
    Mr. Marshall. That would be my feeling, yes, sir.
    Mr. Scott. OK. On Friday, Saturday and Sunday before all 
the paperwork had been completed, were State officials aware 
that local officials thought that their requests were being 
acted on Friday, Saturday and Sunday for water, ice, 
generators, and everything else? Were you aware the localities 
thought their requests were being acted on?
    Mr. Marshall. They certainly made those requests and they 
certainly were being acted on, yes, sir, Congressman.
    Mr. Scott. It is my understanding that the paperwork was 
not completed until Monday, so a lot of things could not be 
acted on by FEMA until such time as that paperwork was 
completed?
    Mr. Marshall. Well, if I could on that note, Congressman--
and before I go into this, I would like to say that this is a 
prime example that we really do need to have a reasonable 
amount of time to do an after-action and to gather our data and 
to gather our information--in the time since the last hearing 
we have tried to do that, keeping in mind right now, our EOC 
people are focused on dealing with the needs of the citizens. 
The information I had earlier was the best information I had 
available to me; however, we do have written documentation of 
requests by the State on Friday, September 19th for ice and 
water.
    Mr. Scott. OK. Part of the confusion, as I understand it, 
was that the Federal Government had ice but they needed the 
State to set up some kind of distribution network. Could you 
explain what that was all about, because it sounded like the 
ice was useless until the State set up certain structures and 
procedures. I guess my question is, did you you know that 
beforehand or did you just learn it over the weekend?
    Mr. Marshall. No, we were well aware of the process for 
making these type of requests. But the situation was that the 
volume of requests that we received on Friday was more than 
FEMA had trucks to be able to respond to, each one directly to 
the locality. So that is why we worked with them and put 
together a plan to distribute that water to eight staging 
areas.
    Mr. Scott. But without that additional distribution 
capability you could not make the request?
    Mr. Marshall. An important part of the information that we 
were passing back and forth was that they could not respond 
directly to those requests, yes, sir.
    Mr. Scott. Now if that was an unanticipated volume of 
requests, and, you know those things just happen, we will be 
better prepared next time for the volume of requests; we will 
look into that. It just seems to me that with ice sitting up 
there at A.P. Hill and everybody is pointing fingers and ice 
melting, that was not a situation we want to have reoccur.
    You indicated the Governor is going to have a review panel. 
Will they review the infrastructure capabilities? We have 45 
water systems still boiling water even as we speak. Will the 
review of infrastructure be one of the things they look at?
    Mr. Marshall. Yes. The Governor has mentioned during 
several conferences that is a key vulnerability, our 
interdependency on our infrastructure; in particular the water 
pumping stations and their dependence on the primary electrical 
system.
    Mr. Scott. And a review of the various bridges and tunnels 
so we will not have that situation again?
    Mr. Marshall. Yes, sir, Congressman.
    Mr. Scott. Communications between local, State--well local 
to local, local to State, local to Federal communication 
networks, will that be part of the discussion?
    Mr. Marshall. Yes, sir. Communication is the key to any 
operation, particularly one of this size, and we certainly need 
to look at ways to improve that, yes, sir.
    Mr. Scott. Training so that localities will know what to 
expect and what not to expect?
    Mr. Marshall. Yes, sir, Congressman.
    Mr. Scott. And then how food, ice, water, generators, and 
personnel, how a locality can get those without a lot of red 
tape, will that be part of the system--part of the review?
    Mr. Marshall. We will certainly be reaching out to 
localities on that for their feedback on that process, yes, 
sir.
    Mr. Scott. Thank you. I yield to my colleague.
    Mr. Forbes. Thank you, Congressman Scott.
    Mr. Secretary, we thank you for being here and we are going 
to try again to get some of these answers.
    One of the things I think you can see that is so 
frustrating to our localities is they are kind of like us, you 
know, they never know what answer we are going to get when we 
get it, you know. So earlier in the hearing that we had, your 
testimony was that you had made verbal requests on Friday and 
that you thought the verbal requests were being acted on. The 
written requests did not come until Monday. Now it is your 
testimony that in point of fact there was a written request 
that had been made on Friday, is that correct?
    Mr. Marshall. Yes, sir, and I can go through the list with 
you.
    Mr. Forbes. No, what I would like for you to do is just 
provide for the committee the form that you submitted. Was 
that--why did you submit an additional form on Monday different 
than what you submitted on Friday?
    Mr. Marshall. I do not have any of the materials from 
Friday with me, Congressman; however, I do have here three RFAs 
that we submitted to FEMA on Friday, one of them asking to pre-
stage generators at Fort A.P. Hill, one asking to pre-stage 
water supplies for 300,000 people 3 days at Fort A.P. Hill, one 
asking that ice for 300,000 people for 3 days be prepositioned 
at Fort A.P. Hill. At 5:39 a.m., according to our records as of 
now that we are checking, was our first official written 
request to FEMA. That was for 100,000 gallons of drinking water 
for Hopewell; 5,000 8-pound bags of ice we requested for Isle 
of Wight County. At 1 p.m. we requested three generators for 
Southampton County. We requested 100,000 gallons of bottled 
water for the Virginia Distribution Center. This was all on the 
19th.
    Mr. Forbes. Mr. Marshall, let me just ask you this: Would 
you just give us those forms and the ones you sent on Monday so 
that we can review those and go through them, please, for the 
committee?
    Mr. Marshall. Yes, sir, Congressman. And I do apologize 
that I did not have the most accurate information this morning. 
It is just part of the nature of what we are dealing with.
    Mr. Forbes. I understand. Congressman Scott asked you about 
damage and your expectations that it would be a couple of days. 
Did you ever contact Dominion Power to get their assessment of 
what they thought the damage might be from this storm?
    Mr. Marshall. I was actually in a meeting with Dominion 
Power. I believe it was probably on Monday--probably Tuesday or 
Wednesday of the week of the storm.
    Mr. Forbes. And what did they tell you?
    Mr. Marshall. Basically, my best recollection was they said 
it would be, you know, a multi-day event. You know, I do not 
recall specifics on that as far as damage.
    Mr. Forbes. And they did not indicate why they were massing 
so many trucks and people down here and that they thought it 
was going to be as bad or worse than the ice storm of 1998?
    Mr. Marshall. They certainly were anticipating, you know, 
devastating effects.
    Mr. Forbes. Do you remember how long the power was out in 
1998?
    Mr. Marshall. No, sir, I do not, Congressman.
    Mr. Forbes. It was 9 to 10 days. Let me ask you this: you 
heard the testimony from Mr. Tolbert that the State is the one 
that makes the decision about where ice goes, water goes, 
generators go, recovery centers go. Is that your understanding 
as well?
    Mr. Marshall. Yes, sir, Congressman.
    Mr. Forbes. Do you have any kind of objective criteria that 
you use for determining where you are going to send water, 
where you are going to send ice, where you are going to send 
generators?
    Mr. Marshall. As far as water and ice, what we do is pass 
on the request from the localities to FEMA.
    Mr. Forbes. How about recovery centers?
    Mr. Marshall. Following up on your earlier question on 
that, we make those decisions based on several factors, one 
being the number of the tele-registrations that are made with 
FEMA through the FEMA hotline number. We also look at observed 
damage by our Department of Emergency Management Community 
Relations people who are out in the localities. We also do some 
assessments of damage from the air. Also, it is important to 
note that these recovery centers are not to replace 
registration over the telephone. These provide citizens--in 
other words, if we have an area where there is a huge number of 
tele-registrations, we are going to need to get a DRC there 
because most likely people that are going to have a lot of 
questions. The DRCs give the people the opportunity to have 
face-to-face contact with FEMA to be able to have their 
questions answered. We also respond to requests from 
localities. If they request a DRC, we certainly work with them 
to put one in their area.
    Mr. Forbes. Have you ever thought about the fact though, 
that in the worst situations the power lines might be down in 
that particular area, that would be a greater likelihood and 
therefore you may have less tele-communications?
    Mr. Marshall. Sure, that is why we also have the factors of 
what our people are seeing out there who are in the localities, 
our regional people in the Department of Emergency Management 
who are on the scene.
    Mr. Forbes. Let me show you a slide up here. If we can put 
this slide up, and the reason that I put this up here is 
because I think this exemplifies what we see whether we are 
dealing with water, ice or recovery centers that at least pose 
questions to people about what kind of objective standards we 
are looking at; maybe you can explain it to me. This is the 
track of the storm that took place. On day 5 you had 
established one recovery center, which we can certainly 
understand. I am not at all questioning where you put the 
recovery centers, that they should not go in those areas. Let 
me then show you the next series of days. This is day 10. And 
look where you put your recovery centers there. You have one, 
two, three, four, five, six recovery centers over there. Then 
let us show day 12. This is day 12 where you put your recovery 
centers. Now the reason I asked the question is because, if you 
look at the track of this storm, you do not have a single 
recovery center where the storm actually went in terms of its 
actual track. In addition, if you look at the claims along that 
track where there were no recovery centers that were placed 
there--and this is using your statistics on claims that were 
made--there were over 15,000 claims along that line alone with 
no recovery center at all. If you add in Henrico and Richmond 
you have almost 21,000 claims that are placed there. And the 
question, I guess I would ask you--this is just as an analogy--
what objective criteria--if you use claims, then certainly you 
should have recovery centers somewhere along there. If you used 
the track of the storm, if you used anybody going in and 
looking at observable damage, because even when the Governor 
went to Smithfield he said that was some of the worst damage 
that he had seen, and yet not a single recovery center located 
anywhere along there. Can you just tell us what the basis of 
that would be as opposed to--again, I am not saying you do not 
need the recovery centers where you put them, but it makes no 
sense to me not to have had any in 12 days anywhere along that 
corridor. And then the question is, we have one out in Buena 
Vista. If you look at just the ranking of claims in Buena 
Vista, there were 69 other jurisdictions that had more claims 
there than Buena Vista did.
    Mr. Marshall. Congressman, my response to that is that is 
exactly why we need to do this after-action assessment. That 
certainly is a question that we need to answer, yes, sir.
    Mr. Forbes. Well, I just ask you to look at it because when 
you are asking questions about fairness and equity in terms of 
distribution of water, distribution of assets--again, we do not 
question that you should have had that assistance where you put 
it, but it just looks a complete vacuum and absence of 
assistance along the whole quarter where the hurricane actually 
traveled. The next question----
    Chairman Tom Davis. Let me say that I liked the one in 
Alexandria, I just want to say that.
    Mr. Forbes. That is right, you liked that. [Laughter.]
    The next question I would ask you is one that I asked you a 
little bit earlier, and that is, once you have made a decision 
that a locality--a group of people--are to get resources, why 
would you divert those resources to another locality? And the 
reason is because at least the FEMA folks that we talked to 
said that is a terrible strategy to use in an emergency because 
it pits one group of needy people against another group of 
needy people. And, of course, I gave you our data. You had 
resources for ice and water that were coming to Chesapeake and 
they were diverted away. You know, I gave you some time to 
research that one and hopefully you have been able to talk to 
some folks and get an answer for that as well.
    Mr. Marshall. Well, I have, Congressman, although I do not 
have as much information on it as I would like. We will look 
into it further. However, looking through my personal notes and 
from my personal recollection--in particular you had mentioned 
the possibility of either Tuesday or Wednesday we were talking 
about. In my notes on Tuesday, I noted that our total order for 
water and ice was for 70 trucks, but on that day FEMA was only 
able to deliver 37. And so, you know, just trying to put 
together how we did things, obviously then we could not send 
all the trucks as we originally planned, and we have to make 
some decisions about where trucks will be going. So I would say 
originally Chesapeake, it sounds like, was supposed to get a 
certain amount of water and if it was diverted I would say that 
would be the reason, but I cannot say that concretely. I just 
have not had time to research it enough.
    Mr. Forbes. Let me just suggest to you a couple of things. 
One is, I think it is vitally important that whether we are 
dealing with water, generators, whatever else that might take 
place, it is crucial for us to have some sort of objective 
criteria in how we are going to get that to the people that 
need it the most, because otherwise our citizens do not feel it 
is objective. They start feeling like maybe there are some 
other factors that are dictating where it is going, and that is 
the worst thing we can do in an emergency.
    The second thing is that once you have one group of needy 
people, to divert the resources going to them and send them to 
another group of needy people is bad emergency planning, you 
know, at that particular point in time. My big concern about 
this is not because of, again just water and ice, it is because 
next time it could be vaccine or it could be medicine or it 
could be something that is really determining lives.
    The final thing that I would just throw out to you is, it 
looks like a lot of the issues that we are talking about here 
are issues that we could know about before the storm hits. For 
example, I was in Emporia and they were talking about a 
distribution center there. They had talked to the people in 
your office and they had talked to them about using the armory 
and the response they got back was, ``we did not know you had 
an armory here.'' The concern that I have is this: We have the 
best logistical machine in the world in Fort Lee. I mean they 
really know logistics better than any military base, probably 
anybody that I know of, because they train the military in 
doing that. And Iwould just encourage you, perhaps in future 
administrations, to see if we could meet with the folks at Fort 
Lee and say, ``would you take a look at what we are doing 
logistics-wise before we get into these emergency situations,'' 
so that we can stop some of these things from taking place that 
maybe we saw in this last 12 days of the storm.
    Congressman Schrock, do you have any questions?
    Mr. Schrock. No.
    Chairman Tom Davis. Any other questions for the panel?
    Mr. Scott. Yes, Mr. Chairman.
    Chairman Tom Davis. Mr. Scott.
    Mr. Scott. Mr. Marshall, were you communicating with 
Virginia Power to help them establish a priority list of things 
to recover?
    Mr. Marshall. Yes, we had a very good working relationship 
with Virginia Power and early on worked with the priorities of 
our hospitals, our pumping stations and our nursing homes 
around the State, and they worked very well with us. And as I 
mentioned earlier, they actually had people doing assessments 
at one of the pumping stations while the hurricane was still 
coming through. They were in quite a bit of danger but they 
were very dedicated.
    Mr. Scott. On your review panel, if you could consider 
setting up some priorities because I think there were some 
priority situations that were not on the list, one of which we 
called Virginia Power and they responded, and that is dialysis 
centers. People on dialysis need to go get dialysis every day. 
Several in this area were without power for several days and 
when we called they got to the top of the list and were 
restored. That list of some priorities like that really needs 
to be done ahead of time. So if you could put that on the list 
for the review panel to consider, we would appreciate it.
    Mr. Marshall. Dominion Power has been a great partner and I 
am sure they will be more than happy to work with us on that, 
Congressman.
    Mr. Scott. Thank you.
    Chairman Tom Davis. Mr. Marshall, thank you again for being 
with us this morning here and last week in Washington. We 
appreciate it.
    Mr. Marshall. Thank you, Mr. Chairman and thank the 
committee.
    Chairman Tom Davis. We will move to our third panel now and 
hear from some of the local officials involved. We have David 
Jolly, the director of public safety for Dinwiddie County; we 
have Richard Childress the director of emergency management for 
the Isle of Wight County; Steve Herbert, the city manager and 
director of emergency services for the city of Suffolk; and 
Steve Best, the fire chief and director of emergency operations 
for the city of Chesapeake. Mr. Forbes has arranged for you to 
be here with us today and we are really pleased to have you. 
Raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. We will start with you, Mr. Jolly and 
we will move right down. We have a clock up here that after 4 
minutes turns orange or yellow and then you have a minute to 
sum up. Try to keep within 5 minutes and then we will get right 
to questions. Your entire statements are part of the record. 
And again, we appreciate hearing from you.
    You know, we pass all the laws up here, everybody else does 
the coordination, you are the guys on the ground that generally 
have to deliver and if there are complaints, you hear it the 
most. You are probably more in touch with what really happened 
than any of us, so we appreciate the job you did and the people 
under you did and just really appreciate you being here today.
    Randy, did you want to say something?
    Mr. Forbes. I would just echo what the chairman said and 
really, we just cannot salute you enough, not just for being 
here but for what you guys did for all of our citizens during 
these emergencies, and we really appreciate your input and how 
we can make this system better.
    Chairman Tom Davis. We just want to give you the tools and 
learn from this. Go ahead.

STATEMENTS OF DAVID JOLLY, DIRECTOR OF PUBLIC SAFETY, DINWIDDIE 
 COUNTY; RICHARD CHILDRESS, DIRECTOR OF EMERGENCY MANAGEMENT, 
 ISLE OF WIGHT COUNTY; STEVE HERBERT, CITY MANAGER/DIRECTOR OF 
   EMERGENCY SERVICES, CITY OF SUFFOLK; AND STEVE BEST, FIRE 
  CHIEF/DIRECTOR OF EMERGENCY OPERATIONS, CITY OF CHESAPEAKE 
                    STATEMENT OF DAVID JOLLY

    Mr. Jolly. Chairman, members of the committee, we 
appreciate the invitation to be here today. My name is David 
Jolly; I represent the county of Dinwiddie. I have been there a 
little over 5 years, but have been in emergency management for 
over 20. It gives me great appreciation to be able to come 
today and hopefully give some constructive suggestions from 
somebody, as you put it, who is on the front lines and has 
lived through the recent disaster.
    Like so many localities affected by the storm, we 
experienced significant destruction to the tune of more than $9 
million, at present estimates. That includes agricultural, 
logging as well as personal property damage and business and 
community loss; moreover, the loss of our citizens not having 
those services and those commodities for a pretty good amount 
of time.
    Not unlike other jurisdictions, we are extremely proud of 
our dedicated local human resources during this disaster and we 
found that, quite honestly, that is what has us through, both 
our volunteer agencies as well as our employees and the 
citizens' and community groups. Throughout the aftermath of the 
event we served our best and we have continued to do that today 
and for that we are proud and thankful for their services.
    However, we have learned two things. One, disasters will 
not quit coming, so we may as well learn from this one and move 
on to improve, as well as working together, all of us, from the 
Federal, the State as well as the local level. It will 
certainly make the environment in the community--and our 
citizens--a safer place to live and work.
    Today, I would like to discuss a couple of concerns that we 
have regarding both pre-event planning as well as post-event 
operations. One of those concerns was the length of time it 
took to get the official declaration as a disaster for the 
county of Dinwiddie. On numerous occasions we were told 
verbally that we had been placed on the disaster list. However, 
when the citizens started to call the FEMA hotline, they were 
told we had not been declared and therefore would not take 
their information, which did nothing but frustrate the citizens 
and overload our emergency operations center. That conversation 
or communication link is vital during emergency measures.
    I would like to make it clear we applied and submitted 
forms on our initial damage on the 19th, which is the day after 
the storm; however, we did not receive our official disaster 
declaration until the 23rd. We would like to have that process 
explained, so that we can better explain it to our citizens as 
to how the process is going to work and what the timeline is 
going to be.
    Keep in mind the emergency operations center as well as the 
Office of the Governor continued to report to us that we had 
been declared. Unfortunately, that was not getting through to 
the FEMA folks and somewhere it was lost, either in somebody's 
or some agency's actions.
    It is my personal and professional opinion as a public 
safety administrator that one of the critical and vital aspects 
of any emergency operation, as I said earlier, is 
communications. And without some kind of sound planning and the 
dissemination of that information in a strategic and well-
orchestrated manner, problems are not just a potential but 
rather a surety. While on the subject of communications, we 
experienced problems with several FEMA staff people. We have on 
four separate occasions since the initial response phase had 
FEMA representatives show up without any notice or very little 
notice, which makes it very hard at the local level for us to 
in turn get the right players in the room to make the meeting a 
productive meeting.
    As I indicated earlier, we have estimated our damage at 
over $9 million; therefore, it is easy to visualize the amount 
of woody debris that would be an issue and a concern for our 
county. However, I cannot begin to explain the frustration that 
we have been through as it results in that issue. We contacted 
the emergency operations center on the 19th and we started to 
work through the process. And it took several days and several 
meetings through both local and State meetings of VDOT to be 
told we were not going to be able to use their right-of-way, so 
we advised the citizens of that and then FEMA came in and said, 
``we will hire a contractor and in turn we will pay 75 
percent.'' It does not make a lot of sense to us from an 
economic standpoint for us to hire a contractor to clean the 
same right-of-way up that VDOT hired a contractor to clean up. 
However, we also had water show up that we did not request and 
we have talked to over seven people from FEMA's organization to 
date and given them concerns that they have yet to come back 
with answers.
    I guess in closing, you know, any event is a frustrating 
event. However, I think going through the process and learning 
how we all can be a better team is what we are all here for 
today. Red Cross has been one of those players in this that has 
not been seen until after the event was over with. We have 
asked for a lot of resources, we have yet to get responses to 
those or either they cannot be provided. All we are asking is, 
when we ask a question, give us a realistic explanation or a 
date that it is going to be there and we can work locally to 
help you and assist you and coordinate those local efforts to 
support State and Federal efforts.
    With that being said, I will be glad to answer any 
questions the committee might have. You have a written prepared 
statement that I did prepare and present to you.
    Chairman Tom Davis. Thank you very much. Mr. Childress.
    [The prepared statement of Mr. Jolly follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.041
    
    [GRAPHIC] [TIFF OMITTED] T1421.042
    
    [GRAPHIC] [TIFF OMITTED] T1421.043
    
    [GRAPHIC] [TIFF OMITTED] T1421.044
    
    [GRAPHIC] [TIFF OMITTED] T1421.045
    
    Mr. Childress. Thank you, sir. I would like to thank the 
committee for affording Isle of Wight County this opportunity 
today.
    The days leading up to Hurricane Isabel, and most certainly 
the days after, have been very stressful. As with any incident, 
communication has been one of the most prominent concerns that 
we have addressed. While the new electronic reporting format 
utilized by the State is very convenient, it does not appear to 
convey the necessary information. When requests are forwarded 
to their respective branches, contact information and delivery 
information are very often not relayed along with those 
requests.
    Another facet of the communication problem dealt with the 
heavy reliance on e-mail communication. The courthouse complex 
as well as the emergency operations center, along with every 
citizen in the county, lost power and e-mail service the day of 
the hurricane and did not regain that service until September 
26. During that time, the automatic receipt notifications for 
situation reports and requests were not received by the county. 
The county also did not receive vital communications from the 
emergency operations center regarding the filing of public 
assistance forms or preliminary damage assessments.
    Prior to the hurricane, the localities were advised that 
FEMA was staged and ready. No explanation of this message was 
offered or given. The assumption given to such a statement 
would be that FEMA assets, personnel and equipment would be in 
place. But the question that comes to mind is, ``where are 
these assets positioned and what are these assets.'' The county 
feels that staging of FEMA assets is very important but needs 
to be defined so we can better plan the securing of relief 
supplies and other essential items.
    The distribution of literature containing contact numbers, 
the ``Sequence of Delivery'' sheet and a sequence of recovery 
activities as recommended by FEMA for citizens and localities 
should be delivered to localities, preferably immediately 
preceding the incident, to allow us to have better information 
for our citizens as well. While the timely relaying of recovery 
information to the public is vitally important, the same 
consideration should also be given to businesses. Many small 
businesses did not know where to turn until the recovery 
efforts were well underway and if these items were published 
then small business could in fact call the toll free FEMA 
number to file claims and seek information.
    The county found the distribution of supplies to be 
chaotic. When the county requested generators, a representative 
quickly responded by giving contact information for suppliers. 
What the county expected was to be advised when we would be 
receiving generators. Instead, the county was advised on how to 
procure certain items. Prior to the event, the county requested 
additional cots, blankets and pillows for the shelters as the 
American Red Cross in our area advised us that there were no 
more to be had in this region. The Virginia Emergency 
Operations Center representative responded to the request by 
passing it back to the American Red Cross, where we had already 
received information that there were none.
    Water and ice procurement was one of the most frustrating 
aspects of the recovery effort. We were promised deliveries of 
requested water and ice twice that weekend immediately after 
Isabel; both times the deliveries did not arrive. On Monday 
September 22, the county received its first shipment of water 
but the ice was not delivered. The county then contracted with 
a New Jersey firm to have a truckload of ice shipped directly 
to the county both on September 22nd and 23rd to assure that we 
did receive ice to provide to our citizens. Our last order of 
water was placed on Tuesday, September 30. That evening the 
order was confirmed and then Wednesday morning a representative 
at the Sandston distribution site called to confirm the order 
and to obtain delivery information which had been provided in 
the request. Later that morning, Sandston called back to advise 
that the shipment was leaving, to expect delivery around lunch 
time. To this date, no one can advise me what happened to that 
shipment, as it still has not arrived in the county.
    The county requested mobile DRCs to be utilized for the 
citizens that are not able to get to a more populated center as 
they may be in a remote area and/or may be quite elderly and 
without transportation. The county even went so far as to set 
up a weekly schedule to include locations throughout the county 
that would best serve the needs of all citizens as well as 
accommodating the need for a central location to serve greater 
numbers of individuals. Instead, FEMA elected to set up the DRC 
to serve Isle of Wight County in a fixed location that met 
their extremely vast spatial and technical requirements. This 
facility, while situated in the population center of the 
county, is not centrally located as defined by land mass and as 
a result, more rural areas will most likely not benefit from 
the establishment of this center. To help FEMA relate to local 
emergency managers what can best be expected from them and what 
will be expected from the localities, and to help FEMA 
understand the demographics of the regions they assist, the 
county recommends that FEMA representatives attend regional 
emergency management committees on a regular basis.
    On behalf of many citizens in Isle of Wight County, the 
county needs surge data provided to us for mitigation purposes 
as well. In the days prior to Hurricane Isabel, many residents 
were calling the county offices to get this data to better 
determine if they should evacuate and we were only able to 
issue a blanket policy of if you are in a low lying area or if 
you have previously experienced flooding, then yeah, you should 
probably get out. And I think that certainly we can serve our 
citizens better than this.
    I will be happy to take any questions the committee may 
have. Thank you.
    Chairman Tom Davis. Thank you very much. Mr. Herbert.
    [The prepared statement of Mr. Childress follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.046
    
    [GRAPHIC] [TIFF OMITTED] T1421.047
    
    [GRAPHIC] [TIFF OMITTED] T1421.048
    
    [GRAPHIC] [TIFF OMITTED] T1421.049
    
    [GRAPHIC] [TIFF OMITTED] T1421.050
    
    Mr. Herbert. Good afternoon, Chairman Davis, Congressman 
Forbes, Congressman Scott, and Congressman Schrock.
    On Monday, September 15, the city of Suffolk began 
preparation for the approach of Hurricane Isabel. At that time, 
the city's emergency management team began preparations to open 
the Suffolk Emergency Operations Center on Wednesday morning, 
September 17. At 11 a.m., Tuesday, September 16, a hurricane 
watch was issued for the Hampton Roads region. On Wednesday 
morning, September 17, the city's EOC was fully staffed and 
operational and at 10 a.m., the city of Suffolk declared a 
local state of emergency in anticipation of the storm. Suffolk 
public schools were closed at noon on Wednesday and five 
emergency shelters were open by early that evening. It was 
early Thursday morning when Suffolk began experiencing the 
effects of Hurricane Isabel. Sustained hurricane force winds 
were reported in Suffolk between the hours of 5 p.m. and 10 
p.m. that evening, though the city began experiencing 
significant power outages early that morning. By evening, the 
entire city was without electrical service. By late morning on 
Thursday, 20 of the city's sanitary pump stations were down due 
to power outages and a city well system and the city's water 
treatment plant were already operating on generator power. At 
11 a.m., the city made its first contact with the State EOC 
requesting emergency assistance. It was followed that afternoon 
with a formal written resource request. The city asked for 
State assistance with chainsaw crews to help clear out major 
transportation arteries and Hummvees to transport these crews, 
generators to power the emergency shelters and the sanitary 
sewer pump stations, and light stands for the shelters. At 4 
p.m., Thursday, September 18, an additional call was made to 
the State EOC stressing the need for emergency support.
    The only request from the city of Suffolk to the State EOC 
that was addressed was the request for a chainsaw crew to 
assist with clearing major roadways. In response to the city's 
request for generators, the State EOC provided a list of 
vendors we could contact that might supply generators. None of 
those vendors were, however, able to provide us assistance.
    Given the city's urgent need to provide power for emergency 
shelters that housed special populations dependent on oxygen 
pumps and the like, at 4:30 p.m. on Thursday the city began 
pulling generators from the Department of Health and fire 
stations to meet these critical needs. The city's need for 
generators continued to escalate during the storm.
    While the city was able to protect its municipal water 
operations through the use of backup generators at its water 
treatment plant, thousands of citizens served by private and 
community well systems in outlying areas were without water due 
to the power outage. The city has 107 sanitary sewer pump 
stations and approximately 23 of those stations were operating 
with backup generators by early Thursday. There was serious 
potential for environmental problems if the other stations were 
not brought online with some power source. Without generators 
or electrical power, the city had crews working 24 hours a day 
rotating through those pump stations doing pump-and-haul to 
avoid environmental problems with overflow.
    By Friday morning, the city had received no response from 
the State EOC on the provision of generators. At that time, the 
city took independent action to purchase five generators that 
we were able to obtain from a vendor in Kentucky. Delivery of 
these generators on Friday allowed the city crews to provide 
power to some of the key sanitary pumping stations.
    Mr. Scott. Which Friday was that?
    Mr. Herbert. That was Friday after the storm, sir.
    Mr. Scott. The next day.
    Mr. Herbert. Yes, sir on Friday morning, the city faxed a 
request to the State EOC for water buffaloes for use in the 
Whaleyville Borough to address the need for water in this rural 
area. A telephone call was made to the State EOC later that 
afternoon to followup on requests for a water buffalo and to 
again stress the city's need for generators to service 
additional pumping stations and emergency shelters, and for 
Hummvees to transport personnel to clear roadways. It was 
Saturday morning when the State EOC notified the city that 
water buffaloes could not be provided; no word was received on 
the other request.
    The city's first contact with FEMA officials was on Friday 
afternoon following the storm at 4 p.m., when FEMA staff and 
representatives from the U.S. Army Corps of Engineers and the 
DEQ met with city EOC staff to assess life safety issues. The 
city again explained its request and need for two water 
buffaloes and emergency generators for the shelters and pump 
stations.
    At 7:15 p.m. on Friday, a situation report was sent online 
to the State EOC to keep the State advised of the emergency 
situation in Suffolk. On Saturday, September 20, the city held 
another conference call with the State EOC to discuss ongoing 
assistance requests, including the need for water, ice and 
generators. As the city had not received verification from the 
State EOC that its request for generators would be filled, the 
city again went outside and ordered 16 generators on Saturday. 
These generators were received on Monday and they were used to 
provide power to sanitary sewer pumping stations and to larger 
private well systems in the city that provide water to over 
4,000 residents. It was not until Tuesday the 23rd that the 
city was notified by the State EOC that FEMA had denied the 
city's request for generators to run the private community well 
systems.
    The State EOC was contacted again at 7 p.m. on Saturday 
regarding the city's need for water and ice. A resource request 
was sent to follow this up at 8:15 and the city was notified 
that ice and water would be delivered to Suffolk Fire Station 
No. 5 on Route 17 on Sunday. At 4:15 a.m. on Sunday morning, 
the city was notified that water and ice would be available at 
the Virginia Beach pavilion around 3 p.m., that afternoon, but 
that the city would be required to pick it up. The city was 
able to arrange for local businesses to provide trucks for the 
pickup. However, upon their arrival at the distribution 
location, the local trucks were required to wait 7 hours beyond 
the stated pickup time before those supplies arrived at the 
pavilion.
    On Monday, the city learned that no ice would be available 
at the pavilion on Monday, so Suffolk purchased ice directly 
from local merchants and received bottled water through the 
Salvation Army. A copy of the city's request for ice, water and 
generators was faxed to Congressman Forbes for his assistance 
in expediting the process.
    On Tuesday, the city was notified that 7 pallets of ice and 
18 pallets of water would be delivered to the Southampton Fair 
Grounds. Later that day, the city was informed that FEMA had no 
record of the city's request for water and ice. Followup with 
the State EOC reps later that day noted that they did receive a 
request from the city for water and ice and that they were not 
sure why FEMA had not received the city's request. It should be 
noted that once the Army Corps of Engineers assumed delivery of 
water and ice on the 23rd, no further problems were experienced 
with availability or delivery in Suffolk's particular case.
    Wednesday morning, the city faxed to the State EOC a 
request for emergency mosquito control funding and approval of 
funding was received on Friday. Aerial spraying took place on 
October 8th in Suffolk.
    The city received a call on Wednesday from the State EOC 
indicating they were working on a request for generators. With 
the severity of the situation lessening on Thursday morning, 
the city canceled it's request for generators as power was 
gradually being returned and as the city had been able to 
relocate its own generators.
    On Friday the 26th, the FEMA community affairs 
representative arrived at the city EOC to assess our needs, and 
on Saturday, a FEMA representative assessed the armory as a 
location for a disaster relief center. The National Guard 
armory was selected and opened at 1 on Thursday, October 2.
    Given our experiences during Hurricane Isabel, I offer 
these observations and suggestions for improving our emergency 
preparation and response process.
    No. 1, as noted earlier, policies and procedures required 
the city to submit its request for assistance to the State for 
handling by FEMA. Several times there were miscommunications 
between the State and FEMA regarding if and when the city had 
made requests for emergency assistance, resulting in 
significant time lapse prior to the city receiving a response 
to its request. The State EOC and FEMA should conduct a review 
of their communication procedures for emergency situations and 
make changes to better facilitate the communication process.
    No. 2, the State, in cooperation with FEMA, might establish 
a local or regional staging area where prestocked water, ice, 
generators, and food could be quickly mobilized prior to and 
during a storm.
    No. 3, pre-authorization or the establishment of contracts 
between localities and local vendors for some of these services 
and products to go into effect upon the determination of need 
and designation of a State disaster should be considered, 
perhaps on a regional basis.
    No. 4, hurricane disaster exercises should be a State-
coordinated priority on an annual basis. And these exercises 
should be conducted on at least a regional basis.
    No. 5, better and timelier information concerning 
electrical power restoration would be of great value. I will 
note that Dominion Power did a great job once we were able to 
get good communications set up about 2 or 3 days into the 
storm.
    No. 6, a local or regional radio station dedicated 24/7 to 
disaster information would be of great value.
    No. 7, the Governor's personal involvement and discussions 
with elected officials and city managers was useful and 
appreciated.
    No. 8, in Suffolk's case, the involvement of Congressman 
Forbes' office helped expedite the FEMA actions, including the 
establishment of a disaster recovery center at the city's 
National Guard armory.
    No. 9, our last recommendation is that VDOT should 
participate in annual exercises and report to the State EOC 
during a disaster concerning its road clearing plans and 
progress. And I recognize they had other problems in this one.
    I thank you for the opportunity to provide these comments 
and observations and applaud you for conducting these briefings 
with those communities affected by Hurricane Isabel so that we 
might continue to improve our emergency management and response 
procedures.
    Chairman Tom Davis. Thank you very much. Fire Chief Best.
    [The prepared statement of Mr. Herbert follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.051
    
    [GRAPHIC] [TIFF OMITTED] T1421.052
    
    [GRAPHIC] [TIFF OMITTED] T1421.053
    
    [GRAPHIC] [TIFF OMITTED] T1421.054
    
    Mr. Best. Thank you, Mr. Chairman, members of the 
committee.
    Like the other jurisdictions you have heard from today, 
Chesapeake was also impacted by Hurricane Isabel. Our 
preliminary damage estimates indicated that we had in excess of 
$32 million in damages, 8 ight homes totally destroyed, 307 
homes received major damage, and at one point early in the day 
on Thursday, we discovered that perhaps over 90 percent of the 
electrical customers in Chesapeake were without power early in 
the event.
    As a result of this event, we had to mobilize our emergency 
operations system to deliver services on a 24 hour basis, and 
that was for 15 days straight. That was a significant 
historical event for Chesapeake. Never before have we had to 
ramp up our resources and require that type of service from our 
city employees for such an extended period of time. It was a 
very taxing event.
    A storm of this magnitude is certain to create gaps in 
communications and we certainly recognize that there will be 
opportunities for improvement. It is with the highest degree of 
teamwork and cooperation that we provide this committee with a 
sense of the challenges that we experienced in our efforts to 
work with the State and Federal Government to provide critical 
services to our citizens. While we had excellent communication 
on a daily basis with the State emergency operations center--
there were a series of teleconference calls that were 
established--we found ourselves consistently frustrated with 
the lack of coordination among our intergovernmental partners 
and the timely receipt of goods and services from them, many of 
which you have already heard from the panelists. I would like 
to provide you with examples of our experiences.
    With over 90 percent of the city without power, many of the 
residents were in critical need of water and ice. We prepared a 
complete system to receive and distribute those materials to 
our citizens. We had acquired a cold storage warehouse and a 
dry goods warehouse. We had established six distributionsites 
in the city. We acquired trucks and drivers to provide 
distribution services to those sites on a daily basis. All of 
that was accomplished by Sunday the 21st. We were ready to 
distribute water and ice to our citizens at distribution 
locations throughout the city. It took us 3 days to begin 
receiving a reliable source of water and more than 6 days to 
receive ice.
    Concerning ice, we were initially told to expect our first 
shipment from FEMA on Sunday the 21st. As you have heard 
previously, during the next 3 days we experienced those same on 
again/off again notifications concerning when we could expect 
that first shipment. On Tuesday morning we were notified that 
we would not be receiving ice until Wednesday because 
Chesapeake's ice had been diverted to another jurisdiction on 
the peninsula. At that point we were so frustrated with our 
attempt to acquire a reliable source that we too resorted to 
acquiring our own ice from our own vendor and we finally 
established a contract in Florida at a cost of over $55,000. 
Our first shipment of ice, I might note, from our supplier 
arrived in Chesapeake within 16 hours from the State of 
Florida.
    Due to the efforts of our Congressman, Randy Forbes, we 
were able to reverse the trend that had been established 
previously and we began receiving a sustainable supply of ice 
from FEMA late Tuesday night. Public frustration and anger that 
resulted from unfulfilled promises of ice created serious 
erosion of the city's credibility and it brought into question 
our capacity on a local level to adequately respond to citizen 
needs. Our ability to provide these goods was consistently 
stymied by this lack of communication and coordination on the 
part of FEMA and the State. I would like to note, as Suffolk 
did, that over time we were able to obtain a steady supply of 
water and ice from FEMA and once established it did work very 
well.
    I would also like to add that in addition to our city 
employees and volunteers, we would like to recognize the 
members of the Virginia National Guard. They were deployed to 
our city upon request and when they arrived, they worked 
extremely hard. We had over 100 Guardsmen on the street and 
they were a vital asset to us in helping us to manage the 
distribution centers and also provide security and traffic 
control. At one point, all of the major intersections in 
Chesapeake were without some form of traffic control. We had to 
deploy huge numbers of police officers to those intersections 
on a 24 hour-a-day basis in order to keep the public safety at 
an acceptable level of risk. The National Guard helped out with 
that.
    We had similar experiences with generators and diesel fuel. 
We were in critical need of generators to operate sewage pump 
stations to avoid the significant health hazards posed by raw 
sewage overflowing into the city streets. It took us 8 days to 
get those from the Federal Government. We requested diesel fuel 
to resupply our emergency generators at critical facilities 
such as our water treatment plant, and even though we had made 
multiple requests, we never received a single shipment of fuel.
    In the days following the storm, we have had multiple 
groups of FEMA representatives making contact with the city for 
various purposes. The tasks are many and varied and we have 
found that there are as many different FEMA groups and contact 
personnel as there are tasks. This has created a potential for 
confusion, and we have found that more is not necessarily 
always better. An example of the inconsistencies and confusion 
that have resulted in recent attempts to have questions 
answered regarding debris management have been frustrated 
because the contact person we were provided could not be found. 
Attempted calls to the number we were given revealed it was bad 
and when we had that corrected, we found that the person whose 
name we had been given was out on extended leave. We were not 
advised of that, nor have we been provided a new contact person 
to call. As a result, we spent several days getting necessary 
information that we needed in regards to debris management.
    In closing, the city of Chesapeake recognizes the 
tremendous demand for services that an event like Isabel 
requires from all levels of government. We also recognize that, 
working together we can overcome many of the operational and 
communication challenges that were present during this event. 
And it is again in the highest spirit of cooperation and 
teamwork that we offer the following recommendations.
    No. 1, a system should be created that will give local 
governments the ability to track requests for assistance that 
are submitted to the Federal and State government and to bypass 
those layers of control when requests have not been acted upon. 
Our ability to receive services and resources in a timely 
manner is paramount. Equally important is our ability on the 
local level to plan for their arrival so time-sensitive 
decisions can be made and executed in order to provide critical 
services to our citizens.
    No. 2, localities that demonstrate capacity to manage large 
contracts should be permitted to engage in prepositioning 
contracts for materials such as water and ice on an annual 
basis and to activate those contracts at a moment's notice 
following a Presidential Declaration.
    No. 3, one FEMA point of contact should be appointed for 
each jurisdiction to facilitate and coordinate all FEMA 
assistance for that locality.
    No. 4, emphasis should be made to ensure that both Federal 
and State agencies coordinate their response efforts to assure 
that we receive consistency in the information that we have on 
a daily basis as made available to us and that we receive that 
information in a timely, accurate and reliable manner.
    No. 5, FEMA should ensure that prepositioned caches of 
equipment that we have heard about are deployed before an 
expected event but, more importantly to us, that an acceptable 
system of distribution make those assets readily available to 
us within 24 hours of an event.
    No. 6, local governments should be allowed to prequalify 
various levels of expertise that reside within our units of 
government that would streamline our ability to receive 
equipment such as generators without having to wait for a 
Federal response team with comparable qualifications to arrive 
and certify information that is known to be correct. In 
Chesapeake, we had been waiting all those days for generators. 
We found another 24 hour delay because we had sent in detailed 
specifications that our utility engineers had provided FEMA, 
but that was not acceptable to FEMA. They had to deploy a cadre 
of Federal employees into our city to in fact certify that what 
we were requesting was what we needed, and that created another 
24 hour delay. When we finally did get the generators, we got 
them 8 days after we requested. The day after they were 
installed, we were contacted by a Federal official who asked 
that we return the generators to them, to which we replied they 
would not be available until power was restored. [Laughter.]
    No. 7, FEMA should ramp up their public information and 
communication as soon as practical following an event. 
Information concerning the level of relief that citizens can 
expect from the Federal Government is both time sensitive and 
critical to us on a local level. Potential recovery center 
sites should be predetermined each Federal fiscal year in each 
locality that would permit their being placed in service in a 
timely manner following an event.
    Mr. Chairman and distinguished members of the committee, 
the city of Chesapeake appreciates both your concern and your 
interest in continuing to improve our capacity to respond to 
emergency events, not only here in the city of Chesapeake, but 
in the Commonwealth of Virginia and in the Nation as a whole. 
We thank you for the opportunity to discuss our experiences 
resulting from Hurricane Isabel with you today, as well as 
hearing our suggestions for improvements that will better 
prepare us for future events. Mr. Chairman and members of the 
committee, the city of Chesapeake is prepared to do and to make 
available to you, the FEMA, to the Commonwealth, every bit of 
expertise that we have to help us work together to solve these 
issues that occurred during Hurricane Isabel, and we make those 
assets available to you today. Thank you very much.
    [The prepared statement of Mr. Best follows:]

    [GRAPHIC] [TIFF OMITTED] T1421.055
    
    [GRAPHIC] [TIFF OMITTED] T1421.056
    
    [GRAPHIC] [TIFF OMITTED] T1421.057
    
    [GRAPHIC] [TIFF OMITTED] T1421.058
    
    [GRAPHIC] [TIFF OMITTED] T1421.059
    
    Chairman Tom Davis. I want to thank all of you for really 
great testimony.
    You know we pass laws at one level and by the time they 
filter down, sometimes things happen, particularly in 
emergencies, and hopefully some of these will not be repeated 
the next time and we can all learn from them. But as Randy 
says, without finger pointing, we need to learn, and there is 
nothing like being in the arena sometimes to understand what 
went wrong.
    I have to go catch a plane, so I am handing the gavel over 
to Mr. Forbes. I would ask one thing of all of you. I would 
like you to make available to the committee the costs you want 
to have reimbursed and some of the costs you incurred that you 
are not getting reimbursed for, just so we will know how it 
operates there in the field. There may be some that you will be 
fighting with FEMA over, I know that Mr. Forbes will be happy 
to work with you on those issues as well.
    But again, we appreciate everything you have done and 
despite, I think, everybody's best efforts, when something like 
this comes upon you of this magnitude, even when you think you 
are ready for it, mistakes happen. And you are the ones who 
have to wrestle with it at the grassroots. We appreciate 
everything you have done and hope that we can learn from the 
mistakes.
    Randy, thank you. I hand the gavel to you.
    Mr. Forbes [presiding]. Thank you, Mr. Chairman. We thank 
you for being here and for your participation and help with 
these hearings.
    Congressman Scott, do you have any questions for the 
witnesses?
    Mr. Scott. Thank you, Mr. Chairman.
    I guess I will ask the same question I asked some others. 
The FEMA representative said he knew that we were going to be 
without power for 7 to 14 days. How long did you think we were 
going to be without power, before the storm hit?
    Mr. Jolly. I will start if you want me to. I experienced 
the ice storm in 1998 and I had the pleasure of being in my 
position for about 6 months and getting told that I was 
supposed to have the plan to restore it, so it was very real to 
me. It took 7 to 10 days in our jurisdiction and we planned for 
that 7 to 10 days for this event.
    Mr. Scott. OK.
    Mr. Childress. We actually had no good information that 
would provide us with a realistic timeframe of what to expect. 
However, from past experiences such as the ice storm in the 
area, anywhere from around a week we would have expected.
    Mr. Herbert. We relied on Dominion Power to help us with 
that assessment. It took about 2 days before we could really 
get an accurate feel for it. At one point there we thought it 
might be 2 weeks or so. We revised those downward as more 
information came in from them and I think maybe 2 or 3 days 
into it, we were predicting 7 to 10 days.
    Mr. Scott. Well, before the storm hit, how long did you 
think?
    Mr. Herbert. A week.
    Mr. Scott. You thought you might be out of----
    Mr. Herbert. For planning purposes, it was a week, worst 
case.
    Mr. Best. The same was true in Chesapeake, our planning 
assumption was 7 days. After we witnessed the infrastructure 
damage that had occurred in Chesapeake on Friday morning--we 
were out early--we sent four teams out in different directions 
to start getting recon in, and we quickly realized that it was 
going to be more than 7 days. We adjusted to 14 days and then, 
as Suffolk did, we adjusted back as information became 
available.
    Mr. Scott. Well, if you had this kind of length 
expectation, you knew that food would be a problem. Some of the 
other areas I think were looking at 2 or 3 days and you would 
not look at a food crisis. But you cannot cook and the grocery 
stores do not have power so food becomes a crisis. What did you 
do for food?
    Mr. Best. We established a mission in our emergency 
operations center to begin mobilizing the Red Cross, Salvation 
Army and church groups, anyone that had power that could 
provide food. Again, a planning assumption, we asked residents 
to be prepared for 72 hours, so we knew that for the first 72 
hours most of our residents would be prepared. However, we 
realized also that a percentage of the population would not be 
and so again, we relied on the Red Cross and Salvation Army, 
who did respond to our requests for assistance. And so we 
started providing hot meals throughout the city at several 
sites and that was established as early as Saturday. And then 
we ramped that up as we went through the following week.
    Mr. Scott. With the frustrations you experienced, would you 
have been better off or worse off if FEMA had told you they 
were not going to do anything?
    Mr. Herbert. Sure. I think what happened here--we were 
all--some of us have been at this more years than others, but I 
think a lot of us were following a script. We had an emergency 
operation plan and we assumed certain things were going to 
follow that script, much like a military exercise. If it says 
this is going to happen and somebody is responsible for it, you 
expect them to perform. And in this case, I think what happened 
is the confidence level that we had just began to deteriorate 
as we went through, the frustration level went up with the 
inability to get the basics that we were looking for, our 
confidence level went down. So after about 2 or 3 or 4 days, as 
you have heard from all of us, people started doing different 
things on their own. We could have done that earlier, we could 
have done that on day 1 had we anticipated that something was 
going to break down at a higher authority, and that is in fact 
what happened.
    Mr. Childress. I think to echo what Mr. Herbert is saying 
also, is that we have expectations from our training and 
dealings with the State and Federal Government as well. We 
anticipate this to happen and our expectations are rather high, 
and I think maybe perhaps we are setting our expectations too 
high and this will help train us in the future on what we can 
better expect.
    Mr. Best. One added dimension to that--and I agree with the 
training--you know, we attend hurricane conferences and we 
attend State VEMA conferences, and in those we are told pretty 
much what capacity there is to respond and what we can expect, 
and that again sets up our assumptions. In addition to that, 
with the communication that started on Monday before the storm, 
we were repeatedly told, ``we are here to assist you; anything 
you need, you let us know.'' And in fact, as Mr. Herbert 
mentioned, we too appreciated the fact that the Governor of 
Virginia actually established several conference calls with 
local elected officials, and in those conference calls was very 
adamant that, ``we are here for you and we will supply you with 
whatever assistance that you need.'' I think that set up an 
expectation. I agree also that had we known, we could have 
acted sooner, much sooner, and would have been more self-
reliant. I think we have all learned a lesson in that regard.
    Mr. Scott. Mr. Herbert, you indicated that your water 
supply--several of your water supplies were under emergency 
power?
    Mr. Herbert. Yes, sir. Suffolk has--about 80 percent of the 
city is served by the municipal water plant, which was running 
on a backup generator until Dominion Power got power to it and 
we were very fortunate in that regard, to have that much of the 
population serviced by the water system that stayed in 
operation throughout the event.
    Mr. Scott. Now all of--are you familiar with the water 
systems around the State? Because I suspect that was not the 
situation and they ran into problems because they did not have 
backup power.
    Mr. Herbert. Yes sir, I believe that is exactly correct.
    Mr. Scott. Is it your recommendation that water supplies 
have backup power available?
    Mr. Herbert. Absolutely. Our problem was--I think most 
municipalities have backup water systems on their individual 
water plants. Our problem, and it may be the case in other 
parts of the State as well, is private well systems that serve 
a number of citizens. Those in our case had zero emergency 
power.
    Mr. Childress. I would like to echo that. We have a number 
of private water systems within the county of Isle of Wight 
that operate without, I guess, any direction from the county. 
Rather, they only report to the State at that level within the 
Health Department for their regulations.
    Mr. Scott. How many people do these systems serve?
    Mr. Childress. I do not have a number.
    Mr. Scott. Dozens or thousands?
    Mr. Herbert. In Suffolk, it is 5,000 people.
    Mr. Scott. 5,000 people are served by one----
    Mr. Herbert. Local water systems, a number of them.
    Mr. Scott. How many people does each system--are you 
talking about a handful?
    Mr. Herbert. Yes, sir. We have some that are 10 homes, we 
have others that are 100. The Village of Holland is one system, 
for example. So it is a wide spectrum.
    Mr. Scott. Well, Mr. Chairman, I think this is one area we 
might want to look into.
    Mr. Childress. There are multiple proprietors as well, it 
is not just one.
    Mr. Scott. Are they licensed by the State?
    Mr. Childress. Yes sir. We would very much like to have 
some ability to regulate them as well.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Congressman Scott. Congressman 
Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    Mr. Jolly, the hurricane occurred on the 18th, you had your 
damage assessment on the 19th and you got the emergency 
declaration on the 23rd?
    Mr. Jolly. Yes, sir.
    Mr. Schrock. From whom did you get that?
    Mr. Jolly. Finally, we got that declaration through FEMA. 
Unfortunately we had been told for days ahead of that by both 
the Governor's office as well as the EOC in the State that we 
were on the list. Now you put that out in the public, they 
call, FEMA tells them, ``no, you are not.'' That puts a sizable 
stress factor on all of us.
    Mr. Schrock. Where was the disconnect between the State 
and----
    Mr. Jolly. I do not have a clue.
    Mr. Schrock. When you went on these conference calls that 
you all went on with Richmond, did you mention that every time?
    Mr. Jolly. Yes, sir.
    Mr. Schrock. What was the response?
    Mr. Jolly. ``You have been declared.''
    Mr. Schrock. ``You have been declared.'' FEMA said you were 
not?
    Mr. Jolly. Well, FEMA and the State were both on the same 
conference call. You would hope that connection would have been 
made, but it was not.
    Mr. Schrock. You can never assume that, I guess. So 
communications was a big problem.
    Mr. Jolly. I think communications was key. I think that 
is----
    Mr. Schrock. Did you just go ahead and act without that?
    Mr. Jolly. We acted to the point that we could. I mean we 
notified people that turned around and ended up giving us more 
problems. We acted to tell them we were declared, call FEMA and 
register. They did exactly what we asked them to do, they 
called us back and said, ``why are you telling us to do that?'' 
FEMA in turn is saying, ``you are not declared and we cannot 
take the information;'' which only elevates the stress level of 
the event.
    Mr. Schrock. Doggone right. That is a huge problem and that 
is something that has to be resolved.
    Mr. Scott. Would you yield on that?
    Mr. Schrock. I will yield.
    Mr. Scott. We had the same problem in New Kent, where they 
thought they were on and thought they were not. I think one 
little element he just mentioned was whether FEMA could even 
take the information. Perhaps we might want to make a note that 
they ought to be able to take the information and when the 
declaration finally comes through, then the people do not have 
to start calling, they have already made their calls. Thank 
you.
    Mr. Schrock. Certainly.
    Mr. Jolly. I will also mention that FEMA told us to tell 
them exactly that, ``go on and register, get the information 
there so when it finally does become declared the information 
will be there.'' We did that; they could not get that process 
to work.
    Mr. Schrock. Mr. Childress, I believe a carrier pigeon 
would have done much better than that. And here again, that is 
a communications problem that needs to get resolved and there 
are a lot of ``ifs,'' right?
    Mr. Childress. Yes, sir.
    Mr. Schrock. OK. You were talking about where to set up 
some of the emergency equipment. Did your county, did Isle of 
Wight tell FEMA where it should be set up or did they come in 
and tell you where it was going to be set up?
    Mr. Childress. We offered up a distribution location for 
water and ice within the county as they were searching for 
these distributionsites, but they elected to take the 
Southampton County site over our particular site.
    Mr. Schrock. Why?
    Mr. Childress. In my assumption it would be that it better 
served the region that they were supplying because they were 
also handling Suffolk and Southampton and so forth within 
Surrey County as well as us.
    Mr. Schrock. Did that cause you a lot of inconvenience?
    Mr. Childress. It did initially because we would place the 
orders, we would be told that they were being delivered to our 
distribution center, which was set up at our public works 
compounds, then the items would now show up. We would call them 
back and they would say, ``no, you need to come and pick it 
up.'' Then we would have to try to arrange for transportation, 
which we are very limited in our means. And then once we would 
muster some individuals that could do that, we would then be 
notified, ``oh, by the way, it should be showing up at your 
compound about now.'' So there was some frustration with the 
logistics there.
    Mr. Schrock. That all boils down to communications.
    Steve Herbert, your chronology was wonderful. It was like 
listening to a 30 minute either horror story or sitcom on TV, 
but it was a great chronology to show all the things that could 
be done. I cannot believe you had to get generators from 
Kentucky. How many calls did you make and to where before you 
finally got someone in Kentucky to say, ``yes, we will send you 
the generators?''
    Mr. Herbert. Well sir, sometimes you get lucky in these 
things. I think that we had a person, a financial officer, the 
city's chief financial officer, who just through some work in 
about an hour found this dealer and put the thing all together 
and it worked. We went back, and actually bought about 16 more. 
So we have a pretty good prepositioned stock of generators.
    Mr. Schrock. But if you had known before that was going to 
be the process, you would have been making those calls days and 
weeks in advance.
    Mr. Herbert. We would have.
    Mr. Schrock. So that when the balloon went up, you could 
call Kentucky or wherever you had to call. That is another 
thing that needs to be factored into this.
    Chief Best, I gather from you it is coordination, 
coordination, coordination; communications, communications, 
communications; and practice, practice, practice.
    Mr. Best. Yes, sir.
    Mr. Schrock. Did you just bypass the system and move on?
    Mr. Best. Well, like the others, we----
    Mr. Schrock. And I am not saying that is a bad thing. I 
think that is a very good thing if you did.
    Mr. Best. Well, yes sir, we had to do that in order to find 
our own supply of fuel and generators. We too had located a 
supplier of generators as well. However, what we found was that 
we could not get them here in an acceptable amount of time.
    But, you know, I think one of our biggest problems was we 
kept being told that, ``it is going to be there.'' You know, 
``you need to call this contractor and he has generators for 
you.'' And when we called the contractor, he said, ``I do not 
know what you are talking about, I do not have any generators 
for you.'' And then, when we called back, they said, ``well, we 
will have the Army Corps, we will give them a mission, they 
will be in touch with you.'' And every day, ``they will be in 
touch with you.'' And it just continued every day until finally 
we were able to get some form of contact.
    Mr. Schrock. Did I hear you say you gave the emergency 
services people a list of what you needed and they said, ``no, 
you do not?''
    Mr. Best. Yes. What happened was--and we were not aware of 
this--our public utility engineers developed a very detailed 
set of specifications on the generators so that there would be 
no question as to exactly what they needed for the sewage pump 
stations in the city. We have 250 sewage pump stations in the 
city of Chesapeake, and at one point, 249 of those were out of 
service. So we had a significant health threat that we were 
looking at. And we just simply--we have a cache of generators, 
we just simply do not have enough to handle that magnitude of a 
power outage. And so that is why we were requesting assistance, 
and we needed it fairly quickly. We sent the specifications up 
along with our request on two channels, one through the e-mail 
and also by fax to the State EOC, and eventually what happened 
when we did get contacted, it was with a team that showed up in 
the city unannounced, showed up at 5 on the day before we 
started getting generators saying, ``we are here to review your 
specifications and make sure that this is exactly what you 
need.'' That created another 24 hour delay for us and then 
finally, we were able to get generators installed.
    Mr. Schrock. Who knows better than you what you need, you 
are on the scene from day 1.
    Mr. Best. And that prompted our recommendation that if in 
fact that is an issue, then let us prequalify those individuals 
in our city so that we can get that paperwork out of the way 
before an event, not after an event.
    Mr. Schrock. Let me just finish up by saying what I said to 
your counterparts at the hearing today. You guys are the real 
heroes, you guys are the tip of the spear, you and your people 
are the ones that had to be there from minute 1and you did a 
fantastic job. And I think there are lessons we can learn from 
you and hopefully in the summary that we do, that will 
certainly be indicated. But I thank you for what you did and 
thank you for your testimony, it was great.
    Mr. Forbes. Thank you, Congressman Schrock.
    One of the things that I think we have recognized from all 
these hearings is that we had a lot of State and Federal 
employees as well as local employees we have talked about who 
did absolutely extraordinary and wonderful jobs. I think we can 
conclude by the State's testimony, and Congressman Scott has 
certainly brought that out today, that the State grossly 
underestimated the damage that would take place from this 
storm. The localities I do not think did. Many of them felt it 
was going to be about 7 days of power outages. I think Dominion 
Power if you really talk with them, they will tell you they 
felt it was going to be 9 or 10. FEMA people felt it might be 2 
weeks. The NOAA people felt pretty much that they hit the storm 
on the nose.
    The thing we need to remember is that this hearing and all 
that we are doing--and this is why I thank so much all the 
people that have traveled from all over the region to come down 
to this hearing--this hearing really is not about Hurricane 
Isabel, there is not much we can do about that, it is gone. 
This hearing is about what happens in the next emergency that 
we have that could be far greater. There are some troubling 
problems that we have and we have two choices. We can throw our 
hands up and say, ``oh, no, that just happens in emergencies, 
there is nothing we can do,'' or we can go through this kind of 
uncomfortable process of trying to say, ``how do we make it 
better?''
    One thing still seems to be anathema to me and that is this 
relationship between FEMA and the State. I cannot for the life 
of me understand what is going on there, but we have to get a 
handle on it. When we had a hearing earlier where the FEMA 
folks were saying, ``the State has not filed the form,'' after 
they have researched it, and the State is saying, ``we have not 
filed the form,'' and then a few hours later the forms appear 
supposedly, ``we have to go through all these forms to see 
which form is what,'' you scratch your head. I mean the FEMA 
people, even in the news articles--I have a news article here 
from the Virginia Pilot on the 25th--where they are saying the 
same thing, ``forms are not filed, you have not requested 
information.''
    Congressman Scott talked about the phone calls that you 
had, and Congressman Davis looked to me at one time and he 
said, ``everybody is making all these phone calls but nothing 
ever happened after the phone calls.'' And, you know, at some 
point in time, and I want to tell you, the three of us, if we 
do not do anything else, one of the things we do is rant, rave, 
scream, whatever we have to do after we have made those phone 
calls to find out why something is not taking place. I cannot, 
for the life of me, understand still. On Friday, when you are 
in not one but two conference calls, these resources are 
supposed to come and the FEMA people are saying, ``no, the 
forms have not been filed,'' State people say, ``OK, we filed 
them,'' why somebody is not saying, ``why are the resources 
moving on Friday?'' And then on Saturday, you have two more 
phone calls and no resources are moving and nobody can get an 
answer as to why the resources are not moving--and Sunday the 
same thing--we have to remedy that problem because I will tell 
you, as sure as we are standing here, there will come a day 
when it will not be water and it will not be ice, it will be 
vaccines, it will be medicine or it will be something else, and 
we cannot afford that to take place. The message you kind of 
get from this is, ``do not really count on the State and 
Federal Government. What they do is good and it is great, but 
you guys are kind of on your own.'' And you should not have to 
be there.
    The other thing that I think is vitally important to us is 
that at some point in time, we have to develop a State and 
Federal basis, if we do not have it, and I just have not seen 
it, some objective criteria for what we are going to do in 
emergency situations. Whether it is setting up distribution 
centers or whether it is distributing water or distributing ice 
or whether it is setting up recovery centers, you cannot have 
this picture take place because if you do, the public is going 
to say, ``everything that takes place is partisan,'' or, 
``everything that takes place is knee jerk reaction'' or, ``it 
is not fair and it is not equitable.'' And the worst thing you 
can have in an emergency situation is for the public to lose 
confidence in what we are doing, that it is not objective and 
it is not fair.
    The final thing that I will just say is, we have to somehow 
get a handle on the accountability for the vendors that we are 
using. When you buy ice--and again, I cannot tell you this is 
true, I can only tell you this is the testimony we have gotten, 
it might change tomorrow--but we have had testimony or people 
tell us that, ``39 trucks of ice is on the way, three show up 
and they do not have a clue where the other 36 trucks are--not 
a clue.'' They do not know whether they are in Alabama, do not 
know whether they are in Canada, do not know whether they are 
in Texas. We have to find a way of cutting through that. And we 
just appreciate all of you helping us and being a part of how 
to do that.
    I would just like to thank all of our witnesses for 
appearing today and I would also like to thank the staff who 
worked on the hearing. I also would like to add that the record 
will be kept open for 2 weeks to allow witnesses to include 
other information into the record.
    Congressman.
    Mr. Scott. Mr. Chairman, I want to thank you for having the 
hearing here and Ed for having a hearing in Norfolk and Jo Ann 
Davis for having a hearing with another committee in York 
County, it shows the concern that we have. And Jo Ann would 
have been here obviously, but she had a longstanding commitment 
that she could not get out of.
    I want to just express my appreciation because what 
happened should not happen again, and wherever the blame is, 
that is behind us. We are committed to improve the situation so 
that people will know what to expect, when to expect it, that 
it will be delivered as promised and the localities will know 
what to expect and what is expected of them. I think our 
constituents will be much better served.
    Mr. Schrock. Let me say one more thing too. I hope you do 
not think that we are just going to walk out of here and say, 
``gee, that was a nice conference, we did our duty,'' and go 
about business as usual. We are not. We need, the three of us, 
Congressman Davis--both Congresspeople Davis--we need to make 
sure this thing works and we need to poke and push until this 
thing gets fixed. We would like you all to be a part of that 
process because it seems to me, you were the ones on the ground 
from day 1 and you can be a vital link in making this thing 
happen, making this thing work better, because it did not work 
as well as it should.
    The thing I worry about is a terrorist attack more than 
anything else. You would not have 8 or 9 or 10 days to plan for 
it, it would be on you instantly and you have to respond. And 
as Randy said, the vaccine thing could be a horrendous 
undertaking, so we are going to expect you all to help us with 
that and I think we can make this thing work and hopefully be 
the example to the rest of America in the different disasters 
they have.
    So again, thank you.
    Mr. Forbes. And the final thing I will just tell you is one 
of the good things about Virginia is our congressional 
delegation works, I think, better together than probably any 
congressional delegation. As Ed mentioned, we are not going to 
sweep this under the rug. We may appear to you looking like 
Rumpelstiltskin, yelling and screaming until we find out the 
problem but again, it is not the point to blame; it is just 
because we do not want this to take place again.
    So this hearing is now adjourned.
    [Whereupon, at 4:09 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1421.060

[GRAPHIC] [TIFF OMITTED] T1421.061

[GRAPHIC] [TIFF OMITTED] T1421.062

[GRAPHIC] [TIFF OMITTED] T1421.063

[GRAPHIC] [TIFF OMITTED] T1421.064


</pre></body></html>
